          October 1, 1999
                     2001 -–March
                            March31,
                                  31,2000
                                     2002




                                 OFFICE OF INSPECTOR GENERAL




SemiannualReport
Semiannual Report
       toCongress
      to Congress
   Including
 Including   Significant
           Significant   Activities
                       Activities ofof
                                    thethe Inspection
                                         Inspection   Service
                                                    Service
                     A Message from the
                     Inspector General
                     A Time for Reflection and Continued Passion


                     S
                             ometimes rocky, sometimes rewarding, always gratifying—that’s how I
                             would describe the journey of establishing this office. Over the past
                             five years, we traveled many miles and forged significant new paths.
                           As I reflect on all we have accomplished, I realize that I could not have
                     done it without the commitment and passion of those who walked the jour-
                     ney with me. In 1997, Congress presented us with a challenge to create a
KARLA W. CORCORAN
 Inspector General   totally new organization that would independently investigate and evaluate
                     Postal Service programs and operations. We did it! Together, we built an
                     organization over 700 strong that adds value to Congress, the Postal Service
                     Governors, the Postal Service, and the American public.
                           We turned our passion for the challenge into performance by building an
                     organization that assists the Postal Service through reviews of its processes,
                     operations, and management controls. To date, we have identified over
                     $1.9 billion in potential savings, cost avoidances, unrecoverable costs, fines,
                     penalties, and recoveries related to postal operations. In addition, we have
                     performed hundreds of reviews, audits, and investigations which contribute
                     to a more efficient, effective Postal Service. Our success in identifying areas
                     where the Postal Service can control costs, increase revenues, strengthen
                     labor-management relations, and improve management processes and con-
                     trols is due in large part to our position as an independent, objective organi-
                     zation not subject to influence by Postal Service management.
                           One of my proudest accomplishments during these first five years is our
                     fierce fight to maintain that independence. We fought the battle in the
                     inspector general community, taking the lead and helping to overturn an ini-
                     tiative to take it away. We pursue it every day as we strive to perform our work
                     in an environment of objectivity and impartiality, when we seek to obtain
                     documents that are denied to us, and when we are on the streets conducting
                     investigations and our authority is questioned. Although the Inspector Gen-
                     eral Act has been in existence for almost 25 years, the Postal Service has only
                     had an independent inspector general for five years. The lack of experience
                     with and knowledge of how an independent inspector general works has led
                     to misunderstanding and confusion that we hope will be resolved in the
                     future through our education and outreach efforts.
                           During our 5-year tenure, the Postal Service has faced predictable as well
                     as unforeseen challenges—severe financial losses resulting from controllable
                     and uncontrollable factors, strained labor relations, the devastating events of
                     September 11, 2001, the terror of anthrax in the mail, and now a prolifera-
                     tion of mailbox bombs. We have been with the Postal Service through it all
                     and our commitment to and passion for our mission has not wavered.
                           This, our eleventh Semiannual Report, sets forth the significant activi-
                     ties and accomplishments of this office and the Inspection Service from
                     October 1, 2001, through March 31, 2002. It details our efforts to combat
                     fraud, waste, abuse, and mismanagement within the Postal Service; and ful-
                     fills our reporting requirement under the Inspector General Act and Inspec-
                     tion Service requirements under the Mail Order Consumer Protection Act.
                                           In this reporting period, the Office of Inspector General issued 283 audit reports, 102 management
                                           advisory reports and other products, and closed 56 investigations. Our efforts resulted in more than
                                           441 written products to strengthen Postal Service programs and operations.
                                                During these six months, the Inspection Service experienced a change in leadership when
                                           Chief Postal Inspector Kenneth Weaver retired. The Board of Governors also had some changes.
                                           We said goodbye to Governor Tirso del Junco, whose term ended in December.
                                                We had a few changes in our own leadership team. We bid farewell to Billy Sauls, Assistant
                                           Inspector General for Investigations, who left in January to establish a new office for the Federal
                                           Reserve Board of Governors, and welcomed Sam Maxey as the new Assistant Inspector General
                                           for Investigations. In addition, Gladis Griffith was named Deputy Assistant Inspector General for
                                           Congressional, Oversight, and Legal Services; and Mary Demory was named Deputy Assistant
                                           Inspector General for Internal Business. We are delighted to add each of them to our team as we
                                           move into the future.
                                                As we reflect on our past, we can’t help but wonder, “Where will the next five years take us?”
                                           While we obviously cannot predict the future, we can say with certainty that we will continue to
                                           bring passion and integrity to our work and tackle any future challenges.
                                                We know that we have a big job ahead of us in the coming years. Not the least of these chal-
                                           lenges before us is examining the Postal Service’s proposed Transformation Plan. In April, the Postal
                                           Service presented to Congress their proposal, which includes changes to their existing structure and
                                           operating procedures. While these proposed changes are purported to help turn around the Postal
                                           Service’s precarious position, reaction to the Plan has been mixed. While we realize drastic mea-
                                           sures may be required to bring the Postal Service back to a position of solvency and viability, we
Inspector General Karla Corcoran and
                                           believe there are many questions to be asked and issues to be addressed for this plan to succeed. We
Deputy Inspector General Tom Coogan
said goodbye to Assistant Inspector        are currently reviewing it to determine its efficacy and will present our findings to Congress, the
General for Investigations Billy Sauls     Governors, and the Postal Service.
in January.                                     In closing, I want to say that I am extremely proud of this agency’s accomplishments and look
                                           forward to it adding value to the Postal Service in the coming years. I would like to end with a quote
                                           from Aristotle which I believe captures the essence of an inspector general’s often difficult role:
                                           “Courage is the most important of the virtues, because without it you can’t practice any of the other
                                           virtues consistently.”

                                               Sincerely,




                                               Karla W. Corcoran
                                               April 30, 2002




Inspector General Karla Corcoran and
Sam Maxey, new Assistant Inspector
General for Investigations, said goodbye
to retiring Chief Postal Inspector
Kenneth Weaver (left).




                                PAGE 2     A MESSAGE FROM THE INSPECTOR GENERAL
Table of Contents
EXECUTIVE SUMMARY............................................................................................5
MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE ............................9
RESPONDING TO TERRORISM ..............................................................................17
PERFORMANCE REVIEWS ......................................................................................23
   Office of Inspector General ........................................................................24
   ◆ Accepting and Processing Reviews ........................................................24
   ◆ Transportation and Delivery Reviews ....................................................25
   ◆ Marketing Reviews ..................................................................................26
   ◆ Consulting & Quick Response Reviews ................................................26
   ◆ Legislative, Regulatory & Policy Reviews..............................................26
   Inspection Service........................................................................................28
FINANCIAL MANAGEMENT REVIEWS ..................................................................29
   Office of Inspector General ........................................................................30
   ◆ Financial Opinion Audits ......................................................................30
   ◆ Financial-Related Reviews......................................................................31
   ◆ Contracting and Facilities Reviews ........................................................33
   ◆ Legislative, Regulatory & Policy Reviews..............................................37
   Inspection Service........................................................................................42
TECHNOLOGY REVIEWS ......................................................................................43
   Office of Inspector General ........................................................................44
   ◆ Developmental Reviews..........................................................................44
   ◆ Information Systems Reviews ................................................................45
   ◆ Systems Development Reviews ..............................................................46
   ◆ eCommerce Reviews ..............................................................................47
   ◆ Computer Intrusion Investigation Activities ........................................48
   ◆ Legislative, Regulatory & Policy Reviews..............................................49
   Inspection Service........................................................................................51
LABOR MANAGEMENT REVIEWS ........................................................................53
   Office of Inspector General ........................................................................54
   ◆ Workplace Environment Reviews ..........................................................54
   ◆ Human Resource Process Reviews ........................................................54
   ◆ Health Care Reviews ..............................................................................55
   ◆ Legislative, Regulatory & Policy Reviews..............................................57
   Inspection Service........................................................................................59
OVERSIGHT OF THE INSPECTION SERVICE AND
OTHER SIGNIFICANT ACTIVITIES ........................................................................61
   Office of Inspector General ........................................................................62
   ◆ Oversight of the Inspection Service Reviews........................................62
   ◆ Other Significant Activities....................................................................64
   ◆ Legislative, Regulatory & Policy Reviews..............................................65
   Inspection Service........................................................................................68


                                                                                                                  PAGE 3
         CUSTOMER SERVICE ............................................................................................69
            Office of Inspector General ........................................................................70
            ◆ External Communications ......................................................................70
            ◆ Specialized Services ................................................................................73
            Inspection Service........................................................................................74
         GOALS AND STRATEGIES ....................................................................................75
            Office of Inspector General ........................................................................76
            Inspection Service........................................................................................80
         ORGANIZATIONAL DYNAMICS ............................................................................81
            Office of Inspector General ........................................................................82
            ◆ Notable OIG Achievements ..................................................................84
            ◆ Challenges Facing the OIG ....................................................................86
            Inspection Service........................................................................................90
         ORGANIZATIONAL STRUCTURE ..........................................................................91
            Office of Inspector General ........................................................................92
            ◆ OIG Field Locations ................................................................................96
            Inspection Service........................................................................................97
         APPENDICES ........................................................................................................99
            Appendix A - Reports Issued to Postal Management ............................100
            Appendix B - Findings of Questioned Costs ..........................................110
            Appendix C - Recommendations That Funds Be Put to Better Use....112
            Appendix D - Reports with Significant Recommendations Pending
                              Corrective Actions ..........................................................113
            Appendix E - Investigative Statistics ......................................................117
            Appendix F - Summary of Postal Service Investigative Activities
                             Under 39 USC § 3013......................................................118
            Appendix G - Closed Congressional and
                              Board of Governors’ Inquiries..........................................123




PAGE 4   TABLE OF CONTENTS
Executive Summary




  DID YOU
  KNOW?
 When was Postal Service OIG established?
 Congress created the Postal Service Office of
 Inspector General in 1996. Karla W. Corcoran
 was hired by the Postal Service Governors and was
 sworn in as the Postal Service’s first independent
 Inspector General on January 6, 1997, and has a
 7-year appointment in this position.




                                            PAGE 5
                                     This Executive Summary highlights the               ◆   leveraging technology;
                                     Office of Inspector General (OIG) and               ◆   ensuring data integrity and reliability;
                                     Inspection Service accomplishments from
                                                                                         ◆   maintaining information security and
                                     October 1, 2001, through
                                                                                             customer privacy; and
                                     March 31, 2002, that are contained in
                                     this Semiannual Report to Congress.                 ◆   balancing public service and commercial
                                                                                             enterprise.
                                                                                              The following highlights the accomplish-
                                     EXECUTIVE SUMMARY                                   ments of the OIG and Inspection Service under
                                                                                         the specific subject areas:


                                     T
                                              his Executive Summary provides a syn-
                                              opsis of the work reported during this     (1) Responding to terrorism focuses on the
                                              6-month period. This issue of the Semi-    challenges of protecting postal employees and
                                     annual Report addresses the major issues facing     customers from exposure to biohazardous mater-
                                     the Postal Service and the work performed by        ial, and safeguarding the mail system from future
                                     the OIG that helped improve postal operations.      bioterrorism attacks while maintaining current
                                     It also provides a general overview of Inspection   service levels to the American public. Some of
                                     Service operations and specific examples of         the work performed in this area included:
                                     work related to the detection and prevention of
                                     fraud, waste, abuse, and mismanagement.             ◆   Evaluating the Postal Service’s response
                                           The OIG is responsible for conducting all         to the anthrax threat in several areas,
                                     audits of Postal Service programs and opera-            including safeguarding employees, com-
                                     tions. In addition, the OIG, along with the             munication of safety and health informa-
                                     Inspection Service, conducts investigations to          tion, purchasing of safety material and
                                                                                             sterilization equipment, decontamination
                                     prevent and detect fraud, waste, abuse, and mis-
                                                                                             of facilities and mail, and transportation
                                     management affecting the Postal Service. Both
                                                                                             of mail;
                                     conduct investigations that play a vital role in
                                     helping the Postal Service make improvements.       ◆   Concluding that the Postal Service failed
                                     Work performed by the OIG and the Inspection            to get advance approval from local gov-
                                     Service is included in this report to present           ernment officials to process sanitized mail
                                                                                             and deploy irradiation equipment at two
                                     Congress and the Governors a unified report of
                                                                                             facilities resulting in up to $1 million
                                     the Postal Service’s efforts to combat fraud,
                                                                                             needlessly spent preparing facilities for
                                     waste, abuse, and mismanagement.
                                                                                             sanitizing mail;
                                           In this, the OIG’s eleventh Semiannual
                                     Report, the work has been categorized into nine     ◆   Finding that expedited contracts awarded
                                     subject areas: responding to terrorism, perfor-         in response to the biohazard threat
                                                                                             deviated from standard contracting
                                     mance, financial management, technology,
                                                                                             procedures and provisions. One review,
                                     labor management, oversight of the Inspection
                                                                                             involving a $34 million contract, and
                                     Service and other significant reviews, customer
                                                                                             another review of 10 contracts totaling
                                     service, organizational dynamics, and organiza-         $70.3 million revealed that the Postal
                                     tional structure. These nine areas include OIG          Service omitted or deviated from some
                                     work addressing the following 10 major man-             standard contract provisions designed to
                                     agement issues facing the Postal Service:               safeguard it from financial and environ-
                                     ◆   physical security and safeguarding the              mental risk; and
                                         mail;                                           ◆   Assisted the Federal Bureau of Investiga-
                                     ◆   maintaining customer confidence;                    tion on various counter-terrorism task
                                                                                             forces and tip line centers, and continued
                                     ◆   resolving workforce and workplace issues;           to assist the National Infrastructure Pro-
Management Committee and Deputies    ◆   controlling costs;                                  tection Center in the use of computer-
                                     ◆   protecting revenues;                                assisted investigative techniques to iden-
                                                                                             tify potential suspects in the attacks.
                                     ◆   managing acquisitions and contracts;



                            PAGE 6   EXECUTIVE SUMMARY
(2) Performance focuses on the critical core       ◆   Investigating a $750,000 tort claim filed
business processes needed to succeed in a com-         against the Postal Service which resulted
petitive environment. The OIG conducted 8              in dismissal of the lawsuit; and
reviews in this area, which include projects       ◆
that will help save the Postal Service about
                                                       Investigating a $7 million lawsuit result-
                                                       ing from an accident which was settled                 DID YOU
$87 million in current and future years. A few
examples of OIG work in this area included:
                                                       for $185,000.                                          KNOW?
                                                   In addition to other work, the Inspection Ser-
◆   Disclosing that the Postal Service could       vice reported:
    save over $80 million over 12 years by
                                                   ◆   Revenue investigations that resulted in
                                                                                                    Did You Know?
    purchasing instead of leasing trailers;                                                         The OIG is the 4th largest
                                                       23 arrests and 29 successful criminal con-
◆   Revealing that the Postal Service could            victions.                                    federal Office of Inspector
    save up to $5 million over 5 years by                                                           General employing over 700
                                                   ◆   Initiation of 210 employee embezzlement
    reducing trailer door damage;
                                                       investigations, which documented losses      employees with 15 field
◆   Determining that the Postal Service                of over $2.2 million.                        locations throughout the
    lacked data to accurately evaluate the
                                                   (4) Technology encompasses reviews of devel-     United States.
    financial performance of retail stores;
                                                   opmental systems, computer security, electron-
◆   Concluding that Postal Service could           ic commerce, and computer intrusion detec-
    improve mail delivery by sharing its best      tion activities. The OIG performed 25 reviews
    practices;
                                                   and investigations in this area. Some of the
◆   Recovering over $87,000 from a contrac-        more significant OIG activities included:
    tor who submitted false claims; and
                                                   ◆   Concluding that the Processing Opera-
◆   Identifying that a contractor, who was             tions Information System was not an
    awarded five highway contracts, did not            effective decisionmaking tool for manag-
    provide workers’ compensation coverage             ing processing operations;
    for its employees, as required by the
    contracts.                                     ◆   Revealing weaknesses in a facilities man-
                                                       agement system that could affect the
     The Inspection Service conducted numer-           data integrity of the system;
ous investigations in the area of mail theft,
                                                   ◆   Disclosing that the Postal Service spent
resulting in the arrests of over 300 employees
                                                       $22 million on five independent public
and over 2,500 non-employees or contractors.           key infrastructure initiatives that either
(3) Financial management incorporates finan-           overlapped in some areas or could over-
cial-related reviews, financial opinion work,          lap as they proceed; and
and contracting and facilities reviews. The        ◆   Reviewing postal computer network fire-
OIG completed 258 reviews and investigations           wall logs that led to an employee’s resig-
that identified over $52.4 million in ques-            nation for having pornographic images in
tioned costs and opportunities to save $5.4 mil-       a postal computer.
lion during current and future years. Some of      In addition to other work, the Inspection Ser-
the more significant OIG activities include:       vice reported:
◆   Identifying non-compliance with Postal         ◆   Continuing the development of the
    Service regulations and minor weakness-            Business Mailers Industry Task Force
    es in internal control at 180 facilities;          Website for use as a communication tool
◆   Identifying that the Postal Service paid           by the task force members; and
    $45 million for 30 properties which were       ◆   Creating the Anthrax Information and
    never developed, utilized, or referred for         Mail Security Websites as well as the
    disposal;                                          Anthrax Reporting Incident System. The
◆   Disclosing that the Postal Service’s relo-         Anthrax Information Website contains
    cation loan program was more generous              Federal Bureau of Investigation and
    than other federal agencies and large              Postal Service press releases, known mail-
    companies;                                         ing lists, Federal Bureau of Investigation
                                                       evidence photos, and an Inspection

                                                                                                     PAGE 7
                                         Service Biological and Chemical               ◆   Disclosing that the Inspection Service’s
                                         Weapons presentation.                             executive awards ranged up to $20,000,
                                                                                           to 100 percent of its eligible executives
                                     (5) Labor management focuses on issues relat-
                                                                                           during FYs 1999 and 2000, and the pro-
       DID YOU                       ed to the workplace environment, human
                                     resources, and health care. During this report-
                                                                                           gram was not implemented as approved
       KNOW?                         ing period, the OIG conducted 46 reviews and
                                                                                       ◆
                                                                                           by the Board of Governors;
                                                                                           Concluding that although the Inspection
                                     7 investigations in this area, which included:
                                                                                           Service effectively safeguarded collected
                                     ◆   Concluding that although sexual harass-           evidence, it could improve its practices
How does the OIG and Postal              ment prevention policies and procedures           for maintaining, controlling, and dispos-
Service resolve report                   were adequate, discipline, training, and          ing of evidence;
                                         investigative efforts could be improved;
disagreements?                                                                         ◆   Revealing that a postal executive
                                     ◆   Assisting the Postal Service with reduc-          received consulting fees and conducted
The OIG and the Postal Service
                                         ing administrative leave cost by over             personal business with a Postal Service
have developed a Report Response         $3 million in calendar year 2001;                 contractor and as a result was placed on
and Resolution process to resolve    ◆   Revealing that the use of the economic            administrative leave pending possible
differences of opinion on audit          value-added concept was not an appro-             removal; and
findings and recommendations.            priate methodology to fund the Postal         ◆   Finding that the Inspection Service
Disagreements are elevated               Service’s Pay for Performance Program;            issued a sensitive security clearance to a
through successively higher levels       and                                               postal contractor who had a prior federal
of management in an attempt to       ◆   Conducting an investigation resulting in          felony conviction for unlawful receipt of
                                         an individual receiving 8 years probation         pornographic images of children.
reach resolution. If agreement is
                                         and paying $24,000 in restitution to the           The Inspection Service conducts numer-
not reached, the Inspector               Federal Employees Health Benefits             ous investigations covering significant issues in
General may elect to submit the          Program.
                                                                                       the areas of physical security; narcotics offenses
disagreement to the Governors        The Inspection Service work resulted in the:      and trafficking; child exploitation; prohibited
for final resolution.                                                                  mailings; postal burglaries; mail fraud including
                                     ◆   Sentencing of a former California mail
                                         handler to 5 years probation, after plead-    fraud against consumers, fraud against business-
                                         ing guilty to mail fraud. The former mail     es, and fraud against government; and money
                                         handler also was ordered to pay over          laundering.
                                         $15,000 restitution.                          (7) Customer service focuses on the OIG and
                                     ◆   Sentencing of a former Florida letter car-    the Inspection Service efforts to provide cus-
                                         rier to 2 years imprisonment and 3 years      tomer service, including support functions to
                                         supervised release for misrepresenting a      enhance service to internal customers and Hot-
                                         medical condition. In addition to the         line operations.
                                         incarceration, the former employee was
                                                                                       (8) Organizational dynamics focuses on the
                                         ordered to pay over $92,500 in
                                                                                       OIG and the Inspection Service vision, values,
                                         restitution.
                                                                                       culture, and diversity.
                                     ◆   Sentencing of a former Ohio letter carri-
                                         er to 8 months incarceration for making       (9) Organizational structure focuses on the
                                         false statements to obtain federal employ-    OIG and the Inspection Service headquarters
                                         ees’ compensation benefits. In addition,      and field structure.
                                         the former letter carrier was ordered to
                                         pay over $72,500 in restitution.
                                     (6) Oversight of the Inspection Service and
                                     Other Significant Activities. In this area, the
                                     OIG completed several reviews of the Inspec-
                                     tion Service, and 19 investigative efforts and
                                     reviews of other significant issues related to
                                     Postal Service operations, which included:



                          PAGE 8     EXECUTIVE SUMMARY
Major Management Issues
Facing the Postal Service




      DID YOU
      KNOW?
     How long is a Postal Service Governor’s Term?
     The Postal Service has an 11-member Board of
     Governors which is comprised of nine presidentially-
     appointed Governors, the Postmaster General, and
     the Deputy Postmaster General. The Governors
     serve a staggered nine-year term and no more than
     five Governors can belong to the same political party.




                                                PAGE 9
                                                                                           that not only addresses natural disasters but also
                                      MAJOR MANAGEMENT                                     protects its entire critical infrastructure. In light
                                      ISSUES FACING THE                                    of the September 11, 2001 terrorist attacks, the
                                      POSTAL SERVICE                                       Postal Service must comply with national
        DID YOU                                                                            efforts, such as Presidential Decision Directive


                                      T
                                              he Postal Service is facing challenging
        KNOW?                                 times. Long-term technological and
                                                                                           63, which are designed to protect the infrastruc-
                                                                                           ture of the United States from terrorist attacks.
                                              commercial trends are reshaping the
                                                                                                To assure the physical security and safe-
                                      collection, transportation, and delivery of
                                                                                           guarding of the mail, the Postal Service has been
Why does the OIG review               postal products. These trends, as well as chal-
                                                                                           actively seeking solutions to detect biohazardous
                                      lenges resulting from current financial losses,
proposed legislation,                 bioterrorist threats, and employee issues, were
                                                                                           materials and/or sanitize the mail. These tech-
regulations, and policy?                                                                   nological solutions may require procuring new
                                      incorporated into the Postal Service’s recently-
                                                                                           equipment and changing processes, which
The Inspector General Act             developed plan to transform its business, opera-
                                                                                           could impact facility floor plans and staffing
requires the Office of Inspector      tions, and delivery services. To assist Congress,
                                                                                           requirements. To better protect its employees,
General to review all proposed        the Governors, and postal management as they
                                                                                           the Postal Service must also reassess its facility
                                      address these challenges, the OIG has indepen-
legislation, regulations, and poli-                                                        designs, especially ventilation systems, mainte-
                                      dently identified the following major manage-
cies and make recommendations                                                              nance practices, and emergency response and
                                      ment issues facing postal management:
to the Postal Service.                                                                     evacuation procedures.
                                      ◆   physical security and safeguarding the                To assist the Postal Service in addressing
                                          mail;                                            these issues, the OIG:
                                      ◆   maintaining customer confidence;
                                                                                           ◆    Reviewed the Postal Service’s communi-
                                      ◆   resolving workforce and workplace issues;             cation of the anthrax threat to Postal
                                      ◆   controlling costs;                                    Service employees and the actions taken
                                                                                                to ensure their safety and health
                                      ◆   protecting revenues;
                                                                                           ◆    Evaluated mail security and sanitization
                                      ◆   managing acquisitions;                                procedures and transportation of biohaz-
                                      ◆   leveraging technology;                                ardous materials to ensure effectiveness
                                      ◆   ensuring data integrity and reliability;         ◆    Worked with the Federal Bureau of Inves-
                                      ◆   maintaining information security and cus-             tigation to identify terrorist activities
                                          tomer privacy; and                                    involving computers

                                      ◆   balancing public service and commercial          ◆    Is assessing the Postal Service’s efforts and
                                          enterprise.                                           plans to protect its critical infrastructure

                                           These issues, their significance, and the key   ◆    Is evaluating the Inspection Service’s
                                                                                                efforts to ensure security of the mail
                                      OIG projects addressing them are included in
                                      this section.
                                                                                           MAINTAINING CUSTOMER
                                      PHYSICAL SECURITY AND                                CONFIDENCE
                                      SAFEGUARDING THE MAIL                                     To remain competitive, the Postal Service
                                           With 38,000 facilities and over 207 billion     must deliver the mail in a timely manner and at
                                      pieces of mail delivered each year, the Postal       affordable rates, and be customer-focused. In
                                      Service has, for over 200 years, faced the chal-     today’s marketplace, customers have choices
                                      lenge of moving the mail efficiently and eco-        about how they conduct transactions, transmit
                                      nomically while effectively safeguarding postal      messages, and deliver merchandise. Increasing
                                      employees and customers. Terrorist attacks and       customer confidence will be the key to growing
                                      biohazardous material transported through the        new business. The Postal Service views its access
                                      mail last fall resulted in a renewed emphasis on     to the American household as a unique asset
                                      securing the nation’s postal system. The Postal      that it can leverage as it faces increasing compe-
                                      Service needs to continue its efforts to complete    tition. The Postal Service must continue to
                                      an organization-wide business continuity plan        develop products and services that retain rele-



                            PAGE 10   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
vance and value for customers with changing           Costs under this program have risen dramati-
needs. This has become even more challenging          cally over the past three years to over $700 mil-
in light of the disruption caused by the recent       lion annually, primarily due to increased
anthrax contamination.                                medical costs. Not only do these costs directly
     To assist the Postal Service in addressing       impact the Postal Service’s financial perfor-
these issues, the OIG:                                mance, but they also indirectly impact produc-
                                                      tivity. Furthermore, the full impact of the Postal
◆    Identified best practices to assist the
     Postal Service in improving External             Service’s potential financial liability under the
     First-Class Mail delivery                        Occupational Safety and Health Act has yet to
                                                      be determined because it has only been subject
◆    Evaluated certified mail handling and
                                                      to citations and monetary penalties for non-
     scanning procedures to ensure timely
                                                      compliance since 1998.
     mail delivery
                                                            To assist the Postal Service in addressing
◆    Is evaluating ground transportation              this issue, the OIG:
     scheduling to ensure timely mail delivery
                                                      ◆    Investigated health care provider fraud
RESOLVING WORKFORCE AND                                    against postal employee health care
WORKPLACE ISSUES                                           insurance providers
      With more than 860,000 full and part-           ◆    Investigated alleged reprisals against
time employees, improving the work environ-                employees
ment and labor relations is key to maximizing         ◆    Evaluated aspects of the pay for perfor-
Postal Service operational and financial perfor-           mance program
mance. Also, personnel compensation and
                                                      ◆    Is continuing to identify best practices
benefits costs totaled over $51 billion for                that reduce grievances
FY 2001, and account for more than three-
quarters of the Postal Service’s total operating      ◆    Is reviewing succession planning
expenses. In an increasingly competitive envi-        ◆    Is partnering with the Department of
ronment, improving labor relations and con-                Labor to find ways to reduce injury com-
trolling labor costs is essential if the Postal            pensation costs
Service is to provide universal service at rea-
sonable rates. Past attempts to improve labor         CONTROLLING COSTS
relations and reduce labor costs through automa-            Increasing productivity while controlling
tion have not been as successful as planned, due      costs is the primary method the Postal Service
to restrictions in union agreements.                  uses to reduce expected losses. At the end of
      Future efforts to improve in these areas will   February 2002, the Postal Service took
only succeed if the Postal Service can effectively    actions to reduce anticipated costs by over $850
partner with its employees and engage them in         million for the current fiscal year. However, the
a shared vision of success. This vision must          cost of servicing a growing universal delivery
include eliminating the confrontational envi-         network has escalated. In addition, the
ronment on the workroom floor and providing           September 11, 2001 terrorist attacks and
employees the freedom to raise concerns with-         anthrax contamination, created new challenges
out fear of retaliation. As the Postal Service pur-   for the financial viability of the Postal Service.
sues efforts to partner with employees, it must             Even with the approval of a rate increase
also develop programs for recruiting, training,       for June 2002, the Postal Service projects a loss
communicating, compensating, and rewarding            of about $1.5 billion for FY 2002. In February
employees consistent with the Postal Service’s        2001, one of the steps the Postal Service took to
vision for the future. In this regard, the Postal     address this shortfall was to freeze all non-essen-
Service needs to establish an effective way to tie    tial capital investments, particularly in new
employees’ pay to their performance.                  facilities and facility improvements. Deferring
      The Postal Service faces a significant chal-    other capital expenditures cannot be sustained
lenge of reducing labor-related costs under the       over the long term. Therefore, further cost
Postal Service Injury Compensation Program.           reductions and productivity gains must con-


                                                                                                            PAGE 11
          tinue to be pursued.                                 commercial products and services.
               To assist the Postal Service in addressing           To assist the Postal Service in addressing
          this issue, the OIG:                                 this issue, the OIG:
          ◆   Evaluated the executive relocation pro-
              gram’s effect on cost                            ◆    Assessed the role of marketing in increas-
                                                                    ing revenue
          ◆   Identified and investigated fraud relative
              to purchasing, contracting, and programs         ◆    Evaluated the availability of data to
              responsible for the acquisition of trans-             ensure Postal Retail Stores are profitable
              portation, facilities, consulting services,           and generating revenue
              and supplies and materials                       ◆    Is assessing the profitability of eCom-
          ◆   Investigated tort and indemnity claims                merce initiatives and sponsorship pro-
              against the Postal Service                            grams and their contributions to increas-
          ◆   Investigated false claims filed against the           ing revenues
              Postal Service by contractors                    ◆    Is continuing to review new scanning
          ◆   Is evaluating carrier productivity and                technology designed to ensure appropri-
              highway network operations effect on                  ate revenue is received from bulk mailing
              costs                                                 customers

          PROTECTING REVENUES                                  MANAGING ACQUISITIONS AND
               Unlike most federal agencies, the Postal        CONTRACTS
          Service relies primarily on its revenues, not              The Postal Service administers over
          appropriations, to fund its operations. Without      $15 billion a year (almost a quarter of its
          adequate revenues, the Postal Service would          revenues) in contracts for essential goods and
          have to reduce services, raise rates, or seek tax-   services, including facilities, transportation,
          payer subsidies. Thus, the Postal Service needs      mail processing equipment, and supplies. The
          to address the challenge of increasing its rev-      Postal Service’s challenge in this area is to bal-
          enue each year to cover increasing costs.            ance efficient contracting practices with effec-
               Over the past several years, the Postal         tive controls to prevent fraud, waste, and abuse.
          Service has had difficulty addressing this chal-     Over the past several years, the Postal Service
          lenge and has reported less than expected rev-       has progressed towards adopting purchasing
          enue because of competition from electronic          practices consistent with best commercial prac-
          commerce and the general downturn in the             tices. Recently, it has identified the supply chain
          economy. In addition, after the September 11,        management philosophy to further its business
          2001 terrorist attacks, the Postal Service experi-   and competitive objectives in the purchasing
          enced an unexpected decline in revenues, at a        process. While this practice allows for certain
          time when the Postal Service was dependent on        efficiencies and cost savings, it has fewer con-
          the fall mailing season to generate a substantial    trols and increases the risk of abuse in the pro-
          portion of its annual revenue for FY 2002.           curement area.
          These declines in revenue have contributed to a            The Postal Service must continue to pro-
          $1.7 billion loss in FY 2001 and anticipated         tect its interests. It must take aggressive steps to
          losses of about $1.5 billion for FY 2002.            ensure appropriate monitoring and oversight,
               The Postal Service has introduced new           including systems and data to validate contrac-
          products and services to increase revenues, but      tor charges for services rendered. It must also
          these efforts have not always met expectations.      increase its efforts to ensure that postal con-
          Recently, the Postal Service has reviewed its        tracts contain sufficient language to pursue
          eCommerce initiatives and is deciding which          action against contractors as necessary or con-
          ones to continue. In addition, competitors have      duct independent reviews. Quality assurance,
          questioned whether it is appropriate for the         staffing, and training of contracting officials
          Postal Service, as a government entity with          impacts the Postal Service’s ability to properly
          monopoly protection, to provide nontraditional       monitor contractor work.



PAGE 12   MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
     To assist the Postal Service in addressing     ◆   Is reviewing enterprise-wide system and
this issue, the OIG:                                    data integration initiatives
◆   Reviewed expedited contracts for equip-         ◆   Is reviewing information platform
    ment and services needed to deal with
    bioterrorism
                                                        initiatives
                                                                                                                DID YOU
◆   Conducted 35 audits of contractor
                                                    ENSURING DATA INTEGRITY
                                                    AND RELIABILITY
                                                                                                                KNOW?
    proposals, incurred cost submissions,
                                                          Accurate measurement of mail delivery is
    systems, and contract closeouts
                                                    key to improving and sustaining service perfor-      What is the OIG Hotline
◆   Recommended improved controls over              mance. Reliable data is also a key to effective
    contracting policies and better practices
                                                    decisionmaking. However, in many instances,          number?
    to protect the Postal Service from con-                                                              The number to call for reporting
                                                    the OIG has found that the Postal Service does
    tract fraud
                                                    not adequately capture or track the data neces-      possible fraud, waste, abuse, and
◆   Recommended significant changes to the          sary to support effective decisionmaking. The        mismanagement in the Postal
    Postal Service’s system to suspend and          OIG has also noted the Postal Service’s
    debar fraudulent contractors                                                                         Service is 1-888-USPS-OIG or
                                                    inability to track costs that have been incurred
                                                                                                         1-888-877-7644
◆   Investigated fraudulent contracting prac-       but not paid makes it difficult for managers to
    tices and embezzlements by employees            monitor expenses.
    and improper billings by contractors                  Changes in technology and the business
◆   Is reviewing sole source contracting prac-      environment emphasize the need for providing
    tices, undefinitized contractual actions,       timely, accessible, relevant, and accurate data to
    and unauthorized commitments                    Postal Service decision makers. Also, given the
                                                    importance of data quality in setting postal rates
LEVERAGING TECHNOLOGY                               and, recently, requesting emergency appropria-
      The Postal Service is leveraging technol-     tions, the Postal Service must continue demon-
ogy to improve its service, productivity, and       strating to Congress, the Postal Rate
profitability. While it depends on technology to    Commission, stakeholders, and the public that
deliver more than 660 million pieces of mail        it is making progress in improving the quality of
daily, the Postal Service must continue to adapt    its revenue, cost, and service measurements.
to each new wave of technology quickly to                 To assist the Postal Service in addressing
maintain its competitive position in the            this issue, the OIG:
market.
                                                    ◆   Evaluated the accuracy of the emergency
      The large size and diversity of the Postal
                                                        appropriation request
Service’s customer base presents technological
challenges and demands that solutions are sim-      ◆   Validated data used to justify and support
                                                        major capital expenditures such as the
ple, easy-to-use, and competitive. To be success-
                                                        Automated Flat Sorting Machine 100
ful, the Postal Service must also ensure that the
                                                        and Postal Operations Information Sys-
corresponding cost savings projected through
                                                        tem
technology investments are realized by effi-
ciently redeploying the resources replaced by       ◆   Evaluated the investment decisionmak-
the new technology. Decisions on technology             ing process
investments must continue to be scrutinized         ◆   Is continuing evaluations of rate making
more closely and be based on information that           processes, including those proposed in
is current, accurate, and reliable.                     the Transformation Plan
      To assist the Postal Service in addressing    ◆   Is determining whether retail sales data
this issue, the OIG:                                    are accurate and used for management
                                                        decisionmaking
◆   Reviewed the viability of eBusiness ini-
    tiatives against performance goals
◆   Assessed system life cycle development
    for major technology projects



                                                                                                          PAGE 13
                                           MAINTAINING INFORMATION                               needs to protect consumer information and
                                           SECURITY AND CUSTOMER                                 guarantee customer privacy.
                                           PRIVACY                                                    To assist the Postal Service in addressing
                                                 Computers and electronic data are vital to      this issue, the OIG:
                                           the critical operations of the Postal Service. The
                                           same factors that benefit operations – speed and      ◆   Assessed the security and privacy of
                                           accessibility – also make it possible for individu-       major eCommerce initiatives
                                           als and organizations to easily interfere with or     ◆   Assisted postal management in respond-
                                           eavesdrop on operations, possibly for purposes of         ing to virus and “worm” attacks on criti-
                                           fraud, sabotage, or other malicious reasons.              cal systems
                                           Attacks on both government and private                ◆   Continued to conduct vulnerability tests
                                           industry websites serve to emphasize the damage           of computer systems and networks
                                           a computer security breach can do to brand                throughout the Postal Service
                                           integrity and an organization’s revenue stream.
                                                 Terrorist organizations use computer net-       ◆   Is working with the Postal Service to
                                           works to attack the federal infrastructure. The           identify potential threats to critical infra-
                                                                                                     structures through the Postal Service’s
                                           OIG’s work on two major national security
                                                                                                     Computer Incident Response Team
                                           efforts demonstrated the potential vulnerability
                                           of postal computer systems, and the need to
                                                                                                 BALANCING PUBLIC SERVICE
                                           continue to emphasize computer security
                                                                                                 AND COMMERCIAL ENTERPRISE
                                           throughout the Postal Service.
                                                                                                       Since 1970, the Postal Service has been
                                                 Furthermore, the OIG’s work with the
                                                                                                 required to operate in a businesslike manner.
                                           Webster Commission, which examined the
                                                                                                 However, unlike a private corporation, it is
                                           impact of poor computer security on Federal
                                                                                                 bound by statutory constraints that limit its abil-
                                           Bureau of Investigations operations, identified
The Postal Service’s Transformation Plan                                                         ity to negotiate with customers and employees,
outlines a blueprint for the long-term     lessons learned that could be used to evaluate
                                                                                                 develop and price new products, and generate
future.                                    the Postal Service’s computer security posture
                                                                                                 and invest profits. Although the Postal Service
                                           and its susceptibility to insider attacks. Many
                                                                                                 is granted a monopoly on letter mail, it must
                                           postal and contractor employees have access to
                                                                                                 deliver to all areas in a timely fashion, and at
                                           postal computer systems and the sensitive infor-
                                                                                                 uniform, affordable rates. The Postal Service’s
                                           mation located on those systems. Access to sen-
                                                                                                 obligation to serve as both a public service and
                                           sitive data, without appropriate monitoring and
                                                                                                 a commercial enterprise has become more chal-
                                           controls over such access, could lead to the
                                                                                                 lenging in the face of increased competition in
                                           compromise of information and operations.             the delivery and communication industries.
                                           This lesson applies with equal vigor to postal              In April 2001, the General Accounting
                                           operations and demonstrates the need for postal       Office stated that the Postal Service faced major
                                           management to carefully monitor and control           challenges that called for a structural transfor-
                                           postal computer use by employees and contrac-         mation if the Postal Service were to remain
                                           tors.                                                 viable in the 21st century. In response to the
                                                 Congress reemphasized the importance of         General Accounting Office and a
                                           addressing these risks by passing the USA             Congressional mandate, the Postal Service
                                           Patriot Act, which enhanced the government’s          issued its Transformation Plan in April 2002 to
                                           authority to address hacker attacks on govern-        serve as a long-term blueprint for the Postal
                                           ment computer systems. Furthermore, Postal            Service’s future. The Transformation Plan made
                                           Service electronic commerce initiatives on the        it clear that the Postal Service’s primary mission
                                           Internet have raised security issues. Success in      has not and will not change; and that the Postal
                                           this arena will depend on the level of protection     Service will continue to provide universal ser-
                                           afforded sites, such as the Postal Service’s web-     vices to customers in all areas at reasonable
                                           site and the programs operating in it, including      rates. In its Transformation Plan, the Postal
                                           eBillPay™, NetPost Certified™, and The                Service recommends converting the Postal
                                           Postal Store™. In addition, the Postal Service        Service to a commercial government enterprise,



                                PAGE 14    MAJOR MANAGEMENT ISSUES FACING THE POSTAL SERVICE
operating like a private business in many
respects, while still remaining a government
entity.
      The Postal Service needs to articulate how
it will balance providing public service with
being a commercial enterprise and how it will
implement strategies to meet future service and
delivery challenges. Since the OIG’s inception
in 1997, the Postal Service has had three post-
masters general, each with their own distinct
vision of the Postal Service’s future. Each imple-
mented operational changes consistent with
their vision, which impacted the costs and rev-
enues of the Postal Service. Postmaster generals
must have long-term strategies with consistent
objectives that transcend short-term changes in
senior management.
      The Postal Service must act decisively to
maintain its public service role in a commercial
environment. It must work within the estab-
lished statutory framework to improve its
accountability in contracting and other major
expenditures. It must identify its core businesses
and ensure that new products and services are
self-sustaining. In short, the Postal Service must
refine its operation under the existing statutory
model while developing and redefining its role
under the Transformation Plan.
      To assist the Postal Service in addressing
this issue, the OIG:
◆   Identified OIG work that has focused
    on the issues discussed in the
    Transformation Plan
◆   Reviewed reform and other legislation
    impacting the Postal Service
◆   Evaluated revised rules governing com-
    mercial mail receiving agencies
◆   Is evaluating and identifying trends from
    OIG work that will address issues in the
    Transformation Plan




                                                     PAGE 15
PAGE 16
Responding to Terrorism




          DID YOU
          KNOW?
   Did You Know?
   If you receive mail that contains fraudulent
   material, do not throw the envelope away.
   This document is important in finding out
   from where the item was mailed.




                                                  PAGE 17
                                                                                                Service has taken or planned appropriate cor-
                                          RESPONDING                                            rective actions that are responsive to the OIG’s
                                          TO TERRORISM                                          recommendations. (OIG AC-AR-02-004)



                                          T
                                                   he tragic terrorist attacks dramatically     POSTAL SERVICE COMMENDED
                                                   changed the environment in which the         FOR EMPLOYEE SAFETY &
                                                   Postal Service operates. For the first       HEALTH COMMUNICATION
                                          time, the Postal Service was on the front lines of    EFFORTS
                                          the war against terrorism. The bioterrorist                An OIG review found the Postal Service
                                          attacks on the nation had a major impact on the       effectively communicated information to pro-
                                          American public and postal operations.                tect the safety and health of the public and
                                                As a result, the Postal Service is facing the   postal employees. The OIG commended the
                                          enormous challenges of protecting postal              communication efforts, safety, and self-initiated
                                          employees and customers from exposure to bio-         actions taken by the Postal Service, and con-
                                          hazardous material, and safeguarding the mail         cluded that the Postal Service communicated
                                          system from future bioterrorism attacks while         an extensive amount of information on mail
                                          maintaining current service levels to the             handling received from health experts to ensure
                                          American public. The OIG is committed to              the safety and health of its employees. Under
                                          ensuring that postal employees and customers          the guidance of the Centers for Disease Control
                                          are safeguarded from future biohazard threats as      and Prevention, Postal Service management
                                          well as making sure that monies allocated to          agreed to initiate worksite evaluations, which
                                          purchase new equipment and implement safety           should help the Postal Service address any
                                          measures are well spent. In addition, the OIG is      future biohazard threats more efficiently and
                                          committed to supporting other government agen-        economically. (OIG LH-MA-02-002)
                                          cies in the fight against the threat of terrorism.
                                                OIG employees have participated in vari-        PLAN ADEQUATE FOR
                                          ous roles in responding to terrorism.                 SANITIZING AND PROCESSING
                                                                                                MAIL, BUT SOME FUNDS
                                          Additionally, the OIG has assisted the Postal
                                                                                                NEEDLESSLY SPENT
The OIG evaluated the effectiveness of    Service with its efforts and during this reporting
decontamination efforts at Postal                                                                     An OIG review found that the Postal
                                          period conducted 11 reviews. These reviews
Service facilities.                                                                             Service’s plan for sanitizing and processing the
                                          evaluated communication efforts to protect
                                                                                                mail during the anthrax biohazard threat was
                                          employees and the public, decontamination
                                                                                                sufficient to protect employees, customers, and
                                          efforts, and expedited contracting processes.
                                                                                                the mail. However, the Postal Service failed to
                                          Some of the OIG’s efforts are highlighted below.
                                                                                                get advance approval from local government
                                          RESPONSE TO ANTHRAX THREAT                            officials to process sanitized mail and deploy
                                          EFFECTIVE                                             irradiation equipment at two facilities. As a
                                                The OIG commended the efforts of Postal         result, it may have needlessly spent up to
                                          Service management and employees in                   $1 million preparing the facilities for sanitizing
                                          responding to the anthrax threat in the wake of       mail. The review also found that three federal
                                          the September 11, 2001, attacks on the United         government agencies refused to accept both
                                          States. The OIG completed a series of reviews         sanitized and non-sanitized mail that the Postal
                                          that evaluated the Postal Service’s response to       Service considered safe for delivery, creating a
                                          the anthrax threat in several areas, including        backlog of mail at some postal facilities.
                                          safeguarding employees, communicating safety                Postal Service management agreed to
                                          and health information, purchasing safety mate-       develop procedures to ensure that approvals are
The Postal Service began using special
equipment to sanitize the mail. This
                                          rial and sterilization equipment, decontaminat-       obtained from the appropriate local government
equipment is sectioned off into protec-   ing facilities and mail, and transporting mail.       officials prior to acquiring and/or modifying
tive areas to ensure the health and       OIG reports provided 24 recommendations to            facilities for sanitizing and processing mail.
safety of postal employees and            improve processes and protect Postal Service          Also, management agreed to return the backlog
customers.                                interests. These recommendations included             of mail to senders if agencies failed to accept
                                          improving contracting, security, transportation,      mail within a specified period of time.
                                          and decontamination procedures. The Postal            (OIG AC-AR-02-003)


                                PAGE 18   RESPONDING TO TERRORISM
ANTHRAX TESTING AND                                  POSTAL SERVICE FACES
DECONTAMINATION EFFORTS                              CHALLENGES IN STERILIZING
EFFECTIVE, BUT CONTRACTOR                            THE MAIL
OVERSIGHT NEEDS                                           An OIG audit revealed that the Postal
IMPROVEMENT                                          Service took appropriate action to explore and
     An OIG review found that the Postal             develop a sterilization process for anthrax-cont-
Service’s testing for anthrax contamination and      aminated mail. The chosen method of electron
decontamination of facilities was effective and      beam irradiation was successful for the steriliza-
that contingency planning for biohazard emer-        tion of anthrax-contaminated mail. However,
gencies was appropriate. However, the review         there were factors that impact its long-term use
noted the Postal Service did not provide ade-        including high cost, slow processing through-
quate contractor oversight to avoid possible         put, and mail damage. The Postal Service paid
conflicts of interest; identify a permanent coor-    $40 million for eight electron beam irradiation
dinator to implement contingency plans for           systems; experienced differences in the irradia-
biohazard emergencies; or identify clear mile-       tion throughputs; and, identified items such as
stones for completion of contingency plans.          vitamins, electronics, and heat sensitive materi-
The Postal Service agreed to establish a policy      als that were damaged and should not have
that would prohibit contract project managers        been electron beam irradiated. The Postal
from competing for the same work for which           Service is planning to implement a three-prong
they provided technical direction or advice;         approach of prevention, detection, and sanitiza-     OIG special agents assisted in
designate a permanent Postal Service coordina-       tion for national deployment. The OIG did not        investigating contaminated mail at
tor or entity to implement biohazard contin-                                                              postal facilities.
                                                     make recommendations and plans to continue
gency plans; and develop and monitor                 monitoring technology applications related to
contingency planning milestones.                     the anthrax threat. (OIG DA-AR-02-003)
(OIG EM-MA-02-001)
                                                     MISCOMMUNICATION CAUSED
POTENTIALLY CONTAMINATED                             FACILITY TO CLOSE TWICE
MAIL IMPROPERLY                                      DURING ANTHRAX CRISIS
TRANSPORTED                                               A South Jersey processing and distribution
      An OIG review revealed that the Postal         center was closed twice due to the miscommu-
Service improperly transported mail potentially      nication of anthrax test results. Despite this the
contaminated with anthrax in vehicles that           Postal Service was able to quickly decontami-
were not designed or intended for the trans-         nate the facility without any confirmed inci-
portation of hazardous material. In addition,        dents of anthrax infection by the public or
contract drivers did not receive appropriate         postal employees.
training in the movement of hazardous mater-              The miscommunication occurred during a
ial, and did not undergo criminal background         time of crisis and when policy and procedures
screenings. Furthermore, the Postal Service          addressing the anthrax threat were still being
incurred unnecessary costs of $181,000 on trail-     developed. The miscommunication contributed
ers waiting to be loaded at two facilities. Postal   to the wrong mail processing machine being
Service management agreed to issue guidance          initially decontaminated. However, the correct        An OIG review found the Postal
to ensure potentially contaminated mail is           machine was decontaminated within days and            Service improperly transported
properly transported, and to establish controls                                                            potentially contaminated mail.
                                                     the Postal Service has established written poli-
to avoid unnecessary transportation costs. In        cies and procedures, which should ensure this
addition, Postal Service management referred         type of miscommunication does not occur in
the recommendation regarding criminal back-          the event of another anthrax or biohazard
ground screenings for contract drivers to the        attack. (OIG LH-MA-02-004)
Inspection Service for guidance.
(OIG TD-MA-02-001)




                                                                                                          PAGE 19
                                         REVIEW OF EARLY                                     a supplier for work that the OIG could not ver-
                                         DECONTAMINATION CONTROLS                            ify. Postal Service management agreed to
                                               An OIG review of a specific decontamina-      improve expedited purchasing procedures and
                                         tion effort at a postal facility discovered some    agreed to request contract audits necessary to
                                         discrepancies and issues the OIG believed           protect its financial interests.
                                         postal management should address. These             (OIG CQ-MA-02-001 and
                                         included communication of test results and pro-     OIG CQ-MA-02-002)
                                         cedures requiring independence of duties            OIG RESPONDS TO TERRORISM
                                         between entities that test, decontaminate, and
                                                                                                  The OIG and postal employees responded
                                         retest facilities. Postal management, while
                                                                                             quickly to the challenges stemming from the
                                         pointing out the chaotic circumstances at the
                                                                                             September 11, 2001, attacks against the nation.
                                         time and the fact that the facility was success-
                                                                                             Approximately 70 OIG special agents and com-
                                         fully decontaminated, agreed to establish proce-
                                                                                             puter specialists participated in various inves-
                                         dures requiring independent verification and
                                                                                             tigative activities related to terrorism in
                                         timely notification. (OIG LH-MA-02-003)
                                                                                             locations throughout the United States. For
                                         ANTHRAX INVESTIGATION                               example, agents:
                                         CONDUCTED PROPERLY                                  ◆   Participated in witness interviews, the
                                              The OIG conducted an inquiry into allega-          collection of evidence, and the process-
                                         tions that Inspection Service management mis-           ing of other investigative leads, as well as
                                         handled personnel and safety issues during an           related investigative security work at the
                                         anthrax investigation at a Capital Metro Area           World Trade Center and the Pentagon.
Approximately 100 OIG employees          postal facility. Inspection Service management
received awards recognizing their                                                            ◆   Participated on Federal Bureau of Inves-
dedication and commitment in
                                         allegedly directed inspectors to collect anthrax-       tigation task forces to help identify
responding to the terrorist attacks of   related evidence against their will and without         potential suspects, and assisted the
September 11, 2001, and subsequent       the required protective gear. The OIG found             Inspection Service in screening and
bioterrorist attacks through the mail.   that one inspector did become ill, however, the         investigating suspect mail.
Pictured below are some of the OIG       illness was not due to any negligence on behalf
special agents who were recognized.                                                          ◆   Assisted the Federal Bureau of Investiga-
                                         of Inspection Service management. Also, in              tion on various counter-terrorism task
                                         light of the Centers for Disease Control and            forces and tip line centers, and continued
                                         Prevention’s guidance, the OIG determined               to assist the National Infrastructure Pro-
                                         that Inspection Service management took                 tection Center in the use of computer-
                                         proper precautions and handled this situation           assisted investigative techniques to iden-
                                         appropriately.                                          tify potential suspects in the attacks.

                                         EXPEDITED CONTRACTING                               OIG ASSISTS THE POSTAL
                                         PROCEDURES CAN BE IMPROVED                          SERVICE WITH COORDINATING
                                              Two OIG reviews of expedited contracts         ANTHRAX TESTING
                                         issued by the Postal Service in response to the          In the days following the anthrax attack,
                                         biohazard threat revealed the Postal Service        the OIG took a proactive role to assist the
                                         deviated from standard contracting procedures       Postal Service in testing and decontaminating
                                         and provisions. One review, involving a             postal facilities. In an unusual role, the OIG
                                         $34 million contract, revealed that the Postal      served as the contracting officer representative
                                         Service omitted or deviated from some standard      to a contract with the Army Corps of Engineers,
                                         contract provisions designed to safeguard it        who coordinated testing and contamination of
                                         from financial and environmental risk. Another      several postal facilities. The OIG provided liai-
                                         review of 10 contracts totaling $70.3 million       son to the Corps so that responses were timely,
                                         identified similar deviations that increased the    processes were developed, and that adequate
                                         Postal Service’s financial risk. For example,       resources were available. In one situation, the
                                         there was a lack of documentation supporting        OIG made contact with the Centers for Disease
                                         the price reasonableness of $53.7 million in        Control and Prevention to secure additional
                                         contract increases, and almost $600,000 paid to     laboratory assistance to assess anthrax samples.


                               PAGE 20   RESPONDING TO TERRORISM
This discussion lead to a nationwide conference
call with Public Health Laboratories in several
states and resolved a serious issue of testing
capacity. This was a situation where OIG
involvement helped the Postal Service ensure
that its employees, customers, and the mail
were safe.

OIG EMPLOYEES ASSIST IN THE
FIGHT AGAINST TERRORISM
     Seven OIG employees were called back to
active military duty after the attacks. The OIG
is proud of these employees’ dedicated service
and commitment to their country, and looks
forward to their safe return.

OIG EMPLOYEES HONORED FOR
ASSISTANCE IN WAKE OF
TERRORIST ATTACKS
     Approximately 100 employees were hon-
ored at a special ceremony during the OIG’s
Fifth Annual Employee Recognition
Conference. The following speakers joined the
Inspector General in recognizing the
contributions of OIG employees in the after-
math of September 11, 2001: Joel Hudson,
Administrative Assistant to the Secretary of the
Army; Patrick McFarland, Inspector General of      The Postal Service and the Federal
the Office of Personnel Management and             Bureau of Investigation offers a reward
Chairman of the President’s Council on             for information leading to the arrest and
Integrity and Efficiency Investigations            conviction of parties responsible for
                                                   mailing anthrax contaminated letters.
Committee; and James Rowan, Deputy Chief
Inspector Security/Technology.




                                                   PAGE 21
PAGE 22
Performance Reviews




 OFFICE OF INSPECTOR GENERAL
      Accepting and Processing Reviews
      Transportation and Delivery Reviews
      Marketing Reviews
      Consulting and Quick Response Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 23
                                         This section highlights audits, reviews, and        through innovative automation.
                                         investigations performed by the OIG and                  During the past 6 months, mail processing
                                         the Inspection Service activities in the            has been greatly impacted by terrorist activities,
                                         Performance area. Report numbers are                including anthrax contamination, which caused
                                         shown in parentheses after the narrative,           the closing of a number of major mail processing
                                         as appropriate. Also, the OIG legislative,          centers. Although the closures protected
                                         regulatory, and policy reviews are included         employees and customers, it has required the
                                         at the end of this section. In order to dif-        Postal Service to divert mail, incur increased
                                         ferentiate the work reported by the OIG             costs, and deal with processing challenges. To
                                         and Inspection Service, the pages contain-          address the anthrax contamination of the mail,
                                         ing the activities reported by the Inspection       the Postal Service purchased and plans to pur-
                                         Service have been color-screened.                   chase additional specialized equipment designed
                                                                                             to sterilize the mail and protect employees and
                                                                                             the public from the threat of anthrax and other
                                         OFFICE OF INSPECTOR                                 possible biohazard contamination. During the
                                                                                             past 6 months, the OIG conducted four audits
                                         GENERAL                                             in the accepting and processing area. Two
                                              To deliver world-class service, businesses     anthrax related reviews are highlighted in the
                                         and government agencies must excel in per-          Responding to Terrorism section and the other
                                         forming their core business processes. For the      two reviews are highlighted below:
                                         Postal Service, these core business processes and
                                         systems encompass accepting, processing, trans-     FAILURE TO FILL VACANT
                                                                                             POSITIONS RESULTS IN DELAYED
                                         porting, and delivering the mail, as well as mar-
                                                                                             STANDARD MAIL AND
                                         keting postal products and services. During the     INCREASED COSTS
                                         past 6 months, the OIG completed 8 reviews of
                                                                                                  An OIG review found that 2-day to 8-day
                                         the Postal Service’s performance of core business
                                                                                             delays in mail delivery and a 22 percent increase
                                         processes. The reviews identified opportunities
                                                                                             in overtime costs at several Northeast Area post
                                         to save over $87 million during current and
                                                                                             offices occurred because management allowed
                                         future years. In addition, the OIG created a con-
                                                                                             12 clerk positions to remain vacant. The review
                                         sulting and quick response team to conduct
                                                                                             also found that the post offices did not accu-
                                         expedited reviews of Postal Service business
                                                                                             rately record or report the delayed mail in
                                         practices.
                                                                                             reports to Postal Service headquarters. Postal
                                         ACCEPTING AND PROCESSING                            Service management agreed to adequately staff
                                         REVIEWS                                             mail-processing operations at postal facilities
                                              On average, over 660 million pieces of mail    and ensure that daily mail condition reports are
                                         are accepted each day by the Postal Service in a    prepared accurately and retained in accordance
                                         variety of ways, including collections from more    with Postal Service policy.
                                         than 300,000 blue collection boxes, as well as      (OIG AC-AR-02-001)
                                         residential and business collection mailboxes.
                                         Express Mail, First-Class Mail, and some Priority
                                                                                             2001 TAX SEASON CERTIFIED
On average, the Postal Service accepts                                                       MAIL PROCESSING DELAYED
over 660 million pieces of mail each
                                         Mail and periodicals are sorted at more than
                                                                                                  An OIG audit found that certified mail was
day in a variety of ways, including      470 processing and distribution plants, while
                                                                                             delayed at four locations during the 2001 tax
collections from more than               Standard Mail is generally handled at the
300,000 blue collection boxes.                                                               season because postal managers did not fully uti-
                                         21 bulk mail centers. In order to ensure timely
                                                                                             lize mail detector technology and instead relied
                                         and accurate delivery of mail, accepting and
                                                                                             on manual processing of some certified mail.
                                         processing equipment must be state-of-the-art.
                                                                                             Postal Service management agreed to update
                                         Situations that result in delayed mail processing
                                                                                             operating plans to handle the increased volume
                                         must be vigorously evaluated and the underlying
                                                                                             of certified mail during the tax season, improve
                                         causes must be promptly resolved. In this regard,
                                                                                             certified mail detector software functionality,
                                         the Postal Service continues to explore ways to
                                                                                             and develop new procedures to decrease the
                                         enhance the accepting and processing of mail


                               PAGE 24   PERFORMANCE REVIEWS
reliance on manual operations.                       investment policy specifies the threshold for
(OIG AC-AR-02-002)                                   Board of Governors’ review or approval is
                                                     $10 million. Postal Service management dis-
TRANSPORTATION AND                                   agreed with the OIG’s findings, recommenda-
DELIVERY REVIEWS
                                                     tions, and estimated savings, stating that this
     Transportation of mail is a vital part of the   was not a lease, but a service contract, and
Postal Service’s mission of binding the nation       therefore did not require a Decision Analysis
together by providing prompt, reliable, efficient,   Report or Board of Governors’ approval. The
and universal mail delivery at affordable rates.     OIG is pursuing resolution of this disagreement
The Postal Service spends in excess of               through the audit resolution process.
$5 billion annually for air, highway, rail, and      (OIG TD-AR-02-002)
water transportation. As a result of the
September 11, 2001, terrorist attacks, the Postal
                                                     REDUCED TRAILER DOOR
                                                     DAMAGE CAN SAVE THE
Service has relied more heavily on highway and
                                                     POSTAL SERVICE $5 MILLION
rail transportation because of restrictions on
                                                          An OIG audit revealed the Postal Service
commercial airlines carrying certain types of
                                                     could save up to $5 million over the next 5 years
mail.
                                                     by reducing trailer door damage. The audit
     Contractors provide most transportation;        found that cargo not properly loaded or secured
however, the Postal Service operates its own         shifted during transport, causing trailer door
fleet of trucks for some highway routes,             damage. Postal Service management agreed to
including a delivery network of approximately        issue training videos on proper load-securing
230,000 mail routes that are serviced by nearly      procedures, and emphasize the importance of
300,000 letter carriers and almost 180,000 deliv-    using safety posters, checklists, inspection
ery vehicles. Under a January 2001 agreement         sheets, and deficiency reports. This report was
with FedEx to transport Express, Priority, and       issued in written, CD-ROM, and video formats.
First-Class Mail, the Postal Service is expected     (OIG TD-MA-02-002, OIG TD-VR-02-001)
to provide more reliable service, reduce costs,
                                                     OVER $87,000 RECOVERED
and manage future cost growth.
                                                     FROM A TRANSPORTATION
     During FY 2001, the Postal Service deliv-
                                                     CONTRACTOR
ered almost 207 billion pieces of mail to                                                                An OIG audit found the Postal Service
                                                          An OIG investigation resulted in recov-        could save $5 million over the next 5
138 million homes and businesses—a yearly
                                                     ery of over $87,000 from an Alaska air trans-       years by reducing trailer damage.
average of 1,500 pieces of mail for every house-     portation contractor who submitted false
hold and business in America. During the past        claims and received overpayments from the
6 months, the OIG completed four transporta-         Postal Service. Specifically, the investigation
tion and delivery related audits, one of which       determined that the contractor overstated
was a video report, and conducted several inves-     mail weight and charged the Postal Service a
tigations. One anthrax related review is high-       more expensive wilderness rate instead of the
lighted in the Responding to Terrorism section       cheaper mainline rate.
and the other significant audits and investiga-
tions are highlighted below:
                                                     SHARING OF BEST PRACTICES
                                                     COULD IMPROVE MAIL DELIVERY
OVER $80 MILLION COULD BE                                 In response to a Board of Governors’
SAVED BY PURCHASING                                  request, the OIG conducted an audit, which
TRAILERS                                             found Postal Service facilities had been using
      An OIG audit revealed the Postal Service       various practices to improve on time mail deliv-
could save over $80 million over the next            ery performance but did not have a process in
12 years by purchasing rather than leasing 4,475     place to share the practices nationwide. More
trailers, and that the lease justification had not   specifically, the Postal Service had no formal
been prepared according to Postal Service            mechanism for identifying, assessing, and shar-
investment policy. Specifically, postal invest-      ing best practices agency-wide to improve deliv-
ment policy requires that both leases and major      ery performance. Postal management agreed to
operating expense investments be supported by        establish a formal process to identify and share
a Decision Analysis Report. Furthermore, the         best practices. (OIG TD-AR-02-001)


                                                                                                         PAGE 25
                                          HIGHWAY TRANSPORTATION                                 paigns; and reevaluate the use of targeted adver-
                                          CONTRACTS TERMINATED FOR                               tising campaigns that do not generate enough
                                          DEFAULT                                                revenue to cover advertising expenses.
                                               As a result of an OIG investigation, the          (OIG EM-AR-02-007)
                                          Postal Service terminated five highway trans-
                                                                                                 DATA NEEDED TO ACCURATELY
                                          portation contracts awarded to a Kansas con-           EVALUATE POSTAL RETAIL
                                          tractor. The investigation found that the              STORES
                                          contractor did not provide workers’ compensa-               At the request of the Board of Governors,
                                          tion coverage for its employees, as required by        the OIG conducted a review that revealed the
                                          the contracts.                                         Postal Service lacked data to accurately evalu-
                                          DELIVERY STUDY RESULTS WERE                            ate the financial performance of retail stores. As
                                          NOT RELIABLE                                           a result, postal management will be unable to
                                               An OIG review determined that postal              reasonably compute the economic impact of
                                          management could not use a contractor’s study          building postal retail stores until it develops
                                          of Express Mail on-time delivery performance           methods to isolate financial data for individual
                                          because the accuracy and completeness of data          postal retail stores. Postal management agreed
                                          used in the study could not be verified. The con-      to establish systems, when economically feasi-
                                          tractor acknowledged the constraints and, as a         ble, to provide necessary data to evaluate the
                                          result, the OIG will review the accuracy and           financial performance and impact of retail store
                                          completeness of on-time delivery performance           operations. (OIG EM-AR-02-002)
                                          data in its audit of the Express Mail scanning         CONSULTING AND QUICK
As a result of the September 11, 2001,    processes.                                             RESPONSE
terrorist attacks, the Postal Service     MARKETING REVIEWS                                           The OIG created a consulting and quick
has relied more heavily on highway and                                                           response team to conduct expedited reviews to
rail transportation because of restric-        The Postal Service operates in a globally
                                                                                                 improve Postal Service business practices and
tions on commercial airlines carrying     competitive environment and its ability to
certain types of mail.                                                                           operations and to advise postal management
                                          maintain or increase its market share of the
                                                                                                 and the Governors on information needed to
                                          $900 billion mailing industry is essential to pro-
                                                                                                 address critical time sensitive issues. These
                                          viding universal service at affordable rates.
                                                                                                 reviews address major challenges and the needs
                                          Therefore, the Postal Service designs its prod-
                                                                                                 of internal and external stakeholders. During
                                          ucts and services to build customer awareness
                                                                                                 this reporting period, the work in this new area
                                          and loyalty. The Postal Service also wants to
                                                                                                 covered the Postal Service’s handling of expe-
                                          ensure that its services are available at places
                                                                                                 dited contracts related to obtaining equipment
                                          where customers choose to do business. During
                                                                                                 to sanitize the mail. These reviews are high-
                                          this reporting period, the OIG completed
                                                                                                 lighted in the Responding to Terrorism section
                                          two reviews of marketing operations, which are
                                                                                                 of this report.
                                          highlighted below:
                                                                                                 LEGISLATIVE, REGULATORY &
                                          THE ROLE OF MARKETING IN THE                           POLICY REVIEWS
                                          POSTAL SERVICE
                                                                                                      During this reporting period, the OIG
                                               An OIG audit found that the Postal
                                                                                                 identified legislation, regulations, and policies
                                          Service had not developed a consolidated mar-
                                                                                                 affecting Postal Service performance. Some of
                                          keting plan since FY 2000 and that the system
                                                                                                 the legislation and regulations reviewed are
                                          for measuring the effectiveness of advertising
                                                                                                 highlighted below:
                                          campaigns needed improvement. The Postal
The OIG determined that the Postal
Service lacked data to evaluate           Service agreed to develop an integrated market-        Transformation Plan
performance of Retail Stores.             ing plan linked to its strategic plan; include per-         In a June 14, 2001, letter Senator Joseph
                                          formance measures to assess the effectiveness of       Lieberman requested that the Postal Service
                                          the marketing plan; establish measurable adver-        develop and submit a comprehensive plan to
                                          tising objectives prior to the start of their adver-   address its problems and methods to correct
                                          tising campaigns; establish benchmarks for each        them after the General Accounting Office
                                          objective prior to beginning advertising cam-          placed the Postal Service on its high-risk list.


                                PAGE 26   PERFORMANCE REVIEWS
On October 9, 2001, the Federal Register pub-
lished the Postal Service’s notice inviting the
public to comment on the Outline for
Discussion: Concepts for Postal Transformation.
On April 4, 2002, the Postal Service delivered
to Congress the Transformation Plan, which
provides a comprehensive plan for the future of
the Postal Service. The OIG will examine the
plan during the next reporting period and will
conduct reviews to assist the Postal Service in
assuring the plan is efficiently and effectively
implemented.

PROPOSED LEGISLATION
S. 1669 -- Hazardous Material
Transportation Safety Reauthorization
Act of 2001 (Similar: H.R. 3276)
     This bill contains a provision that would
                                                    OIG Special Agent Paul Herbert received
classify hazardous materials as nonmailable         the Award for Public Service from the
unless exempted by law or Postal Service regu-      United States Attorney’s Office, Eastern
lation. In addition, the bill would strengthen      District of New York, for his work on an
existing law by authorizing the Postal Service to   investigation involving a Postal Service
                                                    manager who pled guilty to felony
impose civil penalties ranging from $250 to
                                                    charges of embezzlement and conspiracy
$100,000 for each violation of the law regarding    to defraud.
the shipment of hazardous materials and to col-
lect clean-up costs and damages resulting from
the shipment.
     This legislation would be very helpful to
the Postal Service in its efforts to protect its
employees and the public from harmful sub-
stances transported through the mail. It should
act as a deterrent for those who may be inclined
to ship hazardous materials through the mail.
The funds collected from the penalties imposed
and for clean-up costs and damages will help the
Postal Service defray the expense associated
with contamination resulting from hazardous
materials entering the mail stream.




                                                      PAGE 27
                                          INSPECTION SERVICE

                                          M
                                                      ail thieves frequently concentrate on
                                                      targets that offer a large volume of
                                                      mail including not only items of obvi-
                                          ous value in the mail, such as jewelry, computers,
                                          cash, credit cards, and checks, but also mail con-
                                          taining personal and financial information.
                                          Postal Inspectors investigate mail theft to main-
                                          tain the public’s confidence in the Postal Service
                                          and preserve the sanctity of the mail. Postal
                                          Inspectors are working with major mailers to
                                          prevent mail theft and related problems. Also,
                                          while the overwhelming majority of Postal
                                          Service employees work conscientiously to
                                          move the nation’s mail to its proper destination,
                                          a small number of employees abuse the public’s
                                          trust. It is the job of the Inspection Service to
                                          identify these individuals and take steps to have
                                          them prosecuted and removed from the Postal
                                          Service. The following chart provides the activ-
                                          ity during this reporting period.
Founded by Benjamin Franklin in 1737,
the Postal Inspection Service is one of
the oldest federal law enforcement
                                          TYPE OF INVESTIGATION     ARRESTS CONVICTIONS
organizations in America.                 Non-Employee Mail Theft    2,583          2,183
                                          Employee Mail Theft          336            307




                                PAGE 28   PERFORMANCE REVIEWS
Financial Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Financial Opinion Audits
      Financial-Related Reviews
      Contracting and Facilities Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 29
                                      This section highlights audits, reviews,            FINANCIAL OPINION AUDITS
                                      and investigations performed by the OIG                  The Postal Reorganization Act of 1970
                                      and the Inspection Service in the financial         requires an annual audit of the Postal Service’s
       DID YOU                        management area. Report numbers are
                                      shown in parentheses after the narrative,
                                                                                          financial statements. The OIG conducts audits
                                                                                          in support of the independent public account-
       KNOW?                          as appropriate. Also, the OIG legislative,          ing firm’s overall opinion on those statements.
                                      regulatory, and policy reviews are included         These audits assess the integrity and reliability
                                      at the end of this section. In order to dif-        of the financial information contained in the
Is the OIG responsible for            ferentiate the work reported by the OIG             Postal Service financial statements. The
audits within the Postal              and Inspection Service, the pages contain-          Information Technology and Accounting
                                      ing the work reported by the Inspection             Service Centers in Eagan, Minnesota; St. Louis,
Service?                              Service have been color-screened.                   Missouri; San Mateo, California; and at Postal
Yes. In January 1999, the                                                                 Service Headquarters in Washington, DC,
Postmaster General re-emphasized                                                          oversee the collection of approximately $66 bil-
to all Postal Service officers the    OFFICE OF INSPECTOR                                 lion in revenue and the recording and disburse-
audit roles of the OIG.               GENERAL                                             ment of about a similar amount each year.
Specifically, the OIG is responsi-                                                        Examples of reviews in this area are highlighted


                                      T
                                               he Postal Service currently faces one of
ble for performing or contracting                                                         below:
                                               the most challenging financial periods
for all Postal Service audits, as              in its history. In FY 2001, the Postal     ◆   The OIG conducted audits at these cen-
well as establishing procedures for   Service incurred a net loss of $1.68 billion on         ters and headquarters and found that
management-requested audits.          $66 billion in revenue. The events of                   management’s policies, accounting proce-
                                      September 11, 2001, and the anthrax attacks,            dures, and internal controls conformed
In addition, the OIG will serve as                                                            with generally accepted accounting prin-
                                      further depressed an already bleak outlook for
the focal point with other agen-                                                              ciples. However, the OIG identified the
                                      FY 2002. In response to the declining financial
cies, to coordinate work efforts      situation, the Postal Service has taken aggres-
                                                                                              following areas for improvement:
and avoid any duplication.            sive actions to cut costs. In addition, a rate          ◆ accountability for capital personal
                                      increase was requested and subsequently recom-            property;
                                      mended by the Postal Rate Commission after              ◆ money order inquiry system;
                                      the Postal Service held discussions and reached         ◆ controls over accounting for parts
                                      agreements with major mailers and other par-              inventory and the recording of
                                      ticipants. The Postal Service Governors                   vehicle disposals; and
                                      approved the Postal Rate Commission’s recom-
                                                                                              ◆ controls to ensure contracting
                                      mendations.
                                                                                                officers award contracts within their
                                            The Postal Service relies on strong finan-
                                                                                                authority.
                                      cial management controls to maximize revenue
                                      and minimize costs. In the past 6 months, the           The OIG recommended and the Postal
                                      OIG has completed 258 financial management              Service management generally agreed to
                                                                                              improve all of the areas.
                                      reviews and 7 investigations. These efforts iden-
                                                                                              (OIG FT-AR-02-007 through
                                      tified almost $52.4 million in questioned costs
                                                                                              OIG FT-AR-02-010)
                                      and opportunities to save $5.4 million during
                                      current and future years. In addition, OIG          ◆   The OIG reviewed travel and miscella-
                                      investigations resulted in a conviction and sev-        neous expenses for the Office of the
                                                                                              Board of Governors and travel and repre-
                                      eral indictments. These projects add value to
                                                                                              sentation expenses for Postal Service offi-
                                      the Postal Service by identifying opportunities
                                                                                              cers for the year ending September 30,
                                      for cost savings and improving financial man-
                                                                                              2001. The reviews determined expenses
                                      agement, contracting, and facilities practices,
                                                                                              were properly supported and complied
                                      and detecting and deterring fraud, waste, abuse,        with postal policies and procedures and
                                      and mismanagement.                                      Board of Governors’ guidelines.
                                                                                              (OIG FT-AR-02-005 and
                                                                                              OIG FT-AR-02-006)



                           PAGE 30    FINANCIAL MANAGEMENT REVIEWS
ALMOST $1.4 MILLION                                  the need for the accounting period 14 reconcil-
OVERPAYED TO VENDORS                                 iation. Other benefits include reduced
     An OIG audit found that in FY 2001 the          accounting cost and a monthly cycle that will
Postal Service paid almost $1.4 million to ven-      be compatible with private sector. This change
dors for services already paid for or not ren-       will also require the OIG to adjust the nature,
dered. The Postal Service did not always verify      timing, and extent to which financial transac-
either the standard invoice number format or         tions are tested.
the vendor location, or made data entry errors
resulting in over 1,000 duplicate payments           FINANCIAL-RELATED REVIEWS
totaling over $1.13 million. Vendors returned             Financial-related audits examine areas that
$880,000, and based on the OIG’s review,             have significant financial implications and offer
postal management initiated actions to recover       the Postal Service an opportunity to save
almost $217,000. The OIG recommended and             resources. The OIG has taken a proactive
postal management agreed to collect remaining        approach to identify areas that offer potential
overpayments of about $250,000 identified in         cost savings and improve postal operations. In
the report and to direct field office personnel to   the past 6 months, the OIG has completed
verify invoice numbers and vendor locations          6 financial-related audits and 7 investigations.
before paying the invoices.                          Some significant reviews and investigations are
(OIG FT-AR-02-011)                                   highlighted below:

FY 2001 FINANCIAL                                    POSTAL SERVICE RELOCATION
INSTALLATION AUDITS                                  LOAN PROGRAM MORE
      The OIG conducted audits at 205 postal         GENEROUS THAN OTHER
                                                     FEDERAL AGENCIES & FORTUNE
facilities and found that financial information
                                                     500 COMPANIES
was reasonably and fairly represented in the
                                                           At the request of the Board of Governors,
accounting records, and internal controls were
                                                     the OIG reviewed a Postal Service program
generally in place and effective. However, at
                                                     that allows postal employees to relocate to
180 facilities, the OIG identified certain non-
                                                     high-cost areas without an increase in their
compliance with Postal Service instructions                                                              During an audit, OIG employees review
                                                     monthly mortgage payment. This program was
and minor internal controls weaknesses. The                                                              controls over cash as part of a financial
                                                     more generous than relocation programs offered
OIG issued individual reports to address these                                                           installation review.
                                                     by Fortune 500 companies and other federal
issues and will issue a summary report providing
                                                     agencies. Under the program, executives apply
Postal Service management with recommenda-
                                                     the equity from their previous home to the
tions to address systemic issues. (For specific
                                                     purchase of a new home and the Postal Service
reports see Appendix A, page 102-106.)
                                                     pays for any increases in the executives’ mort-
THE POSTAL SERVICE CHANGES                           gages.
TO MONTHLY REPORTING OF                                    Between January 1997 and October 2000
FINANCIAL DATA                                       the program was selectively offered to 48 exec-
     With the support of the OIG and the             utives, 10 of whom did not meet program eligi-
recent approval by the Governors, the Postal         bility requirements. In addition, the program
Service is undertaking one of the most signifi-      was offered in three cities not covered by the
cant changes to its financial accounting systems     program; offered to five individuals multiple
in recent history. By September 2003, the            times, regardless of their eligibility; and based
Postal Service plans to change the periodic          on informal policies that did not address
reporting of financial data from 13 accounting       program exceptions or establish adequate docu-
periods to a monthly reporting cycle. There are      mentation. Postal Service management agreed
numerous advantages for monthly reporting            to provide the shared real estate appreciation
including alignment with the government fiscal       loan program policy to all executives, improve
year, the ability to meet Office of Management       program documentation, restrict program
and Budget requirements for calendar quarter         participation to defined high-cost areas, update
reporting in FY 2004, and the elimination of         approved high-cost areas annually, and ensure


                                                                                                           PAGE 31
                                            that program exceptions are in the best interest   IMPLEMENTATION OF
                                            of the Postal Service. This report is one of a     RECOMMENDATIONS MADE IN
                                            series examining relocation benefits for postal    THE DATA QUALITY STUDY
                                            executives. (OIG FT-AR-02-001)                     NEEDS IMPROVEMENT
                                                                                                    The OIG assessed the Postal Service’s
                                            CONTROLS OVER CREDIT
                                            CARD PURCHASES NEED                                efforts to implement 11 recommendations from
                                            STRENGTHENING                                      the April 1999 Data Quality Study, which was
                                                 The OIG found that overall the Postal         jointly sponsored by the Postal Service, Postal
                                            Service had proper and sufficient controls over    Rate Commission, and General Accounting
                                            purchases made with the International              Office. The OIG initiated this audit because of
                                            Merchant Purchase Authorization Card.              the potential impact of the Data Quality Study
                                            However, the audit did identify instances where    recommendations on the ratemaking process.
                                            controls needed improvement. The Postal                 The audit revealed that the Postal Service
                                            Service continued to address the issues involv-    made reasonable progress in implementing six
                                            ing improving controls, and the OIG will con-      recommendations for the Transportation Cost
                                            tinue to monitor International Merchant            System and the Revenue, Pieces and Weight
                                            Purchase Authorization Card purchases and          System. However, efforts to implement the five
                                            make further recommendations if warranted.         recommendations involving the replacement of
                                            (OIG FT-AR-02-002)                                 the mid-1980s Carrier Cost System delivery
                                                                                               study data were not effective or timely. The
                                            OBSERVATIONS OF STATISTICAL                        report concluded that until the Postal Service
                                            TESTS FOR THE COST AND                             updates the delivery special studies, a portion of
An OIG audit of statistical tests for the   REVENUE ANALYSIS                                   approximately $9 billion in city carrier street
FY 2001 Cost and Revenue Analysis                An OIG audit of statistical tests for the     time costs may not be accurately distributed to
revealed that, generally, tests
                                            FY 2001 Cost and Revenue Analysis revealed that,   the various subclasses of mail. Postal manage-
conducted to collect cost, revenue, and
volume data were performed in accor-        generally, tests conducted to collect cost, rev-   ment agreed to require finance personnel to
dance with policies and procedures.         enue, and volume data were performed in accor-     establish a formal, time-phased action plan that
                                            dance with policies and procedures. However,       identifies key milestone dates and provides the
                                            employees did not always adhere to instructions    chief financial officer and executive vice presi-
                                            for sampling and data collection. Postal Service   dent with periodic briefings on the progress of
                                            management agreed to reinforce procedures and      the new costing strategy. (OIG FT-AR-02-004)
                                            train data collectors. In addition, the Postal
                                            Service plans to implement new In-Office Cost      OIG INVESTIGATIVE EFFORTS
                                            System Software and policies in FY 2003.           REDUCE CIVIL CLAIMS AGAINST
                                                                                               THE POSTAL SERVICE BY OVER
                                            (OIG FF-AR-02-206)
                                                                                               $7.8 MILLION
                                            OIG ASSISTS IN VERIFYING                           ◆   Tort claims totaling $7 million were set-
                                            POSTAL EMPLOYEE                                        tled for $185,000 as a result of an OIG
                                            WITHHOLDINGS AND                                       investigation. The claims were based on
                                            EMPLOYER CONTRIBUTIONS                                 an accident that involved a postal letter
                                                 At the request of the Inspector General for       carrier who fell out of a mail delivery
                                            the Office of Personnel Management, an OIG             truck and onto the plaintiff, allegedly
                                            review verified Postal Service employee with-          resulting in serious injuries. The plain-
                                            holdings and employer contributions reported           tiff’s relatives also filed a joint tort claim
                                            in the “Report of Withholdings and                     lawsuit stating that the plaintiff’s alleged
                                            Contributions for Health Benefits, Life                injuries caused them pain and suffering.
                                                                                                   By revealing that the plaintiff was with-
                                            Insurance, and Retirement.” The OIG verified
                                                                                                   out obvious physical limitations in con-
                                            the information in the report and identified
                                                                                                   trast to the claims made for damages, the
                                            three minor errors, which were corrected. The
                                                                                                   OIG investigation assisted the Depart-
                                            report was for informational purposes only, and        ment of Justice in settling the claims for
                                            did not require action by postal management.           a reduced amount.
                                            (OIG FT-AR-02-003)


                                PAGE 32     FINANCIAL MANAGEMENT REVIEWS
◆   As a result of an OIG investigation, a          contracts and over $310 million in credit card
    settlement agreement was reached                purchases. The Postal Service is also one of
    between a private citizen and the Postal        America’s largest owners, developers, and man-
    Service concerning a $45,000 tort claim.        agers of real estate, committing over $370 mil-
    The claim was based on an auto accident         lion in FY 2001 for repair, renovation, and
    involving the plaintiff and a Postal Ser-       construction of new facilities, and paying over
    vice vehicle. Information obtained dur-         $920 million in rent. The commitment amount
    ing the course of the investigation             of $370 million was reduced from the prior fis-
    revealed that the plaintiff had been in         cal year because the Board of Governors and
    eight previous motor vehicle accidents.         Postal Service management decided to take
    In all previous accidents, the plaintiff        action to immediately suspend new construc-
    had claimed injuries identical to the           tion, new leasing, and facility expansion con-
    injury allegedly suffered in the accident       tract activity, except for those items that were
    with the postal vehicle. The case was set-      in process or met the exception criteria.
    tled for over $13,600 resulting in a cost             The OIG is responsible for contract audits
    avoidance of more than $31,000 to the           designed to assist Postal Service contracting
    Postal Service.                                 officers in determining fair and reasonable con-
                                                    tract prices as well as providing them with
◆   A $750,000 claim was dismissed as a
                                                    reviews of contractor financial systems. In the     OIG investigations often result in settle-
    result of an OIG investigation. A private
                                                    past 6 months, the OIG conducted 38 reviews         ments of reduced claims for damage, at
    citizen filed a tort claim lawsuit against
                                                    of contracting and facilities-related issues with   great cost savings to the Postal Service.
    the Postal Service in connection with an                                                            For example, the owner of a vehicle
                                                    the assistance of a contract audit agency, which
    injury allegedly sustained as a result of an                                                        originally claimed over $45,000 worth of
                                                    specializes in pre-award and post-award con-
    accident with a Postal Service vehicle.                                                             damage as a result of a collision with a
                                                    tract audits. Also, the OIG conducts investiga-     postal vehicle; however, the claim was
    The investigation did not substantiate
                                                    tions targeting fraud and corruption in these       settled for over $13,000.
    the individual’s claimed injury and assist-
                                                    areas. Highlights of some contracting and facil-
    ed with the dismissal of the claim.
                                                    ities reviews follow:
◆   As a result of an OIG investigation, a
    $250,000 claim was settled for approxi-         CONTRACT AUDITS IDENTIFIED
    mately $10,000. A highway contract              OVER $51.1 MILLION IN
    route driver filed a tort claim lawsuit         QUESTIONED COSTS
    against the Postal Service in connection             In the past 6 months, the OIG worked
                                                                                                            Types and Number of Contract
    with injuries allegedly suffered when an        with the Defense Contract Audit Agency and              Audits Completed
    overhead garage door at a processing and        completed 35 audits of contracts valued at
    distribution facility fell, striking the dri-   almost $580 million. These audits resulted in
    ver on the head and lower back. The             approximately $51.1 million in questioned and
                                                    unsupported costs and opportunities to save                              10
    investigation revealed several discrepan-                                                                           INCURED COSTS

    cies in the plaintiff’s claim related to the    $1.3 million during current and future years.
                                                    The contract audits include: incurred cost                                                 11
    timing, plausibility, and severity of the                                                                                                PROPOSALS


    alleged accident, and as a result the           audits that evaluated the reasonableness of costs          7
                                                                                                             OTHERS

    claim was settled.                              incurred by contractors; proposal audits that
                                                    evaluate the reasonableness of contractor cost                       5              2
CONTRACTING AND FACILITIES                          estimates; defective pricing audits that are per-              SYSTEM REVIEWS   CLAIMS


REVIEWS                                             formed to determine whether contract prices
     The Postal Service manages approximately       significantly increased because of defective con-
$15 billion annually in contracts for essential     tractor pricing data; and contractor financial      The OIG completed 35 audits of contracts valued
                                                                                                        at over $580 million.
goods and services, including facilities, trans-    system audits, such as accounting, estimating,
portation, mail processing equipment, and sup-      and billing systems that are reviewed to deter-
plies. This makes the Postal Service one of the     mine their adequacy to account for contract
largest civilian contracting agencies in govern-    costs. These audits, which are summarized in
ment. During FY 2001, postal purchases              the graph in the margin focus on whether con-
included over $570 million in noncompetitive        tractors’:



                                                                                                          PAGE 33
                                        ◆   Proposed and incurred costs were allow-              curement support information that were
                                            able and reasonable;                                 not in a usable format; and procedures
                                        ◆   Pricing data were accurate, complete,                that did not clearly require buyers to per-
                                            and current; and                                     form and document sole source justifica-
                                                                                                 tion, price and cost analyzes, and negoti-
                                        ◆   Accounting systems for allocating costs              ations. The audit provided seven recom-
                                            to the Postal Service were adequate.                 mendations to address these issues.
                                             In addition to raising questions about costs,       (OIG-CA-CAR-02-018)
                                        the audits disclosed that a major contractor’s       ◆   An audit disclosed that a contractor’s
                                        proposal was not prepared in accordance with             efficient and effective use of video tele-
                                        Postal Service policy. Following is a summary of         conferencing as an alternative to travel
                                        6 significant contract audits completed in the           could result in approximately $1.3 mil-
                                        last 6 months:                                           lion in potential savings in travel costs
                                        ◆ An audit of a contractor’s $109.7 million              allocable to the Postal Service. The OIG
                                             firm-fixed-price proposal for the Mailing           recommended that the Postal Service
                                             Evaluation, Readability, Lookup Instru-             contracting officer require the contractor
                                             ment Program disclosed questioned costs             to implement procedures to ensure that
                                             of $13.5 million, with unsupported costs            its employees use video teleconferencing
                                             of over $3 million. Significant ques-               and incorporate the associated savings
                                             tioned costs include purchased parts, sub-          into future, forward-pricing rates and
The OIG audited a contractor’s firm-         contracts, direct labor, travel, and associ-        contract price proposals.
fixed-price proposal for the Mailing         ated indirect costs. Questioned costs               (OIG CA-CAR-02-019)
Evaluation, Readability, Lookup
                                             were the result of the contractor failing       ◆   An audit disclosed that a contractor’s
Instrument Program, commonly known
as MERLIN.
                                             to provide supporting documentation for             billing system and new accounting sys-
                                             proposed purchased parts, subcontracts,             tem were partially inadequate. Regarding
                                             and other direct costs. (OIG CA-CAR-                the billing system, written policies and
                                             02-012)                                             procedures did not exist, contract or task
                                        ◆   An audit of a contractor’s approximately             order briefs were not routinely prepared
                                            $39.7 million firm-fixed-price subcon-               and updated, and no evidence of man-
                                            tract proposal for Automated Flat Sort-              agement review of invoices existed.
                                            ing Machine-100 phase II replenished                 Regarding the new accounting system,
                                            and emergency spare parts support dis-               certain time and expense reporting con-
                                            closed questioned costs of over $11 mil-             trols were weak or nonexistent, and the
                                            lion. Additionally, the audit disclosed              contractor did not have a job cost
                                            contractor restructuring and acquisition             accounting system. In addition, the con-
                                            activities that could result in additional           tractor occasionally billed overtime
                                            savings. The audit did not consider the              hours, but did not pay its salaried
                                            proposal acceptable as a basis to negoti-            employees for overtime worked. The
                                            ate a fair and reasonable contract price             OIG recommended that the Postal Ser-
                                            because the contractor did not submit                vice contracting officer ensure the con-
                                            adequate cost or pricing data.                       tractor implement the corrective actions
                                            (OIG CA-CAR-02-005)                                  outlined in the audit report and consider
                                        ◆   An audit of a $5.4 million Partial Termi-            the suggestion to negotiate overtime
                                            nation of Convenience settlement pro-                rates to be used for pricing overtime
                                            posal disclosed questioned costs of                  hours. (OIG CA CAR-02-021)
                                            $2.2 million. Significant questioned costs
                                            included purchased parts, direct labor,          $45 MILLION WORTH OF
                                                                                             PROPERTY NOT DEVELOPED
                                            overhead, and profit.
                                                                                             OR USED
                                            (OIG CA-CAR-02-027)
                                                                                                  An OIG audit revealed that 30 properties
                                        ◆   A review of a contractor’s purchasing
                                                                                             purchased for $45 million were never devel-
                                            system disclosed several deficiencies,
                                                                                             oped, utilized, or referred for disposal. One of
                                            including incomplete purchase order file
                                                                                             the properties was purchased over 18 years ago.
                                            documentation; supplier quotes and pro-
                                                                                             The Postal Service did not use these properties

                              PAGE 34   FINANCIAL MANAGEMENT REVIEWS
because operational requirements changed and         OVER $8.4 MILLION ORDERED
budget constraints prevented their develop-          IN RESTITUTION
ment. During the audit, one property that had             As a result of a joint investigation by the
been donated to the Postal Service was subse-
quently returned to the original owner, and 12
                                                     OIG and the Inspection Service, a former
                                                     Postal Service supervisor at a Bulk Mail Entry
                                                                                                                           DID YOU
properties were referred for disposal. Disposal of
these properties could provide up to $4.1 mil-
                                                     Unit was sentenced to 1 year probation and                            KNOW?
                                                     ordered to make joint restitution, along with 11
lion. Postal management agreed to require a          other previously convicted defendants, to the
review of all undeveloped and unused real prop-      Postal Service of over $8.4 million. The former      Will the OIG investigate
erty and refer those properties that are no longer   supervisor previously pled guilty to bribery
needed to Realty Asset Management to begin           charges relating to a 4-year scheme in which
                                                                                                          allegations of retaliation when
the disposal process. (OIG CA-AR-02-002)             the owners and managers of a bulk mail com-          wrongdoing is reported?
SUPPLIER DIVERSITY PROGRAM                           pany under-reported 250 million pieces of            The OIG investigates all
NEEDS IMPROVEMENT                                    First-Class mail, resulting in a loss of more        complaints of management
     An OIG review requested by the Board of         than $25 million to the Postal Service. The          retaliation received from Postal
Governors showed the Postal Service was gen-         former supervisor accepted bribes from an
                                                                                                          Service employees who had
erally consistent with national business demo-       employee of the company to allow the scheme
                                                     to continue.
                                                                                                          previously reported wrongdoing
graphics regarding the total percentage of
                                                                                                          to the OIG.
dollars awarded to minority-owned and                OIG INVESTIGATION LEADS TO
women-owned suppliers. However, the Postal           MULTIPLE CONVICTIONS
Service was not consistent with national busi-            An OIG investigation led to spin-off inves-
ness demographics regarding the percentage of        tigations resulting in multiple convictions of
minority-owned and woman-owned suppliers             individuals involved in paying bribes in
awarded contracts. The Postal Service agreed to      exchange for being awarded postal contracts.
require contracting officers to input ethnic         Specifically, the initial investigation involved
codes for minority-owned suppliers in procure-       two former postal managers, a married couple,
ment databases and use national business             who were sentenced for embezzling over $3.2
demographics data as a tool when assessing           million from the Postal Service by conspiring to
diversity of its suppliers and identifying market    submit fraudulent invoices for computers and
opportunities. (OIG CA-MA-02-001)                    supplies not received. As a result of that inves-
REVIEW OF WINTER OLYMPICS                            tigation, it was alleged that four postal contrac-
PLAN DISCLOSED PROJECTS                              tors made payments in exchange for receiving
WERE COMPLETED ON TIME                               contracts. In addition, it was later revealed that
     An OIG follow-up review of its June 2000        a third postal employee accepted gratuities in
audit of the Salt Lake City District Winter          exchange for ensuring that work was not
Olympics Plan determined that a prior report’s       delayed on projects under his supervision and
recommendations had been implemented, and            for approving work in advance on contracts
the Salt Lake City District was on track to com-     having pending modifications.
plete the 23 Olympic projects before the                  All five subjects have pled guilty to charges
Olympics began on February 8, 2002.                  relating to the scheme. Three of the four con-
                                                                                                          As a result of an OIG investigation, a
Documentation provided subsequent to the             tractors have been sentenced and ordered to
                                                                                                          Postal Service vendor pled guilty to
issuance of the report disclosed that all Olympic    pay restitution and fines totaling over $200,000.    fraud and related activity in connection
lobby projects were completed prior to the start     Sentencing of the fourth contractor is pending.      with Postal Service credit card
of the games. (OIG CA-AR-02-001)                     Additionally, two of the four contractors have       numbers.
                                                     agreed to reimburse the OIG a total of $100,000
                                                     for the cost of the investigation. Furthermore,
                                                     the postal employee who accepted gratuities
                                                     was ordered to make restitution of $20,000 and
                                                     retired prior to any administrative action being
                                                     taken. Debarment actions are being pursued
                                                     against the contractors.


                                                                                                           PAGE 35
                                        CONTRACTOR INDICTED ON                               and 5 years probation, and required to pay
                                        TWO COUNTS OF WIRE FRAUD                             almost $4,000 in restitution to the Postal
                                             As a result of a joint investigation by the     Service.
                                        OIG and the Inspection Service, a transporta-        STOLEN POSTAL SERVICE CREDIT
                                        tion contractor was indicted on two counts of        CARD USED TO PURCHASE
                                        wire fraud. The indictment alleged that the          COMPUTER EQUIPMENT
                                        contractor submitted, via facsimile, false                As a result of an OIG investigation, a
                                        invoices to two Western Area Distribution            Florida individual was convicted of felony theft.
                                        Network Offices. The indictment further              The crime involved the illegal use of a Postal
                                        alleged that the contractor altered a price quote    Service credit card number to purchase almost
                                        to make it appear as if a lift gate was purchased.   $900 in computer equipment from a computer
                                        DUPLICATE CLAIMS AND                                 company. The defendant was sentenced to serve
                                        ERRONEOUS BILLING RESULTS                            2 days in jail, placed on 3 years supervised pro-
                                        IN CLAIM REDUCTION OF                                bation, and ordered to serve 50 hours of com-
                                        ALMOST $150,000                                      munity service. In addition, the defendant was
                                             An OIG investigation revealed that a            ordered to pay restitution commensurate to the
                                        Louisiana construction contractor submitted          amount stolen, pay the cost of conducting the
                                        duplicate claims and billed the Postal Service       investigation, and pay fines and court costs.
                                        for services not rendered. The Postal Service        POSTAL MECHANIC INDICTED ON
                                        settled all claims with the contractor for approx-   CONFLICT OF INTEREST CHARGES
                                        imately $19,000, resulting in a total claim               As a result of an OIG investigation, a
                                        reduction of almost $150,000.                        postal mechanic assigned to a Vehicle
                                        SUBCONTRACTORS PLEAD                                 Maintenance Facility was indicted on conflict
                                        GUILTY TO CONSPIRACY                                 of interest charges. Specifically, the mechanic
                                             As a result of two related OIG investiga-       allegedly recommended and approved the
                                        tions, six employees of various Postal Service       Postal Service purchase of vehicle parts from an
                                        subcontractors pled guilty to conspiracy and         electronics company in which the mechanic
                                        various other charges pertaining to their roles in   and spouse had a financial interest. The
                                        a kickback scheme. In addition, an associate of      mechanic also allegedly presented claims to the
                                        one of the subcontractors pled guilty to the         Postal Service for payment, knowing they were
                                        same violation. The scheme involved seven            fraudulent. As a result, the mechanic was
                                        individuals paying kickbacks to three employees      removed from the position without pay pending
                                        of a Postal Service contractor. Kickbacks of         the outcome of the criminal trial.
                                        almost $1.2 million were paid to the three con-      CONSTRUCTION CONTRACTOR
Surveillance is one technique OIG
                                        tractor employees in return for over $6.7 million    DEBARRED
special agents use when conducting      worth of subcontract work.                                As a result of an OIG investigation, a con-
investigations.
                                        POSTAL SERVICE VENDOR                                struction company and two of its officers were
                                        EMPLOYEE SENTENCED FOR                               debarred from contracting with the Postal
                                        CREDIT CARD FRAUD                                    Service for 31 months. The OIG found the con-
                                              As a result of an OIG investigation, a         tractor falsely inflated the quantity of work per-
                                        Postal Service vendor employee was sentenced         formed on contracts involving construction
                                        in Central California for fraud and related activ-   projects in Oregon.
                                        ity in connection with Postal Service credit card
                                                                                             CONTRACTOR LOSES RETAINER
                                        numbers. The employee stole the credit card          FOR SUBSTANDARD WORK
                                        numbers and used them to buy items over the
                                                                                                  An OIG investigation of a contractor
                                        telephone and Internet. The credit card num-
                                                                                             resulted in an administrative recovery of almost
                                        bers were obtained from the individual’s
                                                                                             $158,000. The investigation determined that
                                        employer, an auto parts dealer who supplied
                                                                                             the Postal Service paid for incomplete, defec-
                                        repair parts to the Postal Service. The employee
                                                                                             tive, or substandard work relating to electrical,
                                        was sentenced to 6 months home confinement


                              PAGE 36   FINANCIAL MANAGEMENT REVIEWS
heating and air conditioning, security, drainage,    Research; 9/11 Heroes; and Domestic Violence.
and fire alarm systems. As a result of the admin-    There are also provisions providing for guards at
istrative settlement with the Postal Service         postal facilities, Federal Law Enforcement
Legal Department, the contractor agreed to           Training Center, and training of Postal Police.
allow the Postal Service to keep a retainer fee of   An additional provision enables the Postal                            DID YOU
almost $156,000 and to pay an additional             Service to require that private carriers transport                    KNOW?
$2,000 to settle this matter.                        day-old poultry and other live animals as mail.
                                                          In previous reports, the OIG expressed
CONTRACT TERMINATED FOR
                                                     concern with the semipostal stamp program,             What is the Mail Fraud
FRAUDULENT CLAIMS
                                                     recommending that better cost accounting be
     Based on an OIG investigation, Postal                                                                  Statute?
                                                     employed and enforced. Another concern is
Service management terminated a contractor’s                                                                The Mail Fraud Statute contained
                                                     with the language prohibiting the use of the
services to wash tractors, trailers, and trucks.
                                                     appropriate funds to consolidate or close post         in Title 18 of the United States
The investigation revealed the contractor sub-
                                                     offices during FY 2002. The OIG understands            Code, Section 1341, makes it a
mitted multiple fraudulent claims requesting
                                                     the importance of small post offices, particularly     criminal violation to use the US
payment for services not rendered. The Postal
                                                     in rural communities. However, limiting the
Service paid no more than $7,000 of the origi-                                                              mail or the services of any private
                                                     Postal Service’s latitude to close or consolidate
nal contract amount of $94,000 before the con-                                                              or commercial carrier to carry out
                                                     retail facilities can hinder its ability to effec-
tract was terminated.                                                                                       a fraudulent scheme.
                                                     tively manage its financial situation.
LEGISLATIVE, REGULATORY &
POLICY REVIEWS                                       Public Law No. 107-117 — Emergency
                                                     Supplemental Acts, Department of
     During this reporting period, the OIG
                                                     Defense Appropriations Act, 2002
identified legislation, regulations, and policies
                                                           On November 8, 2001, the Postal Service
affecting Postal Service financial management.
                                                     requested $1.1 billion in emergency appropria-
Some of the legislation, regulations, and poli-
                                                     tions to protect postal employees and customers
cies reviewed are below.
                                                     from exposure to biohazardous material; to san-
ENACTED LEGISLATION                                  itize and screen the mail; and to replace or
                                                     repair Postal Service facilities destroyed or dam-
Public Law No. 107-67 — Treasury,                    aged in New York City as a result of the
Postal Service Appropriations Act, FY                September 11, 2001, terrorist attacks. To help
2002                                                 meet this need, Congress provided a $500 mil-
     This bill authorizes over $76.6 million for     lion appropriation to the Postal Service in the
revenue foregone provided that mail for over-        Defense Appropriations Act. The law also
seas voting and mail for the blind shall continue    enables the Sergeant at Arms of the House of
to be free; that 6-day delivery and rural delivery   Representatives to destroy or otherwise dispose
of mail shall continue at not less than the 1983     of any anthrax-contaminated mail delivered by
level; that none of the funds made available to      the Postal Service to the House of
the Postal Service by this Act shall be used to      Representatives and that no action taken under
implement any rule, regulation, or policy of         this section may serve as a basis for civil or crim-
charging any officer or employee of any state or     inal liability of any individual or entity.
local child support enforcement agency, or any             The law specifies that no funds shall be
individual participating in a state or local pro-    obligated for the purpose of sanitizing and
gram of child support enforcement, a fee for         screening the mail until the Postal Service sub-
information requested or provided concerning         mits to the Committees on Appropriations, the
an address of a postal customer; and that none       House Committee on Government Reform,
of the funds provided in this Act shall be used      and the Senate Committee on Governmental
to consolidate or close small rural and other        Affairs an emergency preparedness plan to com-
small post offices in FY 2002.                       bat the threat of biological and chemical sub-
     The measure also contains three semi-           stances in the mail. The plan must also include
postal stamp measures raising money for the fol-     a proposal for expenditure of funds in support of
lowing causes: an extension for Breast Cancer        the emergency preparedness plan. The Postal


                                                                                                             PAGE 37
          Service presented its Emergency Preparedness          Justice shall provide assistance to states and
          Plan to Congress on March 6, 2002.                    localities in improving election technology and
               As detailed in the Responding to Terrorism       the administration of federal elections. Finally,
          section of this report, the OIG has reviewed and      it would require states to meet uniform and
          reported on many aspects of the Postal Service’s      nondiscriminatory election technology and
          anthrax response and emergency plans. In              administration requirements for the 2004 fed-
          the Review of the Accuracy of the Terrorist           eral elections.
          Attack Damages and the Anthrax Threat, the                  The legislation has been subject to negoti-
          OIG found that cost estimates used to base the        ations over, among other things, a provision
          Postal Service’s request were reasonable, partic-     that would provide for postage free, election-
          ularly in light of the great pressure, short time-    related mail. The Postal Service has expressed
          frames, and concerns for public safety, employee      its reservations about this provision. The OIG
          welfare, and business impact. In addition,            has concerns about whether revenue-depressing
          because the events were unprecedented, the            measures are appropriate at this time in light of
          Postal Service had no baseline financial infor-       the financial challenges facing the Postal
          mation to assist in developing their estimates.       Service.

          PROPOSED LEGISLATION                                  S. 1801 — Educational Matter Postal
                                                                Rate Act of 2001
          H.R. 3832 — Services Acquisition                           This bill would amend Chapter 36 of Title
          Reform Act of 2002                                    39, United States Code, to enable the Postal
                This bill is designed to make improvements      Rate Commission to provide for a separate
          with respect to the procurement of services for       postal rate for certain educational bound
          the federal government. It specifically includes      printed matter. The bill defines “educational
          the Postal Service. The legislation establishes a     matter” as bound printed matter as defined
          funding mechanism to pay for training of acqui-       under regulations promulgated by the Postal
          sition personnel who are engaged in Postal            Service that is principally intended to educate,
          Service contracting.                                  inform, develop, or support the education of stu-
                Because the Postal Service is exempt from       dents. This includes books and related materi-
          standard federal contracting rules, it is afforded    als; catalogues of books; software and related
          the opportunity to realize greater efficiencies       materials; and materials that enable schools,
          and operate in a more business-like manner            colleges, universities, public libraries, teachers,
          than other federal agencies. However, past            or students to obtain books, software, or related
          results of the OIG’s audits and reviews suggest       materials; and is mailed to or from a school, col-
          that while the Postal Service has realized some       lege, university, or public library.
          efficiencies, there is a clear need to utilize best        While the OIG recognizes the value of
          practices. Indeed, the OIG recently made sev-         such educational material, we would recom-
          eral recommendations for revisions to the Postal      mend that Congress consider the financial
          Service’s Purchasing Manual. However, the             impact this legislation may have on the Postal
                                                                Service, particularly in a time of declining rev-
          Postal Service has not adopted many of these
                                                                enue.
          recommendations. The acquisition training
          encouraged by this legislation could assist the       S. 1811 — Presidential Appointment
          Postal Service with employing best practices.         Improvements Act of 2001
                                                                     This bill would amend the Ethics in
          S. 565 — Voting Procedures Commis-
                                                                Government Act of 1978 (5 U.S.C. App.) to
          sion and Modernization Bill
                                                                streamline the financial disclosure process for
               This bill would establish the Commission
                                                                executive branch employees, including the
          on Voting Rights and Procedures to study and
                                                                Postmaster General, the Deputy Postmaster
          make recommendations regarding election
                                                                General, and each Governor of the Board of
          technology, voting, and election administra-
                                                                Governors of the Postal Service and other offi-
          tion. It would also establish a grant program
                                                                cers of the Postal Service and the Postal Rate
          under which the Office of Justice Programs and
                                                                Commission.
          the Civil Rights Division of the Department of


PAGE 38   FINANCIAL MANAGEMENT REVIEWS
     The bill would raise the minimum thresh-               This year’s legislation attempts to give the
old for reporting assets from $1,000 to $5,000         District the authority to bill federal agencies
and for liabilities from $10,000 to $20,000,           directly. The bill phases out use by the agencies
reduce the number of valuation categories,             of the special Treasury water and sewer account
shorten certain reporting time periods, limit the      to pay for these charges. Agencies would have                      DID YOU
scope of reporting by raising certain dollar
thresholds, and eliminate many descriptive
                                                       to budget for water and sewer bills in their                       KNOW?
                                                       annual budget proposals based on estimates sup-
details. These changes will make it easier for         plied by the District. The bill emphasizes
persons who annually file ethics reports subject       prompt payment of these bills when directly         Does the Inspector General
to public disclosure.                                  billed and OIG’s reporting on compliance.
                                                            If this legislation passes, it will impose a   report to the Postmaster
H.R. 3175 — Late Fee Emergency
Relief Act of 2001                                     continuous reporting burden on the OIG. A           General?
(Similar: H.R. 3251 – Payment as                       provision of the bill (Section 2(b)(5)) requires    No. The Inspector General is
Postmarked)                                            Inspector General offices to report to the          independent of Postal Manage-
     This legislation would amend the Truth in         Congressional appropriations committees by
                                                                                                           ment and reports directly to the
Lending Act to limit the late fee and annual           the 15th of the month following the close of
                                                                                                           Governors and Congress.
percentage rate increase imposed upon a con-           each quarter, how promptly its agencies paid
sumer credit obligation in the case of a con-          their District water bills. The OIG would have
sumer whose principal residence is located in a        to commit resources to comply with this quar-
postal ZIP Code designated by the Postmaster           terly requirement. In accordance with the
General as a biological, chemical, or radiologi-       Prompt Payment Act, the OIG routinely
cal attack-related mail disruption area.               reviews the timeliness of the Postal Service’s
     The bill would prohibit creditors from            payment on accounts. The OIG believes that
imposing late fees, increasing interest rates, or      an annual reporting requirement for the Postal
submitting adverse credit information with             Service would be sufficient.
regard to the account of a consumer whose mail
                                                       GOVERNMENT AUDIT
service has been disrupted due to a biological,
chemical, or radiological attack.
                                                       STANDARDS, AMENDMENT
     This bill would likely have little impact on
                                                       NO. 3
Postal Service operations; however, the OIG                 In January, the General Accounting Office
believes it is a powerful reminder of the confi-       published the third amendment to its
dence that Congress and the public have in the         Government Auditing Standards (1994 revi-
integrity of the postmark.                             sion), commonly known as the “Yellow Book.”
                                                       Amendment No. 3, Independence, addresses
H.R. 3778 — Federal Government                         many issues of independence in audit, non-
Water and Sanitary Sewer Billing and                   audit, and consulting services.
Collection Improvement Act of 2002                          The OIG has always strived to maintain
      This bill would provide for direct billing for   the highest level of professional standards,
water and sanitary sewer furnished to federal          including those set forth by the General
agencies by the District of Columbia, and direct
                                                       Accounting Office. As described in previous
payment by those agencies to the District of
                                                       semiannual reports, the OIG expressed concern
Columbia. When Congress addressed this issue
                                                       over provisions in the “Independence
last session, the OIG determined that the Postal
                                                       Preliminary Views” document circulated for
Service did not use the special water and sewer
                                                       comment by the General Accounting Office in
account that other agencies used to pay the
                                                       February 2000. The changes proposed at that
District for water and sewer services. The Postal
                                                       time stated that Inspectors General who were
Service is billed directly and in turn promptly
                                                       appointed by an agency head would not be con-
pays for its water and sewer services from its
                                                       sidered to be organizationally independent. The
own account. The OIG reported the Postal
                                                       OIG believed that this would have created a
Service’s situation to the Congressional appro-
                                                       misperception that management influenced
priations committees as required by similar leg-
                                                       work performed by such Inspectors General.
islation last year.

                                                                                                            PAGE 39
                                         The OIG is pleased to report that the final         of records clause should include specific
                                     amendments recognize the independence of                language that permits the Postal Service
                                     Inspectors General who are not presidentially           to have access to the contractor’s facili-
                                     appointed. In particular, section 3.30.2 of             ties, as well as language that extends
       DID YOU                       Amendment No. 3 sets forth the criteria by              access obligations to subcontractors. The
       KNOW?                         which Inspectors General such as the Postal
                                     Service OIG may be presumed to be free of
                                                                                             Postal Service has not yet adopted this
                                                                                             recommendation.
                                     organizational impairments. These changes           ◆   The Purchasing Manual should require
                                     address the concerns raised by the Postal               all contractors who receive over
Who can request that the                                                                     $500,000 in cost-type postal contracts
                                     Service OIG and many other Inspectors
OIG conduct an audit or              General and will promote an understanding of            annually to have an approved accounting
                                     both our independence and the objectivity of            system, including an estimating and
investigation?                                                                               billing system that can properly allocate
Anyone can request the OIG           our work.
                                                                                             costs to postal contracts. The Postal Ser-
conduct an audit or investigation.   POLICY REVIEW                                           vice has not yet adopted this suggestion.
However, the Inspector General                                                           ◆   A computer security standard provision
                                     PURCHASING MANUAL
ultimately determines what work                                                              should be in contracts requiring the com-
                                           The OIG prepared a series of proposed revi-       puter security architecture to maintain
will be performed.
                                     sions to the Postal Service Purchasing Manual           incident handling procedures. The con-
                                     requesting that they be addressed as part of its        tractor would also be required to notify
                                     re-issuance. The OIG’s major concerns are sum-          the Postal Service of incidents that may
                                     marized as follows:                                     impact upon postal computer security,
                                     ◆   After comparing the Postal Service sus-             and provide access to contractor comput-
                                         pension and debarment system with                   er systems by postal information technol-
                                         those of other federal agencies, it was             ogy and OIG officials. While the Postal
                                         apparent that the Postal Service’s suspen-          Service did take steps to enhance their
                                         sion and debarment system must be tight-            own computer security and policies, it
                                         ened to protect its business operations,            did not require contractor’s computer sys-
                                         and provide the Postal Service with the             tems, whose computers might interface
                                         level of protection and flexibility enjoyed         with the OIG, be subject to OIG review
                                         by other federal agencies. The OIG rec-             and inspection.
                                         ommended that the Postal Service follow         ◆   Because the OIG assumed many of the
                                         the practice used in most federal agencies          functions, such as contract audits, which
                                         and lower the burden of proof standard in           were previously performed by the Inspec-
                                         debarment actions from “clear and con-              tion Service, the Purchasing Manual
                                         vincing” to “preponderance of the evi-              should be updated to properly reflect the
                                         dence.” The OIG also suggested that                 current role of the OIG. References to
                                         business decision makers and not the                the “Inspection Service” must be
                                         postal judicial officer make the debar-             changed to “Office of Inspector General.”
                                         ment decisions. In addition, the OIG                These changes were made.
                                         suggested that once a supplier was pro-         ◆   The OIG will continue to work with the
                                         posed for debarment, the supplier should            Postal Service in the months ahead to
                                         be ineligible for a contract award. Finally,        secure the recommended reforms.
                                         the OIG suggested that Postal Service
                                         contracts contain a certification clause        SUSPENSION AND DEBARMENT
                                         requiring that the contractor not have          OF CONTRACTORS
                                         been debarred within the previous three
                                                                                             Under its current purchasing rules, the
                                         years. The Postal Service has not yet
                                                                                         Postal Service is not bound to General
                                         adopted these recommendations.
                                                                                         Services Administration suspensions and
                                     ◆    While the examinations of records              debarments. The OIG has recommended for
                                         clause is a required clause in Postal Ser-      three years to postal management that this pol-
                                         vice contracts, it is not as encompassing
                                                                                         icy be changed. If the Postal Service used
                                         as the OIG suggested. The examination


                           PAGE 40   FINANCIAL MANAGEMENT REVIEWS
General Services Administration’s suspension
and debarment list, Arthur Andersen would
have been suspended sooner. Before suspend-
ing or debarring a company, the Postal Service
uses its own standards for debarment, which is
a concern.
     For example, almost immediately after its
indictment, the General Services Administra-
tion suspended Arthur Andersen from federal
government contracting, which prevented
almost every agency in the executive branch
of the federal government from making new
contract awards to the firm. The Postal
Service did not suspend Arthur Andersen
until nearly one month after the General
Services Administration’s suspension became
effective. In order to fully protect itself from
unscrupulous contractors, the OIG believes
the Postal Service should reconsider its
position on suspension and debarment.




                                                   PAGE 41
                                                                                               ◆   A former Tennessee postal manager was
                                           INSPECTION SERVICE                                      sentenced to 10 months federal imprison-


                                           W
                                                        ithin the financial management             ment followed by 2 years supervised
                                                        area, the Inspection Service per-          release, and ordered to pay restitution of
                                                        forms revenue investigations to            over $94,700 for submitting falsified trav-
                                           help ensure that Postal Service revenue is prop-        el vouchers. The vouchers were for the
                                           erly assessed and collected. Priority is given to       manager and the manager’s relatives and
                                           investigations of alleged schemes to avoid pay-         included non-existent travel and reloca-
                                                                                                   tion expenses, and duplicate claims of
                                           ment of postage and to identify, pursue, and seek
                                                                                                   various expenses. In addition, the indi-
                                           prosecutive actions against violators through
                                                                                                   vidual forged the signature of a non-exis-
                                           civil, administrative, and criminal remedies.
                                                                                                   tent manager as the approving official.
                                                Postal Inspectors focus on revenue investi-
                                           gations where there is customer intent to           ◆   A former Missouri postmaster was sen-
                                           defraud the Postal Service. In the last 6 months,       tenced to 6 months community confine-
                                                                                                   ment, 5 years probation, and ordered to
                                           there were 23 arrests and 29 successful criminal
                                                                                                   pay over $88,600 in restitution for mail
                                           convictions resulting from revenue investiga-
                                                                                                   fraud and embezzling money order funds.
                                           tions.
                                                                                                   While serving as postmaster or officer-in-
                                                Further, the Inspection Service investigates
                                                                                                   charge at five Missouri post offices, the
                                           embezzlements involving employee theft from             employee issued money orders for person-
                                           cash drawers and schemes involving postal               al expenses and for their child’s tuition at
                                           money orders. Postal Inspectors initiated               a local beauty college. The money orders
Inspection Service assists with protect-   210 investigations of employee embezzlements            were claimed in postal financial records
ing the Postal Service’s revenues.
                                           this reporting period, which documented losses          as official disbursements. The restitution
                                           of over $2.2 million. Examples of investigations        amount includes more than $34,000 to
                                           in this area are summarized below.                      the Missouri Chapter of the National
                                                                                                   Association of Postmasters of the United
                                           ◆   A supervisor in charge of a large New
                                                                                                   States. As the elected secretary treasurer,
                                               York area presort bureau was found guilty
                                                                                                   the individual also wrote and mailed
                                               of defrauding the Postal Service and its
                                                                                                   Association checks to pay personal
                                               customers of over $20 million through a
                                                                                                   expenses.
                                               combination of postage fraud schemes.
                                               Testimony at trial disclosed that the           ◆   A former Illinois postal supervisor was
                                               supervisor was responsible for operating            sentenced to 5 years probation and
                                               and directing others to use two postage             ordered to pay restitution of over $34,700
                                               meters, which the company knew were                 for embezzling postal funds. The investi-
                                               either defective or had been altered. The           gation revealed that one hundred postal
                                               conviction of the supervisor brings the             money orders were reported stolen by the
                                               total number of defendants convicted to             supervisor; 54 of which had been negoti-
                                               14, while another suspect is still at large.        ated without payment made to the Postal
                                               Sentencing for the supervisor is sched-             Service.
                                               uled for May 2002.                              ◆   A former Ohio post office branch manag-
                                           ◆   The supervisor of a Washington, DC,                 er was sentenced to 3 years probation, 6
                                               area letter shop was arrested for defraud-          months of which will be on home deten-
                                               ing a mailing customer, the Democratic              tion for embezzling postal funds. The
                                               National Committee. The letter shop                 manager removed stamps from the unit
                                               contracted with the Committee to mail               reserve and sold them to local merchants
                                               approximately 550,000 solicitations dur-            to acquire cash to pay a gambling debt.
                                               ing the 2000 presidential campaign. An              The former employee was ordered to pay
                                               Inspection Service investigation revealed           restitution of over $13,000, which was
                                               that the letter shop only prepared and              paid at the time of sentencing.
                                               mailed about 4 percent of the contracted
                                               amount.




                               PAGE 42     FINANCIAL MANAGEMENT REVIEWS
Technology Reviews




   OFFICE OF INSPECTOR GENERAL
        Developmental Reviews
        Information Systems Reviews
        Systems Development Reviews
        eCommerce Reviews
        Computer Intrusion Investigation Activities
        Legislative, Regulatory & Policy Reviews

   INSPECTION SERVICE




                                               PAGE 43
                                                                                                         OIG reviews have covered developmental
                                             This section highlights audits, reviews,
                                                                                                    systems, information systems, eCommerce, and
                                             and investigations performed by the OIG
                                             and summarizes Inspection Service activi-              computer intrusion detection activities. In the
                                                                                                    past 6 months, the OIG performed 25 reviews in
          DID YOU                            ties in the technology area. Report num-
                                             bers are shown in parentheses after the                the technology area, some of which are high-
          KNOW?                              narrative, as appropriate. Also, the OIG               lighted below:
                                             legislative, regulatory, and policy reviews
                                                                                                    DEVELOPMENTAL REVIEWS
                                             are included at the end of this section. In
Why does the OIG report all of               order to differentiate the work reported by                 The Postal Service is developing business
                                             the OIG and Inspection Service, the page               systems and mail processing equipment to
its findings and issues to the                                                                      improve performance, enhance service, and
                                             containing the activities reported by the
Governors and Congress?                      Inspection Service has been color-                     reduce operating costs. The typical develop-
 The OIG is required by law to               screened.                                              ment process begins with the identification of a
keep the Governors and Con-                                                                         business need. After the business need has been
gress fully and currently                                                                           identified, a solution is developed, followed by
informed. The OIG also reports              OFFICE OF INSPECTOR                                     the proof of concept or first article test and final
its findings and issues to Postal           GENERAL                                                 deployment. The OIG understands the impor-
                                                                                                    tance of reviewing these systems as they are
Service management so that they

                                            T
                                                     he Postal Service recognizes that tech-        developed and has completed four audits of
can take appropriate action to                       nology, including electronic commerce,
                                                                                                    major projects currently under development
further improve the efficiency                       is key to productivity and affordability.
                                                                                                    during the reporting period. One anthrax
and effectiveness of Postal Ser-            Through technology, the Postal Service handles
                                                                                                    related review is highlighted in the Responding
vice programs and operations.               more than 660 million pieces of mail every day
                                                                                                    to Terrorism section and the other reviews are
                                            and maintains its network of over 38,000 post
                                                                                                    highlighted below:
                                            offices and facilities. Its technology strategy is to
                                            provide convenient access to all customers on a         TEST, EVALUATION, AND
                                            daily basis through increasingly sophisticated          QUALITY GROUP PRACTICES
                                            retail systems, expansion in new electronic
                                                                                                    CAN BE IMPROVED
                                            access channels, and electronic linkages that
                                                                                                         An OIG initiated audit of the Test,
                                            integrate customer and postal processes. In addi-
                                            tion, the Postal Service is using modern tech-          Evaluation, and Quality group revealed that its
                                            nology, such as NetPost™ Mailing Online,                practices could be improved. For example, the
                                            NetPost™ Cardstore, and eBillPay™. These                group did not provide an independent assess-
                                            initiatives will improve and build on its existing      ment of programs. Additionally, the group
                                            services and relationships with customers and           lacked formal written policies and procedures
                                            continue meeting traditional customer                   for performing and documenting tests and
                                            demands.                                                inspections of capital equipment. The OIG rec-
                                                 The recent terrorist attacks have demon-           ommended and Postal Service management
                                            strated how the postal infrastructure, including        agreed to provide routine testing and quality
                                            information systems, is vulnerable to attacks.          information directly to the vice president of
                                            Computer systems are a critical component of            engineering. Additionally, postal management
                                            every aspect of postal operations that must be          agreed to establish formal policies and proce-
                                            protected from potential cyber-terrorism to pre-        dures, as well as, define roles and responsibili-
                                            vent disruption in service. Technology invest-
The OIG reviewed the deployment of the                                                              ties. However, postal management disagreed
Automated Flat Sorting Machine 100,         ments not only need to be scrutinized to
                                                                                                    with the recommendation to provide the
which automates processing of mail          minimize the risk of disclosure or compromise,
                                                                                                    Quality Group with an independent budget.
larger than a letter by incorporating on-   but also to ensure that sound business decisions
site barcode technology.                                                                            The OIG does not consider this recommenda-
                                            are made. This is particularly important as the
                                                                                                    tion significant and does not plan to pursue it
                                            Postal Service reviews several technologies to
                                            identify an efficient, effective, and safe method       through the audit resolution process.
                                            to sanitize mail.                                       (OIG DA-AR-02-004)


                                PAGE 44     TECHNOLOGY REVIEWS
UTILIZATION OF AUTOMATED                            recommendations to validate that they are
FLAT SORTING MACHINE 100                            being addressed. Management agreed to address
SHOULD BE ASSESSED PRIOR TO                         the recommendations if the project is restarted.
ADDITIONAL PURCHASES                                (OIG DA-AR-02-002)
     An audit of the Automated Flat Sorting
                                                    INFORMATION SYSTEMS
Machine 100 revealed that although key              REVIEWS
deployment activities for the flat sorting
                                                         The Postal Service relies on a massive
machines were reasonable, the machines would
                                                    computer infrastructure to accomplish and
be underutilized at the end of the second phase
                                                    streamline operations, manage one of the
of deployment due to changes in initial assump-
                                                    largest civilian workforces in the world, and
tions. Postal Service management disagreed
                                                    move billions of pieces of mail each year. The
with the OIG’s recommendation to recalculate
                                                    Postal Service has initiated several information
the impact of lower processing rates on
                                                    technology projects to enhance efficiency and
expected return on investment, stating that it
                                                    increase revenue. To ensure the success of these
was too early in the program to effectively eval-
                                                    projects, the Postal Service needs to improve
uate it because deployment has yet to be com-
pleted. However, management did agree to            computer security to reduce the risk of fraud,
perform a utilization analysis after all of the     inappropriate disclosure of sensitive data, unau-
machines are deployed and have been opera-          thorized disclosure of customer information,
tional for at least four months. Additionally,      and disruption of critical operations and ser-
management agreed to address flat sorting           vices. The OIG has initiated reviews of Postal
machine underutilization before considering         Service information systems under develop-
additional machine purchases.                       ment, a major telecommunications review, and
(OIG DA-AR-02-001)                                  an annual assessment of general controls at
                                                    major processing centers. The most significant
                                                                                                            The OIG conducted vulnerability tests of
PROCESSING OPERATIONS                               reviews are highlighted below:                          servers at Postal Service Headquarters
INFORMATION SYSTEM MAY                                                                                      and three other locations nationwide.
NOT HAVE BEEN AN EFFECTIVE                          SERVER WEAKNESSES IDENTIFIED
DECISION-MAKING TOOL                                IN NETWORK VULNERABILITY
     An OIG audit disclosed that certain con-       TESTS
ditions existed where the Processing Operations          The OIG issued technical reports on the
Information System was not an effective deci-       results of vulnerability tests of selected servers in
sion-making tool for managing processing oper-      Postal Service Headquarters, and at three other
ations. The system was designed to allow plant      localities nationwide. The OIG noted various
managers to monitor and assess work hour dis-       security weaknesses in the server systems that
tribution and mail processing operations to eas-    required remedial action to reduce risks to the
ily identify and diagnose problems or               Postal Service’s telecommunications infrastruc-
inefficiencies. The system, which was initiated     ture and information systems. If left uncor-
prior to the Information Platform, did not fully    rected, the vulnerabilities could result in loss of
address emerging corporate-wide business goals,     confidentiality, integrity, and availability of
such as the Information Platform. In addition,      vital financial and operational systems.
OIG found weaknesses in measuring and track-        Additionally, uncorrected vulnerabilities could
ing costs, benefits, risks, and contract adminis-   result in unauthorized access to Postal Service
tration. While there were limited productivity      information and/or allow an unauthorized user
benefits that resulted from the Processing          to leverage the compromised system to gain
Operations Information System pilot, manage-        access to additional information and systems.
ment suspended the program and did not fund         Postal Service management agreed with the
national deployment. Because of this sequence       OIG’s recommendations and indicated correc-
of events, management believed there was no         tive actions would be taken.
value in addressing the recommendations con-        (OIG IS-CS-02-001, OIG IS-CS-02-003,
tained in the report. In the event the project is   OIG IS-AR-02-002, and OIG IS-AR-02-004)
restarted, the OIG will follow up on the


                                                                                                              PAGE 45
                                                                                              controls were needed to strengthen the config-
                                         VULNERABILITY TESTING                                uration, control, and security of UNIX operat-
                                         REVEALED POTENTIAL                                   ing systems. Postal Service management agreed
                                         NETWORK EXPOSURES
                                                                                              with the findings and recommendations and
                                              OIG vulnerability tests revealed a variety      corrective actions have been taken or planned.
                                         of weaknesses related to critical communication      (OIG IS-AR-02-001)
                                         devices that control the flow of data that if left
                                         uncorrected could impact the confidentiality,        INTERNAL CONTROL
                                         integrity, availability, and efficient performance
                                                                                              WEAKNESSES FOUND IN A
                                         of the Postal Service’s wide-area network. The
                                                                                              FACILITIES MANAGEMENT
                                         deficiencies occurred because the Postal Service
                                                                                              SYSTEM
                                         did not have complete and definitive guidance
                                                                                                   An OIG audit of a facilities management
                                         for managing and securing these devices. Postal
                                                                                              system revealed weaknesses that could affect the
                                         Service management agreed with the OIG’s
                                                                                              data integrity of the system. Specifically, the
                                         recommendations and indicated that guide-
                                                                                              OIG identified weaknesses in the systems devel-
                                         lines, to strengthen security, configuration
                                                                                              opment life cycle practices, access controls, seg-
                                         checklists, corrective action plans for identified
                                                                                              regation of duties over financial transactions,
                                         vulnerabilities, management plans for updating
                                                                                              systems security, and contingency planning.
                                         technology, and periodic verifications of
                                                                                              This system is used to manage Postal Service
                                         security configurations would be developed or
                                                                                              leased and owned facilities. Many of the systems
                                         completed. (OIG IS-CS-02-002,
                                         OIG IS-AR-02-005, and OIG IS-AR-02-006)              deficiencies were a result of not consistently
                                                                                              applying good systems development life cycle
                                         FY 2001 INFORMATION                                  practices or a structured approach to properly
                                         SYSTEMS CONTROLS AT THE                              developing a system, including not integrating
                                         INFORMATION TECHNOLOGY
                                         AND ACCOUNTING SERVICE                               basic security controls in the original design.
                                         CENTERS ARE GENERALLY                                Postal Service management agreed with OIG’s
                                         ADEQUATE                                             recommendations with the exception of segre-
                                              The OIG conducts an audit of information        gating duties at small postal facilities where they
The OIG conducts audits of information
                                         systems controls each year in support of the         do not have enough experienced personnel
systems controls at Information
Technology Accounting and Service        annual financial statement audit. The objective      familiar with the system to allow the segrega-
Centers each year in support of the      of the FY 2001 audit was to determine whether        tion and still handle the workload.
annual financial statement audit.        general controls over information systems at         (OIG IS-AR-02-003)
                                         three service centers provided reasonable assur-
                                         ance that data was accurate, complete, and           SYSTEMS DEVELOPMENT
                                         secure. Each of these sites provide computer
                                                                                              REVIEWS
                                         processing and accounting services for the                Reviewing systems during the develop-
                                         Postal Service and house multiple service cen-       ment process provides an opportunity to iden-
                                         ters. The review included an evaluation of con-      tify potential development cost and time
                                         trols over software, data, personnel, and            savings, and a greater assurance that appropriate
                                         physical security that affect computer systems.      internal controls will be included in the com-
                                              Generally, the audit revealed that controls     pleted system. Best practices show that it is 50
                                         over software and data security at the               to 100 times more costly to make changes after
                                         Information Technology and Accounting                a system is placed into production. During sys-
                                         Service Centers were adequate and that man-          tem development, OIG reviewed the eServices
                                         agement had taken aggressive actions to resolve      Registration, Delivery Unit Notification
                                         recommendations made in previous reports.            System, Facilities Database, and Vehicle
                                         However, additional enhancements were                Operation Information System. The OIG deter-
                                         needed to improve user access controls for           mined that there was insufficient planning and
                                         Oracle databases and controls over security          documentation; inadequate requirements defin-
                                         clearance processing. In the area of business        ition; lack of end-user involvement throughout
                                         continuity planning, action was necessary to         the process; incomplete test plans; inherent
                                         create and test disaster recovery plans for          risks in the systems being overlooked or com-
                                         certain critical systems. Additionally, improved     promised; and a lack of validation testing.

                               PAGE 46   TECHNOLOGY REVIEWS
      The OIG provided preliminary results on      ness lives. Some of the newer services available
these systems to Postal Service management.        through the website USPS.com™ include
As a result, postal management immediately         MoversGuide™, new features under USPS
suspended implementation of the eServices          eBillPay™, and NetPost™ Cardstore. In addi-
Registration and Delivery Unit Notification        tion, the Postal Service continues to improve
System until corrective actions could be made.     the performance and usability of its web pres-
Subsequently, Postal Service management ter-       ence to ensure secure access and the protection
minated eServices Registration. Due to budget      of customer privacy. eCommerce initiatives
constraints, the Postal Service cancelled the      have been consolidated under the Products
Vehicle Operations Information System.             Development group, reporting to the Chief
Should the project be restarted, corrective        Marketing Officer. The reorganization will
actions will be taken to address the recommen-     help the Postal Service focus on those initia-
dations in the report. Management agreed with      tives supporting the core products and con-
all recommendations in the Facilities Database     tribute to revenue.
and Delivery Unit Notification System reports           The OIG is committed to helping the
and either has already or soon will take correc-   Postal Service meet the eCommerce chal-
tive actions to address those recommendations.     lenge. OIG efforts during this period focused
(OIG-EM-AR-02-003, EM-AR-02-006,                   on overlap of initiatives, return on invest-
EM-AR-02-005, EM-AR-02-004)                        ment, and privacy issues. Three of these efforts
                                                   are highlighted below:
OIG AUDITS RESULT IN POSTAL
MANAGEMENT ISSUING                                 OVERLAP OF INITIATIVES
MEMORANDUM TO ENSURE                               RESULTS IN INEFFICIENT USE
COMPLIANCE WITH                                    OF FUNDS
INFORMATION TECHNOLOGY                                   At the request of the Postmaster General,
POLICIES                                           the OIG conducted a review to determine
     The OIG’s systems development life cycle      whether overlap existed between the Postal
audits have identified instances of noncompli-     Service’s five public key infrastructure initia-
ance with information technology policies and      tives. Public-key infrastructure is a system of
procedures. In particular, these audits focused    hardware, software, policies, and people that
on the lack of use of a standard systems devel-    protects electronic communications and trans-
opment methodology. As a result of the OIG’s       actions. The audit revealed that the Postal
work in this area, the Postal Service’s Chief      Service spent $22 million on five independent
Operating Officer and Chief Financial Officer      public-key infrastructure initiatives that either
addressed a memorandum to all Postal Service       overlapped in some areas or could significantly      The OIG’s systems development life cycle
officers encouraging compliance with postal        overlap as they proceeded. As a result, initia-      audits resulted in the Postal Service’s
information technology policy and procedures.      tives competed for scarce resources, funds were      Chief Operating Officer and Chief
The memorandum noted that in order to              used inefficiently, and customers would poten-       Financial Officer issuing a memorandum
                                                                                                        to all Postal Service officers encourag-
address the OIG’s concerns, the Postal Service     tially be confused. In addition, these initiatives
                                                                                                        ing compliance with postal information
created an integrated solutions methodology        did not have a single executive sponsor and          technology policy and procedures.
and portal that provide a standard methodology     were not well coordinated throughout the
and access to extensive information technology     Postal Service. The OIG also reviewed legal
resources and services that support the systems    matters such as fair play, control, ownership
development process. The memorandum also           rights, and subcontracting, since several
noted that each postal program manager is          alliance agreements with private firms were
responsible for adhering to, monitoring, and       pending at the time. The Postal Service agreed
enforcing all information technology policies.     with five of the six recommendations and has
                                                   initiatives in progress, completed, or planned
eCOMMERCE REVIEWS                                  addressing the issues. Postal management ini-
     The Postal Service continues to provide       tially disagreed with the recommendation to
customers with new online products and ser-        develop a policy on investing in a private enter-
vices to enhance customers’ personal and busi-     prise because they concluded it would be better



                                                                                                          PAGE 47
                                         to handle this on a case-by-case basis. However,          Postal Service management generally
                                         further communication between the OIG and            agreed with the OIG’s recommendations. As a
                                         postal management resolved the issue.                result of these recommendations, and the OIG’s
                                         (OIG EM-AR-02-009)                                   prior audit, postal management undertook
         DID YOU                                                                              efforts to review all websites in addition to
                                         SYSTEM NOT ECONOMICALLY
         KNOW?                           JUSTIFIED OR EFFECTIVELY
                                                                                              PostmarkAmerica.com. These efforts include
                                                                                              removing the tracking device from
                                         MANAGED
                                                                                              PostmarkAmerica.com, updating policy and
                                               PostmarkAmerica.com was a website capa-        procurement clauses on privacy, agreeing to per-
What is the Postal Service’s             ble of accepting and processing Postal Service
                                                                                              form periodic reviews to identify improper
Transformation Plan?                     merchandise sales orders online. The OIG
                                                                                              tracking devices, and requesting the return of
The Transformation Plan was              found that the system: was not economically
                                                                                              data gathered via the web from the third party.
                                         justified; developed and maintained without
created to explore ways that the                                                              The Postal Service disagreed that the then-
                                         adequate contract provisions; developed and
Postal Service can change its                                                                 existing contracts put customers data at risk.
                                         operated without requiring the contractor to
business model to be successful                                                               Postal management did, however, implement
                                         adhere to Postal Service policies; and did not
                                                                                              OIG recommendations by adding additional
in the 21st century and promote          have a migration plan to USPS.com. As a
                                                                                              security clauses to contracts to further protect
an efficient, reliable, and innova-      result, a positive investment may not be
                                                                                              the Postal Service interest.
tive delivery services sector that       achieved, additional costs were incurred, work
                                                                                              (OIG EM-AR-02-001)
                                         was performed outside the contract scope and
meets the diverse economic and
                                         with unauthorized contract commitments, and          COMPUTER INTRUSION
social needs of the nation and all                                                            INVESTIGATION ACTIVITIES
                                         the risk of database compromise was increased.
its citizens.                            Management agreed with six of the eight rec-              The OIG Computer Intrusion Team inves-
                                         ommendations in the report. However,                 tigates criminal violations of state and federal
                                         management disagreed that the creation of            laws enacted to protect the authenticity, pri-
                                         PostmarkAmerica.com was outside the contract         vacy, integrity, and availability of electronically
                                         scope and developed with unauthorized con-           stored and transmitted information. Rapidly
                                         tract commitments. The OIG met with Postal           expanding eCommerce ventures make the pro-
                                         Service management, which agreed to issue a          tection of postal information systems critical to
                                         contract modification, and has updated policy        the financial viability of the Postal Service.
                                         and improved its contracting officer representa-     Because such ventures involve connectivity
                                         tive training program. Based on these actions,       between postal systems and eCommerce part-
                                         the OIG considers these issues resolved.             ners, the Computer Intrusion Team conducts
                                         (OIG EM-AR-02-008)                                   investigations of attacks upon the security of
                                         QUESTIONABLE METHODS USED                            those systems in order to maintain the integrity
                                         TO GATHER USER INFORMATION                           of eCommerce information. The team informs
                                                                                              Postal Service management and eCommerce
                                               An OIG report, the second such report,
                                                                                              partners regarding emerging threats to informa-
                                         disclosed that the Postal Service used question-
                                                                                              tion systems, and assists them in identifying and
                                         able methods to gather website visitor informa-
                                                                                              eliminating potential vulnerabilities. These
                                         tion and that online data collected by third
                                         parties was not clearly identified as Postal         efforts include assisting the Postal Service in
The Postal Service uses technology to    Service property. As a result, the public could      developing security policies, information sys-
handle more than 660 million pieces of   perceive that the Postal Service is trying to pro-   tems, and eCommerce procedures that conform
mail every day. Pictured here is the                                                          to the best practices in industry and govern-
Tray Management System, which is
                                         file its website visitors even though this is not
                                         the intent and third parties may try to claim        ment. During this reporting period, the OIG has
designed to automate the moving and
staging of mail in processing and        that the online data gathered through these          completed a number of investigations and pro-
distribution centers.                    methods belongs to them and not the Postal           vided technical assistance to the Postal Service.
                                         Service. Also, the Postal Service lacked assur-      Some of these efforts are highlighted below.
                                         ance that a third party is not profiling Postal      POSTAL CONTRACTOR ENGAGED
                                         Service online data with other user data or          IN COMPUTER HACKING
                                         selling Postal Service visitor information for
                                                                                                  After receiving information from Postal
                                         marketing purposes.


                               PAGE 48   TECHNOLOGY REVIEWS
Service management, an OIG investigation              critical infrastructure. OIG participation pro-
established that a postal contractor engaged in       vides access to the best available information
computer hacking from postal computers. The           regarding cyber threats that could potentially
misuse was directed at sensitive postal computer      degrade postal operations. Further, OIG
systems and at commercial computer systems            involvement fosters a close working relation-
outside the Postal Service. The exploits had the      ship among other organizations with similar
potential to compromise the authenticity, pri-        missions.
vacy, integrity, and availability of electronically
                                                      LEGISLATIVE, REGULATORY &
stored and transmitted information within sen-        POLICY REVIEWS
sitive postal systems and targeted non-postal
                                                           During this reporting period, the OIG
systems. These actions could have undermined
                                                      identified legislation, regulations, and policies
public confidence in the security of postal infor-
                                                      affecting Postal Service technology. Some of the
mation systems and could have subjected the
                                                      legislation and regulations reviewed are below.
Postal Service to civil liability for damage to the
targeted non-postal systems. As soon as the           PROPOSED LEGISLATION
OIG notified Postal Service management, the
contractor resigned in lieu of termination.           H.R. 3482 — Cyber Security Enhance-
                                                      ment Act of 2001
OIG COMPUTER SECURITY                                      This bill would require the United States
AWARENESS BRIEFINGS                                   Sentencing Commission to amend federal sen-          The OIG’s Computer Intrusion Unit detects
     During this reporting period, the Computer       tencing guidelines and to reflect the serious        and investigates computer hacking and
                                                                                                           other high-technology crimes involving
Intrusion Unit conducted 23 briefings attended        impact computer–related fraud has on individu-       Postal Service computers and telecom-
by 568 individuals at postal and law enforce-         als and the general public. The legislation aims     munications systems.
ment facilities throughout the United States.         to toughen the sentencing guidelines to provide
These briefings provide an overview of the            greater deterrence for those who commit com-
Computer Intrusion Unit’s investigative pro-          puter-related fraud. The legislation also provides
gram, capabilities, and services. They also pro-      electronic communication providers with
vide a platform to exchange common security           authorization to divulge the content of elec-
information facing the Postal Service network.        tronic information and records associated with
                                                      it to a governmental entity if the provider in
4,000 PORNOGRAPHIC IMAGES
                                                      good faith believes an emergency involving pos-
DISCOVERED ON A POSTAL
SERVICE COMPUTER                                      sible death or serious physical injury exists.
                                                           The OIG is continually involved with
     As a result of an OIG investigation of com-
                                                      efforts to detect and prevent computer intrusion
puter misuse, identified by postal management,
                                                      and computer–related fraud involving Postal
a Postal Service employee resigned in lieu of ter-
                                                      Service computer systems. The law needs to
mination after 4,000 pornographic images were
                                                      reflect the serious consequences that can result
found on the employee’s postal computer. The
                                                      from the activities of unauthorized and criminal
employee, who was assigned to an Information
                                                      computer system users.
Technology Service Center, was identified as a
result of the OIG’s periodic review of postal
computer network firewall logs.

OIG PARTICIPATES IN CYBER
INTERAGENCY WORKING
GROUP
     An employee of the OIG Computer
Intrusion Unit is working on the Cyber
Interagency Working Group chartered by the
President’s Critical Infrastructure Protection
Board. The working group was formed to coor-
dinate government and industry efforts to pre-
vent potential cyber threats to America’s


                                                                                                             PAGE 49
               This legislation will help focus the U.S.
          Sentencing Commission on the need to
          strengthen the government’s authority in prose-
          cuting computer fraud and seriously punishing
          those who engage in it.




PAGE 50   TECHNOLOGY REVIEWS
INSPECTION SERVICE

T
         he Inspection Service plays an impor-
         tant role in the support of Postal
         Service eCommerce initiatives and
technical applications. The Inspection Service
evaluates the need for and processes security
clearances of employees and contractors access-
ing postal systems or sensitive information. The
Inspection Service also evaluates all Postal
Service new electronic products, including:
eBillPay™, NetPost™ Mailing Online, and
NetPost™ Certified, and enterprise public key
infrastructure. The Inspection Service also mon-
itors and reviews the physical security of indi-
vidual systems before and after implementation.




                                                   Postal Inspectors collect evidence during
                                                   an investigation.




                                                     PAGE 51
PAGE 52
Labor Management
Reviews




 OFFICE OF INSPECTOR GENERAL
      Workplace Environment Reviews
      Human Resource Process Reviews
      Health Care Reviews
      Legislative, Regulatory & Policy Reviews

 INSPECTION SERVICE




                                             PAGE 53
                                     This section highlights audits, reviews, and         reviews and seven investigations identifying
                                     investigations performed by the OIG and              opportunities to save $3 million during current
                                     the Inspection Service in the labor manage-          and future years in the labor management area.
                                     ment area. Report numbers are shown in
        DID YOU                      parentheses after the narrative, as appro-
                                                                                          WORKPLACE ENVIRONMENT
                                                                                          REVIEWS
        KNOW?                        priate. Also, the OIG legislative, regulato-              The Postal Service has identified signs of
                                     ry, and policy reviews are included at the           workplace stress in many of its facilities and is
                                     end of this section. In order to differentiate       developing comprehensive steps to improve the
Will the OIG investigate             the work reported by the OIG and Inspec-             workplace environment, including improving
                                     tion Service, the page containing the work           relations between managers and employees, and
allegations of retaliation when      reported by the Inspection Service has been          aligning human resources with business require-
wrongdoing is reported?              color-screened.                                      ments. During this reporting period, Postal
The OIG investigates all                                                                  Service efforts focused primarily on safeguarding
complaints of management                                                                  the public, postal employees, facilities, and the
retaliation received from Postal     OFFICE OF INSPECTOR                                  mail from the anthrax biohazard threat. The
Service employees who had            GENERAL                                              OIG completed reviews to assist the Postal
                                                                                          Service with these efforts, which are high-
previously reported wrongdoing

                                     T
                                             he Postal Service has characterized          lighted in the Responding To Terrorism section
to the OIG.                                  labor management as one of the most          of this report. While reviews indicate problems
                                             important challenges in achieving its        at individual locations, they are not necessarily
                                     mission in the 21st century. A key Postal            indicative of the nationwide Postal Service
                                     Service goal in the labor management area is to      work environment.
                                     foster an inclusive, welcoming, and productive
                                     workplace consistent with its values of fairness,    HUMAN RESOURCE PROCESS
                                                                                          REVIEWS
                                     opportunity, safety, and security. With more
                                     than 860,000 full and part-time employees                 Postal Service managers are responsible for
                                     working at more than 38,000 facilities nation-       preserving and protecting official records and
                                     wide, the Postal Service realizes that to operate    privacy information. In addition, managers
                                     effectively in a rapidly changing environment,       must avoid conflicts of interest, which could
                                     it needs to give employee issues a higher priority   affect both the public’s trust and confidence in
                                     and to enhance each employee’s contribution to       Postal Service human resource processes. Postal
                                     organizational performance. Additionally, in         Service managers are also responsible for com-
                                     light of terrorist attacks, including attacks        plying with existing policies and procedures
                                     involving the transport of anthrax through the       regarding sexual harassment, overtime, leave,
                                     mail, the Postal Service must take precautions       compensation and benefits, and training. The
                                     to ensure the safety and well being of its           OIG conducted the following audits and inves-
                                     employees.                                           tigation to assess controls over these processes:
                                          The OIG supports the Postal Service in its      ALTERNATE FUNDING METHOD
                                     overall goal of fostering an inclusive and wel-      NEEDED FOR PAY FOR
                                     coming workplace consistent with the Postal          PERFORMANCE PROGRAM
                                     Service values of fairness, opportunity, safety,          An OIG review revealed that the use of the
                                     and security. The labor management area              economic value-added concept was not an
                                     includes workplace environment, human                appropriate methodology to fund the Postal
                                     resources, and health care. While the OIG has        Service’s Pay for Performance program.
                                     worked diligently with the Postal Service and        Specifically, the concept was created for profit-
                                     Congress to address these concerns, reviewing        making entities and did not fit the Postal
                                     labor management areas continues to be one of        Service’s break-even operating environment.
                                     the OIG’s greatest challenges. In this regard, the   An inflation adjustment increased revenue by
                                     OIG has received over 3,680 individual labor         over $4 billion, which caused program partici-
                                     management complaints since 1997. During             pants to earn $805 million in incentive awards
                                     this reporting period, the OIG completed 46          for FYs 1998 through 2000. Without this adjust-


                           PAGE 54   LABOR MANAGEMENT REVIEWS
ment, the profits were not sufficient to generate   $730 million for employee injury claims, a
funding for incentive awards. The audit             $60 million increase over the $670 million paid
received national attention and was covered on      in FY 2000. Controlling injury claim costs con-
the ABC World News television program.              tinues to be key to the Postal Service’s financial
Postal management disagreed with the OIG’s          well being because the Postal Service pays for
analysis, but agreed to establish an alternative    workers’ compensation costs out of operating
method for funding the Pay for Performance          funds, which directly affect the Postal Service’s
Program. (OIG LH-AR-02-001)                         net income.
                                                          The OIG assists in protecting the health
SEXUAL HARASSMENT
                                                    and welfare of the Postal Service’s workforce by
PREVENTION EFFORTS IN THE
DISTRICT OF MAINE NEEDED                            conducting audits and investigations to prevent
IMPROVEMENT                                         and detect fraud, waste, abuse, and mismanage-
                                                    ment related to Postal Service health care pro-
     An OIG audit of the District of Maine
                                                    gram costs. In addition, involvement in health
found that its managers did not always comply
                                                    care fraud investigations is vital to controlling
with sexual harassment prevention policies and
                                                    costs related to Postal Service health care pre-
procedures, even though they were adequate.
                                                    miums. Furthermore, to enhance investigative
Specifically, sexual harassment training and
                                                    efforts, the OIG will be partnering with the
investigations were not always properly docu-
                                                    Department of Labor Office of Inspector
mented and preventive measures were not
                                                    General to conduct joint reviews of the work-
enforced when findings were inconclusive
                                                    ers’ compensation program.
regarding responsible officials in sexual harass-
                                                          The OIG investigates allegations of fraud
ment cases. Also, some managers involved in
                                                    involving health care providers who are paid by,
sexual harassment cases received incentive pay
                                                    or on behalf of, the Postal Service for medical
under the Postal Service’s Pay for Performance
                                                    services rendered to Postal Service employees
program. The OIG audit concluded that full
                                                    related to:
compliance with policies and procedures might
have allowed resolution of more sexual harass-      ◆   Federal Employees’ Compensation Act.
ment complaints before they became formal.              This act is administered by the Depart-
                                                                                                         In response to an OIG audit, the Postal
Postal Service management agreed to ensure              ment of Labor with costs charged back to
                                                                                                         Service took prompt action to improve its
that sexual harassment awareness training is            the Postal Service.                              injury compensation program.
provided and documented for all employees;          ◆   Postal Service-Contracted Doctors and
conduct prompt investigations that are docu-            Facilities. Approximately 1,500 physi-
mented; and consider excluding employees dis-           cians and facilities are contracted and
ciplined for sexual harassment from the Pay for         paid directly by the Postal Service to
Performance Program. (OIG LH-AR-02-002)                 provide medical services to its employees.
                                                    ◆   Federal Employees Health Benefits
ADMINISTRATIVE LEAVE COSTS
REDUCED BY ABOUT $3 MILLION                             Program. The Postal Service pays a por-
                                                        tion of approximately 860,000 employ-
     An OIG follow-up report commended the
                                                        ees’ insurance premiums, which is a
Postal Service for taking quick and responsive          direct expenditure for the Postal Service.
actions to advise all postal area vice presidents       Under the program, the Postal Service
of findings in a prior report that presented            pays 80 percent of all employee health
results of one area’s management of administra-         care premiums.
tive leave. The vice presidents were directed to
                                                         In the past 6 months the OIG completed
implement recommendations as appropriate in
                                                    seven investigations in this area. These investi-
their own areas. These actions led to an esti-
                                                    gations identified improper billing practices,
mated $3 million reduction in administrative
                                                    such as false claims and false statements by
leave costs for calendar year 2001.
                                                    health care providers. The OIG’s health care
(OIG LH-MA-02-001)
                                                    fraud investigations have resulted in 14 arrests,
HEALTH CARE REVIEWS                                 13 indictments, and 12 convictions. These
    In FY 2001, the Postal Service paid over        activities are highlighted below:


                                                                                                           PAGE 55
                                            ◆   The OIG assisted in identifying almost            Human Services, Defense Criminal
                                                $60,000 in Postal Service duplicate               Investigative Service, and the State of
                                                billings and payments for approximately           Utah Bureau of Insurance. This joint
                                                18 Postal Service employees who were              investigation was initiated based on a
                                                treated at medical clinics operated by            self-initiated effort to identify medical
                                                physicians. Specifically, a multi-agency          providers suspected of defrauding Postal
                                                undercover operation, headed by the               Service employees and the insurance pro-
                                                Federal Bureau of Investigation, led to           grams offered under the Federal Employ-
                                                the Department of Labor debarring six             ee Health Benefits Program.
                                                physicians from providing services under      ◆   As a result of a joint OIG investigation
                                                the Office of Workers’ Compensation               with the Defense Criminal Investigative
                                                Program. The physicians were previously           Service and the Florida Department of
                                                convicted in U.S. District Court on               Insurance Fraud, an individual was found
                                                charges relating to health care fraud. The        guilty of 39 counts of grand theft, 39
                                                health care fraud scheme also involved            counts of insurance fraud, one count of
                                                billings for non-existent, or “ghost” work-       organized scheme to defraud, and one
                                                ers.                                              count of violation of probation. This
                                            ◆   An OIG investigation led to the Depart-           individual was sentenced to 13 years in a
                                                ment of Labor removing two doctors                Florida state prison for using a network of
                                                from the list of physicians available to          shell corporations to fraudulently bill
                                                provide second opinions for injured               more than $400,000 to a health insur-
                                                Postal Service employees. These physi-            ance company participating in the Feder-
                                                cians were suspected of possible fraudu-          al Employees Health Benefits Program.
                                                lent billing practices under the Office of    ◆   A joint OIG investigation with the Fed-
Agents from the OIG and other law               Workers’ Compensation Program. The
enforcement agencies conduct an arrest                                                            eral Bureau of Investigation and the
                                                investigation disclosed the physicians            Defense Criminal Investigative Service
during a health care fraud investigation.
                                                were almost exclusively used when sec-            led to a federal criminal jury finding a
                                                ond opinions were required in workers’            Kansas physician guilty of 33 counts of
                                                compensation cases, and the cases they            health care fraud, 7 counts of mail fraud,
                                                handled generally resulted in permanent           and 3 counts of perjury. The physician
                                                restrictions for the injured workers. The         submitted false medical claims to govern-
                                                physicians tended to give evaluations             ment-funded insurance programs, which
                                                that were contrary to the evaluations             included billing a Postal Service employ-
                                                provided by the doctors who originally            ee’s insurance provider for two unneces-
                                                evaluated the injured employees.                  sary surgeries.
                                            ◆   Five physicians and one office manager        ◆   A joint investigation conducted by the
                                                were charged with various crimes relating         OIG, the Defense Criminal Investigative
                                                to a conspiracy to bill over $5 million in        Service, and the Florida Department of
                                                fraudulent medical claims to various              Insurance Fraud led to six individuals
                                                health insurance companies and patients.          being indicted for involvement in a
                                                Three of the physicians pled guilty; one          fraudulent health care billing scheme.
                                                was sentenced to 60 months imprison-              The scheme involved submitting fraudu-
                                                ment, 3 years supervised release, and was         lent health insurance claims by fictitious
                                                ordered to pay restitution of more than           medical providers to health insurance
                                                $2.7 million and an assessment fee to the         companies nationwide. All of the indi-
                                                U.S. District Court. Another physician            viduals entered into pre-trial diversion
                                                was sentenced to 18 months imprison-              agreements and were given probation.
An OIG press release highlights a suc-
cessful health care fraud investigation.
                                                ment and ordered to pay a fine of                 Three of the six were also ordered to pay
                                                $250,000.                                         restitution to the Federal Employees
                                            ◆   A joint investigation resulted in an              Health Benefits Program and other insur-
                                                administrative recovery of more than              ance companies.
                                                $800,000 from a medical clinic in Utah.       ◆   An OIG investigation led to an individ-
                                                The recovery resulted from an investiga-          ual receiving 8 years probation and pay-
                                                tion conducted by the OIG, Health and

                                PAGE 56     LABOR MANAGEMENT REVIEWS
    ing $24,000 in restitution to Federal            must also state the policies implemented to dis-
    Employees Health Benefits Program and            cipline employees who run afoul of anti-dis-
    other insurance companies for involve-           crimination and whistleblower policies and the
    ment in a health care fraud scheme. The          number of employees who are disciplined in
    individual was found to have cashed              accordance with these policies. Agencies would
    checks made out to a shell company used          have to post on their websites certain summary
    to bill insurance companies for services         data about the anti-discrimination and whistle-
    not rendered. The investigation was ini-
                                                     blower cases filed against them, including the
    tiated based on fraudulent postal medical
                                                     number of complaints filed, processing time,
    claims submitted by fictitious medical
                                                     and those resulting in findings of violations.
    providers.
                                                          H.R. 3806 provides for a cause of action
LEGISLATIVE, REGULATORY                              against the United States government for fed-
& POLICY REVIEWS                                     eral employees who are retaliated against for
     During this reporting period, the OIG           whistleblowing activities. It states that any per-
identified and reviewed legislation, regulations,    son who is aggrieved by a violation of the
and policies affecting Postal Service labor man-     Whistleblower Act could bring a civil action,
agement. Two legislative proposals reviewed          and would be entitled to a jury trial, in federal
during this period are highlighted below.            district court within three years from the date of
                                                     such violation, against any person, organization,
PROPOSED LEGISLATION                                 or employer responsible for the violation. The
                                                     person would also be entitled to lost wages and
Whistleblower Legislation
                                                     benefits, reinstatement, costs and attorney fees,
H.R. 169 — Notification and Federal                  compensatory or punitive damages, and equi-
Employee Anti-discrimination and                     table, injunctive, or any other relief that the
Retaliation Act of 2001; and                         court considers appropriate.
H.R. 3806 — Paul Revere Freedom to                        While the OIG strongly supports statutes
Warn Act                                             to protect employees from discrimination and
     H.R. 169 would require federal agencies to      retaliation for reporting misconduct, fraud,
be held accountable for violations of anti-dis-      waste, and abuse, the OIG does have some con-
crimination and whistleblower protection laws        cerns with these bills.
and post quarterly, on their public websites, cer-        The OIG believes the extensive reporting
tain statistical data relating to federal sector     requirements of H.R. 169 could result in a costly
Equal Employment Opportunity complaints              regulatory burden. Requiring federal agencies to
filed with their agencies. The legislation specif-   incur the costs imposed by the outcome of dis-
ically mentions the Postal Service in its defini-    crimination and whistleblower lawsuits would
tion of applicable federal agencies.                 seem incentive enough for agencies to take
     Federal agencies would have to pay for any      steps to comply with the applicable statutes.        The OIG seized this vehicle during a
discrimination or whistleblower judgments,                In addition, the Postal Service is currently    health care fraud investigation.
awards, and settlements out of funds otherwise       exempted from the Whistleblower Protection
appropriated to them. Federal agencies would         Act. After discussions with the Inspector
be required to provide notification of and train-    General, the former Postmaster General
ing in employee rights under the Whistleblower       directed the Postal Service in May 2001 to
Protection Act and the anti-discrimination           immediately strengthen existing whistleblower
statutes. The agency’s semiannual reports to         protection to ensure postal employees have pro-
Congress, the Equal Employment Opportunity           tection similar to other federal employees under
Commission, and the Attorney General will be         the Whistleblower Protection Act. The OIG is
required to cite the number of anti-discrimina-      concerned that a Postal Service working group
tion and whistleblower cases filed, their status,    has not yet implemented the May 2001 direc-
the amount of money spent on the case, the           tions but have been assured by the Postal
number of employees disciplined for discrimina-      Service that it will develop draft procedures by
tion, harassment, or retaliation. The report         early May 2002. To this end, the working



                                                                                                            PAGE 57
          group is developing procedures that will pro-
          vide for the investigation of reprisal com-
          plaints and use of an independent hearing
          officer if the parties cannot resolve the com-
          plaint. In the absence of statutory applicability,
          the OIG will continue to push the Postal
          Service to extend to its employees similar pro-
          tections afforded other federal employees
          under the Whistleblower Protection Act.




PAGE 58   LABOR MANAGEMENT REVIEWS
                                                         probation, ordered to pay over $15,000
INSPECTION SERVICE                                       in restitution. Additionally, an overpay-


P
       ostal Inspectors investigate a number of          ment of over $24,000 was declared by
       labor management areas, including work-           the Department of Labor.
       place safety, workers’ compensation,          ◆   A former Ohio letter carrier was sen-
postal robberies, and drugs in the workplace.            tenced to 8 months incarceration,
     The Inspection Service regards the preven-          ordered to pay over $72,500 in restitu-
tion of robberies as one of its highest organiza-        tion for making false statements to
tional priorities and affords task force attention       obtain federal employees workers’ com-
to facility, letter carrier, and other postal rob-       pensation benefits. In 1995, the former
beries to deter these attacks on employees.              carrier claimed a traumatic injury to the
Letter carrier robberies are generally committed         right elbow, shoulder, and hip. The car-
for the purpose of stealing mail and postal keys         rier supposedly had been totally disabled
to mail receptacles, while robberies of facilities       since 1996 suffering from frozen shoulder
                                                         syndrome. The Inspection Service inves-
are committed for cash and money orders.
                                                         tigation revealed that the claimant was
Postal Inspectors investigate the possession,
                                                         employed at various department stores,
personal use, and sale of narcotics by Postal
                                                         graduated from modeling school, and
Service employees or others while on postal
                                                         was extremely active in modeling com-
property. Postal Inspectors also partner with            petitions. The carrier also performed vig-
Postal Service management and employee                   orous gardening and lawn care activities
groups in early interventions and other efforts          and was observed pulling a lawn mower
to prevent violence in the workplace. During             starter cord 76 times in an attempt to
this period, there were 146 arrests and 121 con-         get it to work. Additional observations
victions for assaults and threats, and 44 arrests        following a doctor’s visit, during which     The Inspection Service regards work-
and 37 convictions related to robberies. In addi-        the carrier claimed constant pain,           place safety as one of its highest
                                                                                                      priorities.
tion, 12 individuals were arrested and 8 con-            revealed that the claimant immediately
victed for the sale of drugs on postal property.         left and spent the day at an amusement
     The Inspection Service investigates fraud-          park. The claimant’s physician subse-
ulent claims and receipt of workers’ compensa-           quently advised that the claimant’s true
tion benefits by individual employees.                   physical abilities were fraudulently mis-
Prosecution of workers’ compensation fraud               represented.
serves as a deterrent and prevents future benefit    ◆   A former Illinois clerk was sentenced to
payments from being made to violators. During            1 year imprisonment and 3 years super-
this period, 19 individuals were arrested and 20         vised release for making false statements
were convicted for workers’ compensation                 to obtain federal employees workers’
fraud. Examples of workers’ compensation fraud           compensation benefits. In 1978, the for-
cases worked by the Inspection Service are               mer clerk claimed a neck and shoulder
                                                         injury, and was subsequently placed on
highlighted below:
                                                         the long-term rolls by the Department of
◆   A former California mail handler was                 Labor. The clerk claimed total disability
    sentenced after pleading guilty to mail              for the past 23 years. The Inspection
    fraud for claiming a disability was caused           Service investigation, which was con-
    by hernias suffered during a 90-day casu-            ducted over a period of several years,
    al appointment with the Postal Service.              revealed that the claimant was able to
    The investigation revealed that the                  easily perform many of the activities that
    employee actively had a real estate busi-            were reported as physically impossible
    ness, worked construction, and was a                 under the claim. In addition to incarcer-
    piano teacher, while claiming to be                  ation, the former clerk was ordered to
    totally disabled. The employee failed to             pay over $82,700 in restitution. The
    report these employment activities or                investigation resulted in future cost
    the ability to work to the Department of             savings to the Postal Service of more
    Labor, as required. As a result, the                 than $682,000.
    employee was sentenced to 5 years


                                                                                                       PAGE 59
PAGE 60
Oversight of the
Inspection Service and
Other Significant
Activities




 OFFICE OF INSPECTOR GENERAL
      Oversight Reviews
      Other Significant Activities
      Legislative, Regulatory & Policy Reviews


 INSPECTION SERVICE




                                             PAGE 61
                                                                                              tion, the OIG keeps the Governors, Congress,
                                       This section highlights audits, reviews,
                                                                                              and postal stakeholders fully informed of Postal
                                       and investigations performed by the OIG
                                                                                              Service law enforcement efforts to detect and
                                       in conducting its oversight of the Inspec-
        DID YOU                        tion Service. This section also highlights
                                                                                              prevent fraud, waste, abuse, and mismanage-
                                                                                              ment by reporting the activities of the OIG and
        KNOW?                          reviews and investigations performed by
                                       the OIG and summarizes Inspection Ser-
                                                                                              the Inspection Service in these areas.
                                                                                                   During the last 6 months, the OIG com-
                                       vice activities in other significant areas.
                                                                                              pleted several oversight reviews, as well as
                                       Report numbers are shown in parenthe-
                                                                                              numerous monitoring activities, some of which
Did You Know?                          ses after the narrative, as appropriate.
                                                                                              are highlighted below.
One of the primary reasons the         In order to differentiate the work reported
OIG was established was to             by the OIG and Inspection Service, the                 INSPECTION SERVICE EXECUTIVE
provide oversight of all Inspection
                                       page containing the activities reported by             AWARDS NOT IMPLEMENTED AS
                                       the Inspection Service has been color-                 APPROVED
Service activities. The 1996
                                       screened. The OIG legislative, regulato-                     In 1998, the Board of Governors approved
amendment to the Inspector             ry, and policy reviews are included at the             an executive awards program for the Inspection
General Act provided specific          end of this section.                                   Service based on a 1996 law that required
“oversight responsibility for all                                                             Inspection Service pay and benefits to be com-
activities, including any internal                                                            parable with other federal law enforcement
investigations, performed by the                                                              agencies. The Governors approved a program in
                                      OFFICE OF INSPECTOR                                     which the awards pool was capped at 3 percent
Inspection Service.” This means
                                      GENERAL                                                 of total executive salaries and awards were to be
that any and all activities of the
                                                                                              based on individual achievements.
Inspection Service are subject to     OVERSIGHT REVIEWS                                             An audit of the Inspection Service’s execu-
the OIG’s scrutiny and review.

                                      O
                                                ne of the primary reasons the OIG was         tive awards program found that the Inspection
                                                established within the Postal Service         Service gave awards, ranging up to $20,000, to
                                                was to provide oversight of all               100 percent of its eligible executives during
                                      Inspection Service activities. The Inspector            FYs 1999 and 2000, compared to only 38 per-
                                      General Act, as amended, provides for the OIG           cent of executives given awards at other federal
                                      to conduct, supervise, coordinate, and provide          law enforcement agencies. Awards were also
                                      policy direction for audits and investigations          given to individuals who had retired before the
                                      relating to the programs and operations of the          end of the evaluation period. The Inspection
                                      Postal Service, including the Inspection                Service supported each award with identical jus-
                                      Service. In addition, the 1996 amendment to             tifications that did not identify individual
                                      the Inspector General Act provided specific             accomplishments, as required by the Board of
                                      “oversight responsibility for all activities of the     Governors. In addition, the Inspection Service
                                      Inspection Service, including any internal              did not establish a performance review board to
                                      investigations performed by the Inspection              ensure that awards were based on superior
                                      Service.” This additional authority means that          achievements.
                                      any and all activities of the Inspection Service              The OIG recommended that management
                                      are subject to the OIG’s scrutiny and review,           modify its executive awards program to make it
                                      except as it may be limited by the Governors,           comparable with the programs of other federal
                                      for specific reasons and with notification to           law enforcement agencies. Management dis-
                                      Congress.                                               agreed with the recommendation, stating that
                                           The OIG provides independent and objec-            Title 39 of the United States Code grants the
                                      tive information and analyses to the Governors,         Inspection Service latitude in the design and
                                      Congress, and postal management regarding               implementation of its program. Management
                                      Inspection Service operations. As a law enforce-        also stated that implementing the recommenda-
                                      ment agency, it is essential that the Inspection        tion would reduce the program’s effectiveness by
                                      Service be held to the highest standards of con-        limiting their ability to drive organizational per-
                                      duct to maintain the public’s trust and the             formance. The OIG believes that the current
                                      Postal Service’s reputation of reliability. In addi-    program could subject the Postal Service and


                           PAGE 62    OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
Inspection Service to potential criticism and        contractor should not have been hired for a sen-
the appearance of fiscal irresponsibility. The       sitive network security position. The Inspection
OIG is pursuing this disagreement through the        Service did not provide a sufficient explanation
audit resolution process. (OIG OV-AR-02-001)         of how this incident occurred. As a result, the
                                                     OIG will be conducting a review of Inspection
INSPECTION SERVICE EVIDENCE
                                                     Service security clearances.
HANDLING GENERALLY
EFFECTIVE                                            REVIEW OF COMPLAINTS
     An OIG audit revealed that the Inspection       REGARDING THE INSPECTION
Service effectively safeguarded collected evi-       SERVICE
dence, but could improve its practices for main-          The OIG’s oversight of the Inspection
taining, controlling, and disposing of evidence.     Service provides customers, employees, and
Although areas for improvements were noted,          other interested persons with an independent
the OIG did not find any instances in which          avenue to address complaints regarding the
the integrity of evidence reviewed was jeopar-       Inspection Service. At the same time, the OIG
dized. The review found weaknesses in the            provides the Inspection Service with an unbi-
transfer of evidence; tagging and sealing of evi-    ased review of accusations that, if left unre-
dence; documentation of evidence in inventory        solved, could harm its reputation as a
logs and reports, and on attached tags and           professional law enforcement agency and
labels; and lack of documentation regarding          reduce the public’s confidence in the Postal
currency verification forms. Additionally, the       Service. Over the past 6 months, the OIG
OIG could not determine whether all high-            closed 16 Congressional and 19 Hotline
value evidence was properly disposed of because      inquiries related to the Inspection Service. The
supporting documentation in case files was           inquiries resulted from complaints made by
sometimes missing, inaccurate, or incomplete.        Postal Service and Inspection Service employ-
Inspection Service management agreed to pro-         ees, and the general public concerning a variety
vide periodic refresher training on evidence         of issues, including adequacy and selection of
procedures, and to strengthen management             investigations. Examples of Congressional and
oversight related to evidence handling and dis-      Hotline inquiries are highlighted below.
posal. (OIG OV-AR-02-002)
                                                     ◆   The OIG reviewed an allegation that an
INSPECTION SERVICE ISSUES                                Inspection Service investigation into
CRITICAL NETWORK SECURITY                                mail and paycheck tampering, forgery,
CLEARANCE TO CONTRACTOR                                  and obstruction of justice was inade-
PREVIOUSLY CONVICTED OF A                                quate. The OIG reviewed the previous
FELONY                                                   investigation conducted by the
     After receiving information from Postal             Inspection Service, as well as additional
Service management, an OIG investigation                 information provided by the com-
revealed that the Inspection Service granted a           plainant. The investigation found no
                                                         evidence to substantiate the allegation,
sensitive security clearance to a contractor,
                                                         and the Inspection Service’s previous
despite having learned from the Office of
                                                         investigation was deemed appropriate.
Personnel Management that the contractor
had a prior federal felony conviction for unlaw-     ◆   An OIG review found no basis for a
ful receipt of pornographic images of children.          Hotline allegation that a postal manager
Further, the Inspection Service granted an               conducted inappropriate private business
                                                         ventures during duty hours at a Postal
interim clearance that allowed the contractor
                                                         Service facility. The complainant alleged
to begin working for the Postal Service even
                                                         that a postal manager was operating a
though the contractor admitted to having been
                                                         personal business venture within a fed-
fired from two previous jobs.                            eral agency and employees were being
     Postal policy generally prohibits the               solicited to participate in this private
issuance of sensitive security clearances to indi-       business while on the clock.
viduals convicted of felonies. Therefore, the            Documentation provided by the com-



                                                                                                        PAGE 63
                                                                     plainant was reviewed, and Inspection              and mismanagement. During this reporting
                                                                     Service officials were interviewed regard-         period, the OIG completed 19 investigative
                                                                     ing the allegations. The OIG investiga-            efforts and reviews of other significant issues
                                                                     tion revealed that the Inspection Service          related to Postal Service operations, some of
                                                                     actively investigated this matter on three         which are highlighted in the margin to the left.
                                                                     separate occasions, but was unable to
                                                                     substantiate the claims.                           POSTAL EXECUTIVE ACCEPTS
                                                                                                                        CONSULTING FEE FROM A
                                                                ◆    An OIG review did not substantiate a
                                                                                                                        POSTAL SERVICE CONTRACTOR
                                                                     Hotline allegation that the Inspection
                                                                     Service did not properly investigate a                  An OIG investigation revealed that, prior
                                                                     mail fraud complaint. The complainant              to contract bidding, a postal executive received
                                                                     reportedly provided a postal money order           consulting fees of $1,200 per day from a Postal
         INTERNAL INVESTIGATIONS                                     in the amount of $225, via U.S. mail, to           Service contractor. The investigation deter-
               CONDUCTED                                             a company for a product seen on the                mined that some of the information provided by
                                                 NUMBER OF           Internet. The complainant allegedly                the executive pertained to a contract yet to be
                                               INVESTIGATIONS
                                                                     never received the product or money                awarded. Further, during the same time frame,
Active Investigations at Beginning of Period          51             order back. The OIG investigation deter-           the executive conducted discussions with the
Investigations Opened                                 22
Investigations Closed                                 14
                                                                     mined that the Inspection Service’s                contractor concerning potential full-time
Active Investigations at End of Period                59             action to refer the matter to the                  employment after the issuance of the contract.
                                                                     Consumer Protection Office was appro-              The executive was placed on administrative
    SUMMARY OF CLOSED INTERNAL                                       priate.                                            leave pending possible removal from the Postal
     INVESTIGATION ALLEGATIONS
                                                                                                                        Service.
TYPES OF ALLEGATIONS                             NUMBER OF
                                                CASES CLOSED
                                                                INSPECTION SERVICE INTERNAL
Code of Conduct (violations involving                           INVESTIGATIONS                                          POSTAL EXECUTIVE RECEIVED
evidence, funds, firearms)                                                                                              OVER $15,000 IN RELOCATION
  Inspectors                                           3
                                                                     The OIG conducts investigations of mis-
  Postal Police                                        1        conduct by senior Inspection Service personnel,         BENEFITS FOR A MOVE HE DID
  Support Personnel                                    0        and monitors the conduct of internal investiga-         NOT MAKE
                                                                tions of other Inspection Service employees.                 An OIG investigation determined that the
Code of Conduct (violations involving
integrity, property, conduct, behavior)                         These investigations are conducted when alle-           Postal Service authorized relocation benefits to
   Inspectors                                          5        gations of employee misconduct affect the per-          a postal executive concerning his official
   Postal Police                                       1                                                                change in duty station to another city. The
   Support Personnel                                   2        formance of duties or when managers have
                                                                information of employee misconduct.                     executive subsequently did not relocate, despite
Other                                                  2
                                                                     The OIG receives information regarding             executing a Postal Service relocation agreement
                                                                Inspection Service internal investigations,             and receiving reimbursement for relocation
         ACTIONS TAKEN ON CLOSED                                                                                        expenses of over $15,000. The postal executive
         INTERNAL INVESTIGATIONS
                                                                including conclusions reached and recom-
                                                                mended actions. Inspection Service internal             admitted to OIG investigators that there were
DISCIPLINARY ACTIONS                             FREQUENCY
                                                                investigations for this period included allega-         irregularities in the failure to relocate, but that
Non-bargaining – adverse                                                                                                several personal and professional events caused
  Removal/Resignation                                  3        tions of sexual misconduct, physical assault, and
  Suspensions >14 days                                 1        obstructing an internal investigation. The chart        the executive to remain in the area. The Postal
Non-bargaining – non-adverse                                    on the left summarizes the internal investiga-          Service reduced the executive’s pay grade and
  Letter of Warning                                    0                                                                salary.
  Letter of Warning in lieu of time-off suspensions    0        tions conducted by the Inspection Service, the
  Official Counseling                                  2        types of allegations reviewed, and the types of         EXECUTIVE REASSIGNED FOR
Bargaining (per collective bargaining                           actions taken on closed investigations during
agreements) – adverse                                                                                                   SEXUAL HARASSMENT
  Removal/Resignation                                  1        this reporting period.                                       As previously reported in the
  Suspensions>14 days                                  0
Bargaining (per collective bargaining                           OTHER SIGNIFICANT ACTIVITIES                            September 30, 2001, Semiannual Report to
agreements – non-adverse                                                                                                Congress, the OIG completed an investigation
  Letter of Warning,                                   1
                                                                     The OIG is responsible for reviewing alle-
                                                                gations involving senior-level Postal Service           into allegations of misconduct by a senior Postal
  Letter of Warning in lieu of time-off suspensions    0
  Official Counseling                                  0        executives for criminal violations and miscon-          Service executive. It was alleged that the exec-
                                                                duct, including retaliation against individuals         utive made comments containing sexual
                                                                who have previously provided the OIG with               overtones and innuendoes towards several sub-
                                                                information about possible fraud, waste, abuse,         ordinate employees. As last reported, the OIG
                                                                                                                        was awaiting Postal Service management’s


                                                      PAGE 64   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
response. During the current reporting period,         (USA Patriot Act)
postal management took corrective actions.                  Among other matters, this law amends the
Specifically, the Postal Service executive was         federal criminal code to expand search and
reassigned to a district office and received a sig-
nificant reduction in pay grade level.
                                                       seizure authority for federal law enforcement
                                                       officers, particularly with regard to the intercep-
                                                                                                                       DID YOU
LEGISLATIVE, REGULATORY &
                                                       tion of many forms of electronic communica-                     KNOW?
POLICY REVIEWS                                         tion. Among other changes, the law will:
      In order to fulfill the OIG’s obligations        ◆   Authorize the interception of wire, oral,
under Section 4 of the Inspector General Act,              and electronic communications for the             Who controls the Office of
in addition to statutory oversight responsibility,         production of evidence of specified               Inspector General’s
the OIG is required to review existing and pro-            chemical weapons or terrorism offenses
posed legislation, regulations, and policies, and          and computer fraud and abuse;                     documents and information?
make associated recommendations to improve             ◆   Permit the seizure of voice-mail messages         The Office of Inspector General
the economy and efficiency of both the Postal              with a warrant;                                   is independent of postal manage-
Service and the Inspection Service.                    ◆   Expand the scope of subpoenas for                 ment and maintains its own
      Accordingly, the OIG has requested that              records of electronic communications to           records. Requests for informa-
the Inspection Service immediately begin refer-            include the length and types of service           tion under the Freedom of Infor-
ring all legislative initiatives, regulatory propos-       utilized, temporarily assigned network            mation Act (FOIA) or the Priva-
als, new policies, and policy changes to the OIG           addresses, and the means and source of
for review and comment prior to their publica-             payment (including any credit card or
                                                                                                             cy Act are directed to the OIG
tion or transmittal to Congress or other external          bank account numbers);                            FOIA Officer, who independently
organizations. The OIG has pledged to work             ◆   Permit electronic communication and               assesses whether any documents
with the Inspection Service to ensure the refer-           remote computing service providers to             will be released.
ral and review process operates in a timely and            make emergency disclosures to a govern-
efficient manner, without impeding the OIG’s               mental entity of customer electronic
statutory mandate.                                         communications to protect life and limb;
      The OIG has addressed this issue with the        ◆   Require legal and procedural safeguards
Inspection Service on several occasions, but to            for the use of certain electronic monitor-
date, no progress has been made in establishing            ing devices to protect public privacy;
a referral and review process. The OIG believes
                                                       ◆   Make it lawful to intercept the wire or
that the authority granted under the Inspector             electronic communication of a computer
General Act provides an unequivocal mandate                trespasser in certain circumstances;
from Congress to oversee all activities of the
                                                       ◆   Permit federal magistrate judges in any
Inspection Service. This specific oversight
                                                           district in which terrorism-related activi-
authority is in addition to the general oversight
                                                           ties may have occurred to issue search
authority provided to all Inspectors General
                                                           warrants for searches within or outside
under other provisions of the Inspector General            the district; and,
Act. The OIG will continue to work with the
                                                       ◆   Provide for nationwide service of search
Inspection Service during the next reporting
                                                           warrants for electronic evidence.
period to resolve this issue.
      During this reporting period, the OIG                 The law also provides for administrative
identified legislation, regulations, and policies      discipline of federal officers or employees who
affecting Postal Service law enforcement.              violate prohibitions against unauthorized disclo-
Legislative, regulatory and policy reviewed dur-       sures of protected information in addition to
ing this period are highlighted below.                 civil actions against the United States for dam-
                                                       ages by any person aggrieved by such violations.
ENACTED LEGISLATION                                    This provision requires the agency to make
Public Law No: 107-56 — Uniting and                    prompt inquiry as to whether a disciplinary
Strengthening America by Providing                     action is warranted in circumstances that raise
Appropriate Tools Required to Intercept                serious questions about whether an officer or
and Obstruct Terrorism Act of 2001                     employee willfully or intentionally violated the


                                                                                                             PAGE 65
          Act. If the agency determines that discipline is        weapons, nuclear materials, or weapons of mass
          not warranted, it must notify the Attorney              destruction that would likely cause a response
          General and provide justification for its deci-         by a federal, state, or local government agency.
          sion.                                                   This legislation would deal with circumstances
               The OIG believes that the USA Patriot              such as individuals who mail otherwise benign
          Act will greatly assist law enforcement efforts of      powder for the purpose of perpetrating an
          the OIG and Inspection Service. However, the            anthrax scare.
          OIG will also ensure that both it and the                    The legislation also directs the court to
          Inspection Service exercise this expanded               order restitution to all victims of such an
          authority appropriately and with due considera-         offense, including for any losses suffered as a
          tion to the rights of suspects and third parties.       proximate result; and the defendant to reim-
                                                                  burse all federal, state, and local government
          Code of Federal Regulations Revision
                                                                  entities for any expenses incurred in response to
               Working in close cooperation with the
                                                                  protect public health or safety.
          Postal Service Law Department, the OIG
                                                                       The Postal Service has spent a consider-
          amended the Code of Federal Regulations to
                                                                  able amount of resources investigating and
          reflect the role the Inspector General plays in
                                                                  arresting perpetrators of hoaxes who use the
          the audit, investigative, and oversight activity
                                                                  mail. The OIG believes this legislation could be
          of the Postal Service. This is the first compre-
                                                                  a strong deterrent to those who would perpe-
          hensive revision of the Postal Service Inspector
                                                                  trate such hoaxes and believes that it will assist
          General regulations since the independent
                                                                  the Inspection Service in dealing with such
          postal Inspector General came into existence in
                                                                  offenders.
          1997.
               Outdated references in Title 39 of the             H.R. 3129 — Customs Border Security
          Code of Federal Regulations citing the                  Act of 2001
          Inspection Service as the party responsible for a             This bill contains similar measures as in
          variety of audit and oversight duties were              H.R. 3004, the Financial Anti-Terrorism Act of
          updated to show the OIG as the responsible              2001, and S. 1209, the Trade Adjustment
          party. Incorrect references to the Inspection           Assistance for Workers, Farmers, Communities,
          Service and the Chief Postal Inspector, which           and Firms Act of 2001. It contains provisions
          should cite the Inspector General, have been            that would authorize the U.S. Customs Service
          revised. A new part has been added regarding            and other appropriate agencies to apply the cus-
          the creation of OIG and the ensuing roles and           toms laws of the United States to the importa-
          responsibilities of the OIG and the Postal              tion and exportation of mail shipments by the
          Service.                                                Postal Service and private companies. This leg-
               The changes reflect the results of meetings        islation would allow U.S. Customs Service offi-
          held over the past few years with the Inspection        cers to search and seize U.S. international mail
          Service that led to a mutually agreed-upon              at the border.
          Designation of Functions. It was the intent of                The OIG is concerned about the impact
          these revisions to reflect the current working          legislation may have on the privacy rights of
          relationship the OIG has with the Inspection            U.S. citizens, and on the operation and mar-
          Service and that both organizations have with           ketability of Postal Service’s international deliv-
          the Postal Service.                                     ery services.

          PROPOSED LEGISLATION                                    H.R. 365 — Enhanced Border Security
                                                                  and Visa Entry Reform Act of 2002
          S. 1666 — Antiterrorist Hoax and                             This legislation calls upon federal law
          False Report Act of 2001                                enforcement agencies (the Postal Inspection
               This bill would make it a crime to know-           Service is listed as one) to share information
          ingly and maliciously impart, convey, or com-           with the Immigration and Naturalization
          municate false or fraudulent information                Service and the State Department that would
          concerning the use of biological or chemical            be of assistance in determining whether to issue



PAGE 66   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
visas to aliens. Federal law enforcement agen-
cies and the intelligence community will be
required, to the maximum extent practicable, to
share any information with the Department of
State and the Immigration and Naturalization
Service relevant to the admissibility and
deportability of aliens.
      This provision of the bill will be useful in
dealing with people who may seek to enter the
United States for illicit purposes. The OIG and
the Inspection Service have cooperated with
other federal law enforcement authorities in
rooting out those engaged in antiterrorist activ-
ities. This legislation, if passed, will help law
enforcement authorities identify and deny visa
status to those who do not have a legitimate
purpose for coming to the United States.




                                                     PAGE 67
                                                                  Inspection Service considers investigations of
          INSPECTION SERVICE                                      biohazardous material sent through the U.S.


          T
                  he Inspection Service conducts investi-         mail among its highest priorities. The
                  gations and reviews of significant issues       Inspection Service also devotes significant
                  related to: physical security; narcotics        resources to prevent crimes by conducting
          offenses and trafficking; child exploitation; pro-      employee and customer awareness training pro-
          hibited mailings; postal burglaries; mail fraud         grams and implementing security measures.
          including fraud against consumers, businesses,          The following chart provides the activity during
          and government; and money laundering. The               this reporting period.




PAGE 68   OVERSIGHT OF THE INSPECTION SERVICE AND OTHER SIGNIFICANT ACTIVITIES
Customer Service




 OFFICE OF INSPECTOR GENERAL
      External Communications
      Specialized Services

 INSPECTION SERVICE




                                PAGE 69
                                          This section describes the OIG and                   RESPONDING TO REQUESTS
                                          Inspection Service’s efforts to provide cus-         FROM CONGRESS AND THE
                                                                                               POSTAL SERVICE GOVERNORS
                                          tomer service, including initiatives by
                                          support functions to enhance service to                    One of the OIG’s highest priorities is to
                                          internal customers. Customer satisfac-               provide accurate and timely responses to
                                          tion and service is the underlying creed of          Congress and the Postal Service Governors.
                                          most successful organizations and busi-              The OIG responds to many of these requests by
                                          nesses. In order to differentiate work               conducting audits and investigations. However,
                                          reported by the Inspection Service, pages            the OIG does not normally perform an audit or
                                          concerning the Inspection Service have               investigation when an inquiry involves an indi-
                                          been color-screened.                                 vidual employee issue that can be resolved
                                                                                               through contractual grievance-arbitration pro-
                                                                                               cedures or the Equal Employment Opportunity
                                         OFFICE OF INSPECTOR                                   process. Instead, the OIG incorporates individ-
                                         GENERAL                                               ual concerns into a database to identify systemic
                                                                                               issues for review. When systemic issues have
                                         EXTERNAL COMMUNICATIONS                               been identified, the OIG conducts independent
                                                                                               audits or investigations of Postal Service pro-


                                         T
                                                  he OIG is responsible for keeping mem-
                                                  bers of Congress and the Governors           grams and operations to help ensure their econ-
                                                  fully and currently informed. The OIG        omy, efficiency, effectiveness, and integrity.
                                         keeps Congress informed by issuing Semiannual               During this 6-month reporting period, the
                                         Reports to Congress, testifying at oversight and      OIG completed 85 Congressional and
                                         other hearings, and briefing members and their        Governors’ inquiries. Appendix G of this report
                                         staff on issues related to the Postal Service. The    lists the OIG responses to these inquiries by sub-
                                         OIG also regularly provides synopses of its audit     ject area. Some examples of OIG work in
                                         and management advisory reports to                    response to Congressional and Governors’
                                         Congressional committees and subcommittees            requests are highlighted below:
                                         with oversight interest in the Postal Service.        ◆   An OIG investigation disclosed evidence
                                         The OIG keeps the Governors informed                      that Postal Service officials received gra-
                                         through regular briefings at monthly Board                tuities from contractors during the con-
The OIG’s Congressional and Public       meetings, activity reports from the Inspector             tract award process. As a result of the
Relations Team serves as liaison and     General, and responses to requests for informa-           investigation, the contractor signed an
responds to requests from Congress,                                                                “Agreement in Lieu of Debarment” and
the Board of Governors, and the media;
                                         tion. The OIG also provides the Governors
                                         with copies of audit and management advisory              repaid approximately $126,000 to the
coordinates congressional testimony
and presentations; and responds to all   reports.                                                  Postal Service for the cost of the OIG’s
Freedom of Information Act requests.                                                               investigation. In addition, a Postal
                                         CONGRESSIONAL TESTIMONY                                   Service manager resigned in lieu of
                                               Each year, since its inception, the Inspector       removal; another Postal Service manager
                                         General has testified before Congress on various          was removed; and two other employees
                                         matters. While the OIG did not provide written            received Letters of Warning.
                                         statements to Congress during this reporting          ◆   Reviews of allegations from Florida letter
                                         period, in the past the OIG has provided testi-           carriers regarding unsafe working condi-
                                         mony and statements highlighting significant              tions and delayed standard mail were par-
                                         work and identifying opportunities for the                tially substantiated. The review revealed
                                         Postal Service to improve accountability and              that the mail arrived late to the delivery
                                         public trust. These testimonies and statements            unit, resulting in letter carriers delivering
                                         can be found in their entirety on the OIG’s web-          mail in 100-degree temperatures. District
                                                                                                   management stated that they were con-
                                         site at http://www.uspsoig.gov.
                                                                                                   cerned about employees working outside
                                                                                                   in the summer heat and humidity and
                                                                                                   therefore furnished cold bottled water.
                                                                                                   Postal management also stated they were


                               PAGE 70   CUSTOMER SERVICE
    committed to providing safe working             waste, fraud, abuse, mismanagement, deficient
    conditions for employees and had no             postal operations, personnel matters, and other
    reported incidents of heat exhaustion at        concerns. In addition:
    these facilities. The OIG plans to con-
                                                    ◆   Twenty-seven percent were addressed by
    duct a review regarding the delay of stan-
                                                        the Inspection Service and involved
    dard mail delivery.
                                                        criminal issues such as mail theft, assaults
◆   At the request of the Senate Committee              and threats, and workers’ compensation
    on Governmental Affairs, the OIG pro-               fraud;
    vided information on whether the OIG
                                                    ◆   Thirteen percent were addressed by the
    was in compliance with the National
                                                        Postal Service’s Office of Consumer
    Energy Conservation Policy Act, Section
                                                        Advocate involving complaints related
    8262f (c). This Act encourages
                                                        to customer service issues, particularly
    Inspectors General to conduct periodic
                                                        mail delivery;
    reviews of agency compliance. This sec-
    tion of the Act does not apply to the           ◆   Forty-nine percent were related to mis-
    Postal Service, however, its goals are              cellaneous requests for information such
    consistent with current postal energy               as ZIP Codes, postage meters, and other
    conservation efforts. Therefore, the OIG            Postal Service-related matters; and
                                                                                                       The OIG’s Hotline Team processes
    plans to review measures taken by the           ◆   Eleven percent were related to opera-          complaints of fraud, waste, abuse,
    Postal Service to reduce energy use and             tional and human resource issues that          and mismanagement.
    improve energy efficiencies.                        were referred to Postal Service manage-
◆   A postal customer alleged that personal             ment.
    property mailed through the Postal                  Some examples of OIG Hotline work are
    Service was damaged and sought full
                                                    highlighted below:
    replacement value. The OIG contacted
    the Postal Service Claims and Inquiry           ◆   This reporting period, the OIG trans-
    Section and was informed that the indi-             formed its Hotline into a “paperless envi-
    vidual’s insurance claim would be paid.             ronment,” by scanning 685,000 paper
                                                        documents for storage on 18 compact
OIG HOTLINE PROVIDES A                                  discs. In addition, the OIG scanned all
VITAL AND CONFIDENTIAL                                  Hotline data collected since its inception
COMMUNICATIONS LINK                                     and stored the data on a shared network,
     The OIG Hotline provides a vital and con-          allowing employees to access the infor-
fidential communications link between the               mation instantly.
OIG and individuals who contact the Hotline         ◆   An OIG Hotline analyst took a com-
to report allegations of fraud, waste, abuse, and       plaint from an anonymous source that
mismanagement.                                          resulted in an indictment of a California
                                                        postal employee. The analyst was instru-
Responding to Hotline Inquiries                         mental in assisting an OIG investigator
     The Hotline receives complaints from               by obtaining information from the source
employees, customers, and the general public            that resulted in an indictment against
concerning alleged violations of laws, rules, or        the employee for stealing nearly $60,000
regulations; mismanagement; waste of funds;             in vehicle parts from the Postal Service
abuse of authority; and danger to public health         and then reselling them back to the
and safety. Complaints and allegations received         Postal Service.
by the Hotline are analyzed to identify systemic         The OIG Hotline is staffed from 7 a.m. to
issues affecting the Postal Service, and referred   7 p.m., Eastern Standard Time, Monday
for appropriate action. The OIG also considers      through Friday (except federal holidays). Calls
Hotline contacts when planning audits and           can be made 24 hours a day, 7 days a week.
projects.                                           Threats and any other potentially violent work
     During this reporting period the Hotline       situations are routed immediately to the Postal
received over 9,900 contacts, some of which         Police Control Center for action 24 hours a day
were addressed by the OIG on issues such as         either by an OIG Hotline analyst or through a


                                                                                                        PAGE 71
                                    caller-directed menu system. OIG Hotline con-
                                                                                          FREEDOM OF INFORMATION ACT REQUESTS
                                    tact information is provided in the margin to
                                    the left.                                                                                     Number of
                                                                                                OIG Actions                       Requests
                                    PROPOSED LEGISLATION,
                                    REGULATIONS AND POLICY                               Carryover from prior period                 11
                                         As required by the Inspector General Act,       Received during the period                  67
                                    the OIG monitors existing and proposed legisla-       Total on hand during the period            78
                                    tion and regulations to advise Congress and the      Processed during the period
       OIG HOTLINE                                                                          Released                                 35
                                    Governors of the impact of such legislation and
◆ Toll-Free, 1-888-USPS-OIG         regulations on Postal Service programs and              Withheld                                 10
  (1-888-877-7644)                  operations. During the 6-month reporting                Referred to Postal Service
◆ TTY (Hearing Impaired)                                                                     or other agency                         10
                                    period, the OIG evaluated 25 legislative propos-
  1-866-OIG-TEXT                                                                            Otherwise closed*                        18
                                    als and 19 regulatory initiatives. Highlights of
  (1-866-644-8398)                                                                        Total processed during the period          73
                                    the legislative and regulatory proposals are
◆To write to the United States                                                           Balance at end of the period (Pending)       5
                                    included at the end of the appropriate section
  Postal Service, OIG:
                                    that describes the OIG and Inspection Service        *Otherwise closed includes no responsive documents,
  ATTN: Hotline
  1735 North Lynn Street            reviews performed in the last 6 months.              improper requests, requests withdrawn, etc.
  Arlington, VA 22209-2020          FREEDOM OF INFORMATION ACT
◆To e-mail the OIG:                 REQUESTS                                               FREEDOM OF INFORMATION ACT APPEALS
  hotline@uspsoig.gov                    The OIG is committed to making all final                                                 Number of
◆To fax information toll-free:                                                                   OIG Actions                       Appeals
                                    audit and management advisory reports
  1-866-756-6741
                                    available to the public, unless the law prohibits
                                                                                         Total appealed                              4
                                    disclosure. The OIG website, http://www.usp-
                                                                                         Upheld by Postal Service                    3
                                    soig.gov, contains all releasable final audit and
                                                                                         Appeal pending                              1
                                    management reports. A list of all reports,
                                    including those that are not releasable, is also
                                    included on the website.                            INSPECTOR GENERAL
                                         Before posting a report on the website, the    SUBPOENAS
                                    OIG reviews each report in accordance with the           Pursuant to the Inspector General Act, the
                                    Freedom of Information Act, the Privacy Act,        Inspector General is authorized to issue subpoe-
                                    and the Postal Reorganization Act. The OIG          nas for audits and investigations for which the
                                    may coordinate its review with Postal Service       OIG has investigative jurisdiction. This
                                    management and attorneys. In deciding what          includes authority to issue subpoenas in support
                                    information to release, the OIG balances the        of selected investigations of the Inspection
                                    public right to access federal agency records       Service. An Inspector General subpoena is a
                                    with individual privacy rights, as well as the      valuable audit and investigative tool. It enables
                                    Postal Service’s need to safeguard certain pro-     OIG to secure documentary information and
                                    tected information, such as those affecting busi-   evidence that, unlike grand jury subpoenas, can
                                    ness needs and employee privacy. As a result,       be readily used in civil and administrative pro-
                                    OIG reports may be withheld in whole or in          ceedings, as well as criminal cases.
                                    part to protect privacy as well as proprietary or        Inspector General subpoenas are not self-
                                    confidential information. The OIG responds to       enforcing. If a subpoena is not complied with,
                                    many written requests for reports and other         OIG legal staff, OIG agents, and Postal
                                    information under the Freedom of Information        Inspectors first attempt to negotiate with the
                                    Act. In this reporting period, the OIG received     subpoena recipient to obtain the requested doc-
                                    78 Freedom of Information Act requests, as          uments. If this is not successful, we seek enforce-
                                    depicted in the chart that follows.                 ment in United States district court. The courts
                                                                                        generally enforce the subpoena as long as the
                                                                                        inquiry is within the authority of the agency, the
                                                                                        information sought is reasonably relevant to the


                          PAGE 72   CUSTOMER SERVICE
agency’s inquiry, and the demand is not unduly        COMPUTER-ASSISTED
burdensome.                                           ASSESSMENT TECHNIQUES
     Since its inception, the OIG has been suc-            The OIG’s Computer-Assisted Assessment
cessful in enforcing every subpoena that has          Techniques Team uses automated methods and
been challenged in court because the subpoena         tools to extract and analyze electronic data
review process is thorough in terms of scope of       located in over 900 postal systems in support of
review, level of supervisory review, and signature    OIG audit and investigative efforts. The team
authority. All subpoenas are processed at OIG         has achieved success by developing program-
headquarters and they undergo thorough, pro-                                                                         SUBPOENAS ISSUED
                                                      ming techniques to independently access the
gressive investigative and legal reviews. The         large database systems in both San Mateo and            For the period October 1, 2001,
subpoena process requires OIG special agents          Minneapolis, as well as numerous remote                    through March 31, 2002
and Postal Inspectors to submit a justification       Oracle database systems throughout the postal        Types of                      Number
with their subpoena request. After supervisory        network. This team has supported several signif-     Subpoenas                      Issued
review, the OIG legal staff evaluates each sub-       icant OIG efforts during this reporting period,      OIG
poena to ensure the subpoena can withstand a          including:                                             Related to:
legal challenge. The Inspector General, the                                                                    Investigations              38
                                                      ◆   Working in concert with an audit team,
Deputy Inspector General, the Assistant                                                                        Right to
                                                          conducted an analysis of the Inspection
Inspector General for Investigations, and the                                                                  Financial
                                                          Service’s executive awards program. This
Deputy Assistant Inspector General for                                                                         Privacy Act                  0
                                                          review was conducted to determine
Investigations are the only individuals autho-            whether the program was comparable               Inspection Service
rized to sign Inspector General subpoenas.                with other federal law enforcement agen-            Related to:
                                                          cies and was implemented in an effective             Investigations              90
SPECIALIZED SERVICES
                                                          manner. The audit revealed that the                  Right to
                                                          Inspection Service’s executive awards                Financial
COMPUTER FORENSICS                                                                                             Privacy Act                 4
     Specialists trained and certified in the             program was neither comparable with the
                                                          programs of other federal law enforce-           Total                          132
seizure of computers and the recovery of elec-
                                                          ment agencies in many respects nor
tronic evidence staff the OIG Computer
                                                          implemented as approved by the Board of
Forensics Team. The team’s mission is to pro-
                                                          Governors.
vide technical support to extract data to help
identify individuals who use computers for crim-      ◆   Using creative methods, identified and
inal purposes, generally in one of three ways.            extracted data from the Facilities
First, a computer may be the target of the                Management System during the review
                                                          of excess Postal Service real estate (land).
offense. In these cases, the criminal’s goal is to
                                                          This effort revealed 30 properties pur-
steal information or cause damage to a com-
                                                          chased for $45 million that were not
puter. Second, the computer may be a tool of
                                                          developed and utilized by the Postal
the offense. This occurs when an individual uses          Service and had not been referred for dis-
a computer to facilitate some traditional offense,        posal. As a result of this work, the Postal
such as fraud. Third, computers are sometimes             Service referred 12 properties for disposal
incidental to the offense but significant to law          and returned one property to the original
enforcement because they contain evidence of a            owner.
crime.
                                                      ◆   Working with an audit team, analyzed           The OIG’s Computer Forensics Team is
POLYGRAPH SERVICES                                        two Postal Service databases to identify       staffed by specialists trained and
                                                          sexual harassment complaints and griev-        certified in the seizure of computers
    The OIG polygraph program aids criminal
                                                          ances filed and their disposition within       and the recovery of electronic
investigators and is an effective tool to assist in                                                      evidence.
                                                          the Northeast Area. This effort found
proving guilt as well as innocence. OIG poly-
                                                          that postal management could improve
graph examiners represent the OIG within the
                                                          its administration of the sexual harass-
polygraph community and on the Federal                    ment prevention program. Further, some
Polygraph Executive Committee.                            managers involved in sexual harassment
                                                          cases received incentive pay under the
                                                          Postal Service’s Pay for Performance
                                                          Program.

                                                                                                          PAGE 73
                                          INSPECTION SERVICE

                                          T
                                                   he Inspection Service has adopted
                                                   numerous initiatives to improve cus-
                                                   tomer service. The Inspection Service
                                          alerts consumers and businesses to current
                                          crimes by attracting media attention to postal
                                          crime trends, publicizing positive law enforce-
                                          ment accomplishments, circulating media
                                          releases, and hosting crime prevention presenta-
                                          tions. The Inspection Service is responsible for
                                          communicating its law enforcement and crime
                                          prevention achievements to the American pub-
                                          lic, Congress, the Postal Service, and the law
                                          enforcement community.
                                               In an effort to maintain the integrity of the
                                          mail and ensure the confidence and trust that
                                          government agencies, businesses, and customers
                                          place in the Postal Service, the Inspection
                                          Service conducts mail fraud investigations that
                                          focus on a variety of complex schemes. To pro-
The Inspection Service produces an        mote consumer protection, the Inspection
annual report which highlights their      Service utilizes specialized investigative tools
numerous accomplishments.                 and techniques such as criminal forensic labora-
                                          tories, technical surveillance and communica-
                                          tions, polygraph examiners, and digital
                                          evidence recovery units to solve crimes com-
                                          mitted against the public.




                                PAGE 74   CUSTOMER SERVICE
Goals and Strategies




   DID YOU
   KNOW?
  What is the value of jointly reporting OIG
  and Inspection Service results in a unified
  Semiannual Report to Congress?
  A unified Semiannual Report to Congress
  provides a complete accounting to the Postal
  Service stakeholders on joint efforts to prevent
  and detect fraud, waste, abuse, and
  mismanagement in Postal Service programs
  and operations.




                                              PAGE 75
                                           This section describes the OIG and                 ing fraud, waste, abuse, and mismanagement.
                                           Inspection Service vision and goals for            This plan was designed to address the Postal
                                           assisting the Postal Service in achieving its      Service’s strategic direction and objectives out-
                                                                                              lined in its Strategic Plan for FYs 2001-2005,
        DID YOU                            operational, performance, and financial
                                           goals in the 21st century. In addition, this       which reflected a growing uncertainty about the
        KNOW?                              section describes the process by which the         future implications of emerging technologies,
                                           OIG translates its vision into an annual           changing customer requirements, and competi-
                                           performance plan. In order to differentiate        tors’ actions on mail volume and postal rev-
Did You Know?                              between the OIG and Inspection Service,            enues. The OIG is currently working on
                                           the page concerning the Inspection Service         updating its strategic plan that will be released
The Postal Service has over
                                           has been color-screened.                           in September 2003.
776,000 career employees, which
                                                                                                   The OIG’s strategic planning process has
include 270,000 clerks, 240,000                                                               four distinct steps. First, the OIG determines
city delivery carriers, 60,000 mail                                                           the major management challenges facing the
handlers, and 60,000 rural
                                          OFFICE OF INSPECTOR                                 Postal Service. Second, the OIG assesses Postal
delivery carriers.                        GENERAL                                             Service operations and activities, broadly
                                                                                              defines realistic goals, sets priorities in line with
                                          STRATEGIC GOALS                                     the Postal Service’s business vision, and devel-


                                          I
                                              n March 2001, the OIG published a revised       ops effective strategies and action plans that
                                              Five Year Strategic Plan for FY 2001-2005.      align the OIG’s activities to best help the Postal
                                              Each aspect of this plan is in accordance       Service improve its effectiveness and efficiency.
                                          with President Bush’s management agenda and         Third, the OIG measures progress in meeting
                                          the principles of the Government Performance        those goals. And fourth, the OIG updates and
                                          and Results Act. The OIG’s strategic plan is        revises goals, strategies, and performance mea-
                                          outcome-oriented and focuses on the funda-          sures to continually align its efforts with the
                                          mental mission to increase the efficiency and       changing business needs of the Postal Service.
                                          effectiveness of the Postal Service’s programs           The OIG’s strategic plan identified two
                                          and operations, while eliminating and prevent-      overarching goals for the organization. Under


                                                 Office of Inspector General
                                                FY2002 Goals and Strategies

            GOALS                             STRATEGIES                              GOALS                               STRATEGIES


      The OIG will be the                    Annually identify major           The OIG is an independent                  Maintain a TLC3 values-
                                             management challenges                                                        based organization that
      independent voice that                 and independently develop         entity that maximizes                      attracts, develops, and
                                             work priorities that assist                                                  retains a talented and
      provides its stakeholders              the Postal Service in             resources, leverages cutting-              diverse workforce.
      with timely, accurate, and             addressing major                  edge technology, and
                                             management challenges.
      relevant information                                                     provides a healthy                        Independently manage
                                             Independently provide                                                       and optimize OIG
      that contributes to the                the right information to          organizational culture and                resources, including
                                             the right people at the                                                     leveraging cutting-edge
      success of the Postal Service.         right time.                       environment.                              technology.




                                PAGE 76   GOALS AND STRATEGIES
each goal, the OIG identified two strategies               The FY 2001 performance results were val-
designed to achieve each goal.                        idated by an independent federal agency, which
                                                      found that the OIG accomplished over 86 per-
PERFORMANCE MEASURES AND
                                                      cent of its performance measures. Based upon
RESULTS
                                                      information gained from FY 2001, the OIG
      As a part of the planning process, it is nec-
                                                      updated its performance measures for FY 2002
essary to establish performance measures in
                                                      and increased its challenges. The OIG is also
order to determine how well the OIG is achiev-
                                                      beginning to test some new performance mea-
ing its goals. These measures provide a baseline
                                                      sures in FY 2002 for FY 2003. The OIG will
measure of achievement towards goals, and also
                                                      report FY 2002 results in the next Semiannual
allow the organization the ability to monitor
                                                      Report to Congress.
and track trends over time. It is imperative to
ascertain a benchmark of current performance,         OIG PLANNING PROCESS
resources used, products produced, and results             To ensure long-term success, it is necessary
achieved in order to identify appropriate perfor-     for the Postal Service and the OIG to plan
mance measures that lead to the achievement           appropriately. As part of its planning process,
of OIG strategic goals. To that end, the OIG          the OIG asks key stakeholders, including Postal
continually reviews stakeholder input, data           Service managers, the Postal Rate Commission,
from tracking systems, and cumulative manage-         Congress, Board of Governors, employee
ment experience to ensure that the OIG’s stated       unions, management associations, and major
objectives are on target. OIG goals, strategies,      mailers to identify risk areas and emerging chal-
and performance measures will continue to be          lenges that would benefit from the OIG’s
evaluated and updated as information is gained.       review. Suggestions received are considered dur-
      Each of the performance measures identi-        ing the annual OIG planning process, and
fied for FY 2002 are not intended to measure          become part of the universe of projects for con-
the work of the OIG in its totality. Rather, they     sideration. This creates a unique opportunity for
are a means of focusing on select areas so efforts    the OIG to provide independent analyses and
can be concentrated and substantive improve-          information to assist Postal Service manage-
ment made. The strategies contained in the            ment officials in fulfilling their responsibilities.
plan provide guidance and an overarching                   Projects from the universe are selected on
structure, while allowing for flexibility in          the basis of risk and OIG resources available for
achieving the goals. OIG managers use this            the year. The OIG selects the highest priority
plan to identify and communicate general work         projects for inclusion in the annual perfor-
product milestones, and to monitor efforts            mance plan and the annual audit workload
towards strengthening the OIG’s capability to         plan. As part of the selection process, the OIG
fulfill our mission.                                  considers the project’s potential impact on:
      The OIG continuously monitors its perfor-
                                                      ◆    Postal Service labor and capital resources                       Planning System
mance and seeks ways to improve. By main-
taining objective data on key performance             ◆    Postal-wide operations and goals                                 Interrelationship
areas, the OIG is able to periodically measure        ◆    Public trust
and assess its progress in achieving goals.                                                                   OIG
                                                          This audit workload plan is presented to            POSTAL              OIG
                                                                                                                                                        AUDIT
Annually, the OIG establishes performance                                                                                         ANNUAL
                                                      the Postal Service Governors each year. The             PROJECT             PERFORMANCE           WORKLOAD
measures to emphasize program objectives, pro-                                                                UNIVERSE            PLAN                  PLAN
                                                      plan is adjusted throughout the year as the
mote teamwork, and encourage innovation               OIG’s work reveals new issues or the Postal
throughout the OIG. These measures are linked         Service encounters new challenges. The OIG               AUDITS & AUDIT RELATED PROJECTS
to a team award that is structured to reward          workload planning process is depicted in the             INVESTIGATIONS
commitment to the strategic priorities of the         chart to the right.
                                                                                                                                                 CONSULTING
                                                                                                               OTHER PROJECTS                    QUICK RESPONSE
OIG and to reinforce the importance of provid-                                                                                                   FACT-FINDINGS
                                                                                                               INTERNAL ENABLING FUNCTIONS
ing high-quality, value-added services that con-
tribute to the success of the Postal Service.




                                                                                                             PAGE 77
                                          OIG FY 2002 AUDIT WORKLOAD                              ◆ Strategic alliances
                                          PLAN                                                    ◆ Marketing
                                              In a previous section of this Semiannual            ◆ Financial initiatives
                                          Report, the ten major management issues facing
                                                                                                  ◆ International mail
                                          the Postal Service were discussed. In preparing
                                          the FY 2002 Audit Workload Plan, the OIG            ◆   New products and services
                                          consolidated these issues into four major areas         ◆ Justification and approval
                                          along with the oversight of the Inspection              ◆ Marketing and sales
                                          Service. In FY 2002, the OIG will continue to
                                                                                                  ◆ Return on investment
                                          focus its audit attention on these major areas to
                                          help address critical issues facing the Postal      ◆   Public trust
                                          Service:                                                ◆ Brand integrity
                                          ◆   maintaining customer confidence and                 ◆ Employee integrity
                                              ensuring the viability of the postal
                                              system;                                         Improving the Workplace Climate and
                                          ◆   improving the workplace climate and             Labor Relations
                                              labor relations;                                     Improving the work environment and
                                                                                              labor relations is key to maximizing Postal
                                          ◆   maintaining affordability by controlling
                                                                                              Service operational and financial performance.
                                              costs;
                                                                                              The effectiveness of the Postal Service’s efforts
                                          ◆   leveraging technology to enhance                to communicate with and safeguard employees
                                              productivity; and                               against the threats of bioterrorism could have a
                                          ◆   overseeing the Inspection Service.              major impact on worker morale, productivity,
                                               The following presents each of the five        and the Postal Service’s ability to deliver the
                                          areas and the focus of our audit efforts.           mail effectively. Further, the Postal Service has
                                                                                              historically had significant labor relations issues
                                          Maintaining Customer Confidence and                 that impeded its ability to manage its operations
The OIG conducts internal planning        Ensuring the Viability of the Postal                efficiently. It is important that the OIG’s
meetings. Featured above is a strategic   System                                              involvement in this area be meaningful and
planning team meeting.
                                                The anthrax contamination of the mail last    positive. The OIG focuses primarily on systemic
                                          fall has threatened customer confidence in the      issues and conducts postal-wide reviews. These
                                          Postal Service’s ability to continue to provide     reviews are designed to identify and prevent
                                          safe and secure mail services. A decline in cus-    potential problems that can detract from a
                                          tomer confidence has made it difficult for the      healthy and productive work environment. The
                                          Postal Service to provide universal service at      OIG will focus on the following:
                                          reasonable rates. Customers may seek services
                                                                                              ◆   Workplace climate
                                          other than traditional mail, which would reduce
                                          volume and revenue. The Postal Service must             ◆ Occupational safety and health
                                          maintain customer confidence, develop new               ◆ Conflict prevention and resolution
                                          products and services, and improve customer             ◆ Threat assessment programs
                                          service. The OIG will focus on the following:
                                                                                              ◆   Employee management
                                          ◆   Safety and security of the mail
                                                                                                  ◆ Training and development
                                          ◆   Service performance and customer satis-
                                                                                                  ◆ Succession planning
                                              faction
                                                                                                  ◆ Workforce planning
                                              ◆ Timeliness and reliability of service
                                                                                                  ◆ Performance and compensation
                                              ◆ Measurement systems
                                                                                                  ◆ Diversity
                                              ◆ Postal rates
                                              ◆ Re-engineering
                                          ◆   Core business processes


                               PAGE 78    GOALS AND STRATEGIES
Maintaining Affordability by                         technology to handle more than 660 million
Controlling Costs                                    pieces of mail every day, the Postal Service must
     Increasing productivity while controlling       continue to maintain its competitive position
costs is crucial for the Postal Service to reduce    in the market. OIG efforts will focus on the fol-
anticipated losses. The cost of maintaining and      lowing:
servicing a growing universal delivery network       ◆   Information systems
has escalated while mail volumes have
                                                         ◆ Information infrastructure and
decreased. The Postal Service needs strong con-
                                                           architecture
trols and aggressive efforts to ensure that con-
tracts and programs are managed effectively.             ◆ System performance and integrity
Furthermore, the terrorist attacks have also             ◆ Systems development and
resulted in cost and business impacts that the             implementation
Postal Service had not anticipated. The OIG          ◆   Computer security
will focus on the following:
                                                         ◆ Access
◆   Financial system integrity
                                                         ◆ Data protection
    ◆ Financial statements
                                                         ◆ Data integrity
    ◆ Field installations
                                                     ◆   Developmental
    ◆ Cost and revenue analysis
                                                         ◆ Automation of core functions
    ◆ Treasury-related issues
                                                         ◆ Process re-engineering
◆   Budget
                                                     ◆   eCommerce
    ◆ Planning
                                                         ◆ Business partnerships and joint
    ◆ Execution                                            ventures
    ◆ Systems                                            ◆ Brand integrity
◆   Contracting activities                               ◆ Justification, cost, budgeting, and risk
    ◆ Fair and reasonable contract pricing
                                                     Overseeing the Inspection Service
    ◆ Reasonableness and allowability of
                                                          Legislation requires the OIG to conduct
      incurred costs
                                                     oversight reviews of the Inspection Service in
    ◆ Adequacy of contractor systems                 addition to OIG’s audit and investigative
    ◆ Contract administration                        responsibilities over postal operations. OIG
◆   Facilities and real estate                       efforts in this area will focus on the following:
                                                                                                         The OIG’s mission statement, goals, and
    ◆ Justification, approval, and budgeting         ◆   Public trust                                    strategies set forth in the Five-Year
                                                         ◆ Function and role                             Strategic Plan are the foundation for
    ◆ Construction management
                                                                                                         measuring, reporting, and improving the
◆   Logistics                                            ◆ Operational effectiveness                     OIG’s performance.
    ◆ Transportation systems and operations              ◆ Management controls
    ◆ Material management                                ◆ Internal Affairs
◆   Health care
    ◆ Workers’ compensation program
      administration
    ◆ Provider billing

Leveraging Technology to Enhance
Productivity
      The Postal Service is seeking ways to lever-
age technology to improve its service, produc-
tivity, and profitability. While it depends on


                                                                                                          PAGE 79
           INSPECTION SERVICE

           T
                   he Inspection Service must supplement its reactive capability with proactive strategies to
                   deter and prevent criminal activity. To accomplish this, the Inspection Service has devel-
                   oped five long-term strategic goals and related objectives. The new strategic plan begins
           with three critical imperatives: safety, security, and integrity.




                                Inspection Service
                            FY2002 Goals and Objectives




          1 NDCBU is Neighborhood Delivery and Collection Box Unit; and CBU is Cluster Box Unit


PAGE 80    GOALS AND STRATEGIES
Organizational Dynamics




    DID YOU
    KNOW?
   What are the OIG’s values?
   The OIG’s core values are teamwork,
   leadership, creativity, communication,
   and conceptualization (TLC3).




                                            PAGE 81
                                          This section describes the OIG and the               ◆   Reviews computer security and conducts
                                          Inspection Service organizational vision,                computer intrusion activities to identify
                                          values, culture, and diversity that assist               vulnerabilities in postal systems.
                                          with providing value-added services to the           ◆   Serves as an objective venue for all
                                          Postal Service. In order to differentiate the            Postal Service employees and other
                                          work reported by the OIG and the Inspec-                 stakeholders to report fraud, waste, abuse,
                                          tion Service, the pages containing the work              mismanagement, and other improprieties
                                          reported by the Inspection Service have                  and concerns, with protection from man-
                                          been color-screened.                                     agement retaliation.
                                                                                               ◆   Identifies cost savings and recommends
                                                                                                   improvements for contract and program
                                          OFFICE OF INSPECTOR                                      administration, employee integrity, and
                                                                                                   program efficiency.
                                          GENERAL                                              ◆   Facilitates audit resolution, which pro-
                                                                                                   vides a mechanism for resolving findings
                                          AN INDEPENDENT VOICE
                                                                                                   and recommendations when the OIG


                                          T
                                                  he OIG is an independent agency                  and Postal Service management disagree.
                                                  within the Postal Service and is under
                                                  the general supervision of the nine pres-         To improve Postal Service programs and
                                          identially-appointed Postal Service Governors.       operations, the OIG provides independent and
                                          From 1988 until the establishment of the OIG         objective information, analysis, and recommen-
                                          in 1996, the Chief Postal Inspector performed        dations. The OIG is continuing to work with
                                          dual roles as the Inspector General and Chief        Postal Service management to inform them of
                                          Postal Inspector and reported to the Postmaster      the duties and responsibilities of the OIG and to
                                          General. In January 1997, Karla W. Corcoran          demonstrate how the OIG adds value to Postal
                                          was sworn in as the first independent Inspector      Service processes.
                                          General of the Postal Service. In carrying out its   OIG VISION AND VALUES
                                          responsibilities under the Inspector General              The vision of the OIG is “A Constellation
                                          Act, the OIG:                                        of Talented People Making a Difference.” This
                                          ◆   Provides Congress, the Governors, and            vision reflects the OIG’s mission to shed light
                                              Postal Service management with timely,           on Postal Service challenges and identify oppor-
                                              objective, and complete information and          tunities for improvement by emphasizing five
                                              analysis of Postal Service operations.           fundamental values:
                                          ◆   Conducts audits and investigations of all        ◆   Teamwork—Diverse talents and levels
                                              Postal Service operations and activities,            working cooperatively and collaborative-
                                              including ratemaking, contract adminis-              ly toward producing timely, relevant, and
                                              tration, labor management, accepting                 quality work products and services that
                                              and processing, transportation, delivery,            add value to the Postal Service and the
                                              financial management, development,                   OIG.
                                              information systems, computer intrusion,
                                              electronic commerce, and marketing.              ◆   Leadership—Encouraging each employ-
                                                                                                   ee to be the best they can be regardless of
                                          ◆   Maintains oversight of Inspection Service            position or grade, understanding that all
The values make up the core of the            operations and performs independent                  levels of employees are expected to play a
OIG’s culture and define how it does          reviews of complaints against its employ-            role in developing and directing every
its work.                                     ees.                                                 effort performed.
                                          ◆   Adds value to Postal Service operations,         ◆   Creativity—Cultivating fresh perspec-
                                              contributes to a more efficient, economi-            tives in the development of new process-
                                              cal, and effective organization, and helps           es and techniques that will improve
                                              the Postal Service maintain its integrity            Postal Service and OIG operations.
                                              through independent investigations,
                                              audits, and reviews.                             ◆   Communication—Ensuring cross level
                                                                                                   and cross functional sharing of all infor-


                                PAGE 82   ORGANIZATIONAL DYNAMICS
    mation as well as facilitating honesty,         minorities. The senior management staff is
    openness, respect, and consideration of         composed of approximately 35 percent women
    the contributions and opinions of others.       and 27 percent minorities. Based on September
◆   Conceptualization—Keeping one’s “eye            1999 U.S. Office of Personnel Management
    on the ball” and recognizing interrela-         Federal Civilian Workforce estimates, the OIG
    tionships to accomplish desired results.        workforce has exceeded the percentage of
                                                    minority representation in the federal civilian
OIG CULTURE AND EMPLOYEES                           workforce for all groups, except Native
Enhancing the Work Environment                      Americans. The federal civilian workforce is
                                                    comprised of the executive branch and non-
     The OIG’s culture is defined by the diver-
                                                    Postal Service employees.
sity of its employees, who share the organiza-
                                                         In the past 6 months, the OIG increased its
tion’s core values of teamwork, leadership,
                                                    hiring outreach and recruitment efforts, which
creativity, communication, and conceptualiza-
                                                    contributed toward the OIG reaching and
tion. The OIG is committed to creating and
                                                    exceeding the Federal Civilian Workforce esti-
maintaining a workplace that is enriched by the
                                                    mates for Hispanics. The OIG is committed to
talents, contributions, and full participation of
                                                    achieving the same success with Native
all of its employees and reflects the tremendous
                                                    Americans, and as a result their representation
diversity of the postal community. Diversity is a
                                                    in the OIG’s workforce has increased. Because
tool for achieving the OIG’s mission and
                                                    Bureau of Labor Statistics census data is now
enhancing its organizational effectiveness by
                                                    over 10 years old, and new census civilian labor
using the creative energies of employees who
                                                    force data is not expected to be released until
contribute different approaches, solutions, and
                                                    2003, the OIG is using the more up-to-date
innovations.
                                                    Federal Civilian Workforce data as a compari-
     The OIG workforce is diverse in age, race,
                                                    son.
ethnicity, gender, and background, as well as
education, professional accomplishments, work       ADHERING TO THE HIGHEST
experience, and work style. The OIG workforce       PROFESSIONAL STANDARDS
includes Certified Public Accountants,                   The OIG reports to Congress and the nine
Certified Internal Auditors, Certified Fraud        presidentially-appointed Governors. The                              Comparison of
Examiners, Certified Information Systems            Inspector General is under the “general supervi-                  OIG/Federal Civilian
Auditors, Certified Information Security            sion” of these Governors and is not supervised                         Workforce                         OIG 2002
                                                                                                                                                Federal Workforce 1999
Systems Professionals, Certified Government         by the Postmaster General. This independence
                                                                                                        70%
Audit Professionals, Certified Government           from postal management is crucial to the OIG’s      60%
Financial Managers, and Certified Acquisition       credibility and allows the OIG to objectively       50%
Auditors. Some OIG employees also hold law          conduct audits and investigations of program        40%

enforcement specialty certifications in areas       operations and to report its findings to the        30%
                                                                                                        20%
such as polygraph examinations. In addition,        Governors, Postmaster General, and Congress.
                                                                                                        10%
many OIG employees have undergraduate or            To help respond to the challenges the Postal          0   WHITE       BLACK   HISPANIC   ASIAN    NATIVE AMERICAN
advanced degrees, while other employees are         Service faces, the OIG annually identifies major
continuing to work toward professional and          management issues and independently develops        OIG exceeds minority representation in
                                                                                                        every category, except Native Americans.
academic achievements. OIG employees work           work priorities that assist the Postal Service in
in teams of auditors, evaluators, criminal inves-   addressing these issues.
tigators, lawyers, technicians, and administra-          OIG work is performed in accordance with
tive personnel formerly from federal and state      a variety of professional standards, such as:
government agencies, private industry, non-
                                                    ◆   The General Accounting Office’s Gov-
profit organizations, and the Postal Service.
                                                        ernment Auditing Standards; and
     The OIG continues to carry out an aggres-
sive hiring initiative to staff the organization    ◆   The President’s Council on Integrity and
                                                        Efficiency’s Quality Standards for Inspec-
with highly-skilled employees. As of March 31,
                                                        tions and Quality Standards for Investi-
2002, the OIG had 702 employees, of whom
                                                        gations.
51 percent were women and 48 percent were


                                                                                                          PAGE 83
                                                Each audit is subject to supervisory review      potential problems, so that the OIG may assist
                                           at each stage of the audit process and must meet      the Postal Service in devising effective solu-
                                           established standards for due professional care,      tions. The public can access audit reports, press
                                           quality, and independence. Each report is sub-        releases, and other information regarding the
                                           ject to review by the OIG’s statisticians, attor-     OIG on its website at http://www.uspsoig.gov.
                                           neys, editors, and other experts, and is
                                                                                                 NOTABLE OIG ACHIEVEMENTS
                                           independently referenced by individuals not
                                           associated with the project. Draft reports are        OIG JOINS COUNTERTERRORISM
                                           submitted to Postal Service management, who           TASK FORCE
                                           has the opportunity to provide written com-                As a result of the September 11, 2001, ter-
                                           ments in response to the report’s findings and        rorist attacks on the World Trade Center and
                                           recommendations. These comments are ana-              the Pentagon, evaluators and special agents of
                                           lyzed and incorporated in the final report.           the OIG Computer Intrusion and Technical
                                                In addition, the OIG ensures the highest         Services Team joined the Federal Bureau of
                                           ethical standards by performing full security         Investigation         National      Infrastructure
                                           background investigations of its employees.           Protection Center to assist in the investigation
                                           Nearly all OIG employees are required to pro-         of terrorist activities and attempt to identify any
                                           vide annual financial disclosure statements for       future terrorist activity. The National
                                           review to determine potential conflicts of inter-     Infrastructure Protection Center provides
The OIG’s audit report on trailer damage   est. All employees are required to complete           timely warnings of international threats, com-
was released in written, video, and        ethics training each year and meet the OIG’s          prehensive analyses, and law enforcement
CD-ROM formats.                            established standards for continuing profes-          investigation and response. The unit assisted
                                           sional education.                                     the multi-agency task force in the migration of
                                                Further, the OIG ensures its own compli-         information to a mass medium necessary for
                                           ance with professional, legal, and ethical stan-      conducting cross-relational analysis. The data
                                           dards through established processes. Every three      analysis resulted in the identification of Internet
                                           years, the OIG is selected for a peer review of its   research conducted by the terrorists pertaining
                                           audit processes by another Inspector General          to potential targets and various means to carry
                                           organization. The OIG also has an effective           out terrorist attacks.
                                           quality assurance function that evaluates inter-
                                           nal processes, programs, and work performed.          OIG EMPLOYEE PARTICIPATES IN
                                           Complaints against senior OIG management              INQUIRY INTO ACTIONS OF
                                           officials are handled pursuant to Executive
                                                                                                 MAJOR ACCOUNTING FIRM AND
                                                                                                 ENERGY CONTRACTOR
                                           Order and are investigated by the Integrity
                                                                                                      At the request of a White House agency,
                                           Committee of the President’s Council on
                                                                                                 the OIG’s Director, Computer Intrusion and
                                           Integrity and Efficiency, headed by a high-rank-
                                                                                                 Technical Services Team, was detailed to the
                                           ing official of the Federal Bureau of
                                                                                                 General Services Administration to participate
                                           Investigation.
                                                                                                 in the inquiry into the suspension and possible
                                           PUBLIC RELATIONS AND                                  debarment of a major accounting firm and an
                                           OUTREACH                                              energy contractor. The Office of Management
                                                OIG work to independently investigate            and Budget directed the General Services
                                           and evaluate programs and operations helps            Administration to review federal contracts
                                           maintain America’s confidence in the Postal           awarded to these companies to determine
                                           Service while improving its bottom line. Public       whether acts of misconduct were conducted
                                           reporting of the OIG’s work informs the               that would make them ineligible for future fed-
                                           American public and Congress that its findings        eral contracts. As a result, on April 15, 2002, six
                                           are truly independent; puts on notice those who       businesses and seven individuals were debarred
                                           would defraud the Postal Service that they will       and suspended from conducting business with
                                           face consequences for their actions; reminds the      the Postal Service.
                                           public of the OIG’s existence; and encourages
                                           stakeholders to use the OIG Hotline to report


                                PAGE 84    ORGANIZATIONAL DYNAMICS
OIG INSPECTOR GENERAL                               Investigation security programs and similar pro-
ELECTED AS AT-LARGE MEMBER                          grams at other agencies, the Commission was
OF PCIE                                             able to make recommendations that will hope-
     Inspector General Karla Corcoran was           fully lead to the consolidation of security func-
recently elected by the Executive Council on        tions within a single office at the Federal Bureau
Integrity and Efficiency to be its at-large mem-    of Investigation, and safeguard sensitive infor-
ber to the President’s Council on Integrity and     mation contained on the Federal Bureau of
Efficiency. Members from both councils form an      Investigation computer systems. Additionally,
Executive Council that provides leadership to       recommendations were made to strengthen
the entire federal inspector general community.     computer and document security within the
The Executive Council consists of chairpersons      Bureau.
from six standing President’s Council on            OIG PROVIDES TRAINING AND
Integrity and Efficiency committees and the         SUPPORT TO LAW
Executive Council on Integrity and Efficiency       ENFORCEMENT, INSPECTOR
Vice Chair. Along with the Vice Chair, the          GENERAL COMMUNITIES
Inspector General will provide representation             This reporting period, the OIG continued
for Executive Council on Integrity and              to play a leadership role in the Inspector
Efficiency issues.                                  General and federal law enforcement commu-
ASSISTANT INSPECTOR GENERAL                         nities by providing training and assistance. OIG
SELECTED AS CHAIRMAN OF                             staff provided the following training:
                                                                                                         Vice Chairman S. David Fineman (above
FEDERAL AUDIT EXECUTIVE                             ◆   In November, the OIG’s acting Deputy             right) and Governor John Walsh (above
COUNCIL                                                 General Counsel and Assistant Inspector          left) of the Board of Governors spoke to
     John M. Seeba, Assistant Inspector                 General for Congressional, Oversight,            employees at the OIG’s Fifth Annual
General for Financial Management, was                   and Legal Services made a presentation           Employee Recognition Conference.
appointed Chairman of the Federal Audit                 on “Fraud in Electronic Commerce” to
Executive Council in February 2002. The                 the Annual Conference on Control and
Council, which consists of Assistant Inspectors         Audit of Information Technology, spon-
General for audit or similar positions in federal       sored by the Institute of Internal Audi-
agencies, discusses and coordinates matters             tors and the MIS Training Institute. The
affecting audit policy and operations of com-           conference, which was held in Boston, is
mon interest in the federal audit community.            one of the largest annual audit confer-
                                                        ences relating to information technology.
Council activities include bimonthly meetings,
training sessions, working groups, and an annual    ◆   In January, the OIG’s General Counsel
conference.                                             and Assistant Inspector General for Con-
                                                        gressional, Oversight, and Legal Services,
INVESTIGATOR DETAILED TO                                spoke at a conference of Postal Service
WEBSTER COMMISSION                                      Managing Legal Counsels as part of a
      An OIG investigator was detailed to the           continuing dialogue on how OIG and
Webster Commission for the review of Federal            Postal Service Legal Counsels can better         The National Capital Area Combined
Bureau of Investigation security programs and           coordinate legal issues of mutual interest.      Federal Campaign presented the OIG
its relation to counter-espionage. The goal was                                                          with two awards: the President’s Award
to recommend changes that would limit the           SPECIAL AGENTS RECEIVE                               for having over 75 percent employee
time from “defection to detection.” The             AWARD FROM U.S. ATTORNEY’S                           participation and the Pacesetter Award,
                                                    OFFICE                                               which is given to campaigns that exceed
Commission reviewed the security structures at                                                           the previous year’s results by at least
the Central Intelligence Agency, National                Two OIG special agents received the             3.4 percent.
Security Agency, Department of State,               Award for Public Service from the United
National Reconnaissance Office, Air Force           States Attorney’s Office, Eastern District of
Office of Special Investigations, Drug              New York, for their work on an investigation
Enforcement Administration, Customs Service,        that resulted in the firing of the former manager
and Defense Security Service to develop recom-      of a New York Vehicle Maintenance Facility.
mendations based on “best practices.”               The manager, a 26-year postal employee, pled
      Based on the review of Federal Bureau of      guilty on June 4, 2001, to felony charges of


                                                                                                           PAGE 85
                                          embezzlement and conspiracy to defraud the            for OIG documents under the Freedom of
                                          Postal Service and was sentenced to serve             Information Act.
                                          3 years probation, 6 months home detention,
                                                                                                OIG HOLDS FIFTH ANNUAL
                                          and 300 hours of community service, along with
                                                                                                EMPLOYEE RECOGNITION
                                          paying restitution of $20,000.                        CONFERENCE
                                               The OIG investigation found that the
                                                                                                     The OIG held a three-day employee train-
                                          manager knowingly approved $87,000 in fraud-
                                                                                                ing and recognition conference in Washington,
                                          ulent and inflated invoices from an automobile
                                                                                                DC, during the week of January 8, 2002. The
                                          repair contractor between 1996 and 1999. In
                                                                                                event emphasized the OIG’s core values
                                          exchange for approving the fraudulent invoices,
                                                                                                through training and featured presentations
                                          the manager received free automobile services
                                                                                                from Vice Chairman S. David Fineman and
                                          from the contractor for the manager’s personal
                                                                                                Governor John Walsh from the Board of
                                          vehicles. The costs for the repair to the personal
                                                                                                Governors; Representative Danny K. Davis, a
                                          vehicles were fraudulently included in the cost
                                                                                                member of the House Government Reform
                                          of repairing Postal Service vehicles.
                                                                                                Committee and Chairman of the Postal Caucus;
                                          OIG EXCEEDS GOAL – RAISES                             and Postmaster General John E. Potter.
                                          OVER $120,000 FOR COMBINED                                 Three Postal Service employees, George
                                          FEDERAL CAMPAIGN                                      Butler, Chief Counsel, Employment Law;
Vice Chairman S. David Fineman (left)          The OIG’s Combined Federal Campaign              Azeezaly Jaffer, Vice President, Public Affairs
and Governor John Walsh (right) joined    for 2001 was a tremendous demonstration of the        and Communications; and Robert Otto, Vice
Inspector General Karla Corcoran at       agency’s core values and employees’ generosity.       President, Information Technology, were pre-
the Fifth Annual Employee Recognition
                                          Headquarters staff exceeded its goal and raised       sented with awards for their tremendous support
Conference.
                                          over $90,000. Field office contributions were         to the OIG throughout the year. In addition,
                                          equally impressive, totaling over $30,000 and         numerous OIG teams and individuals were rec-
                                          increasing the OIG’s total amount raised to over      ognized for their exceptional support and dedi-
                                          $120,000. The Headquarters campaign gar-              cation. A special ceremony honored OIG
                                          nered two awards from the National Capital            employees who assisted in the aftermath of the
                                          Area Combined Federal Campaign: the                   September 11, 2001, terrorist attacks and OIG
                                          President’s Award, for the third straight year, for   employees who were called to active military
                                          having over 75 percent employee participation         duty in the wake of the attacks.
                                          and for the fourth straight year, the Pacesetter
                                                                                                CHALLENGES FACING THE OIG
                                          Award. The Pacesetter Award is given to cam-
                                          paigns that exceed the previous year’s results by         As the OIG moves forward in its efforts to
                                          at least 3.4 percent. Both awards were pre-           help the Postal Service enhance its position as
                                          sented at the OIG Fifth Annual Employee               the world’s leading postal service, it must
                                          Recognition Conference by a loaned execu-             address the following challenges, some of which
                                          tive from the Combined Federal Campaign.              have an impact on OIG internal operations,
                                                                                                and others on OIG oversight of the Postal
                                          LEGAL SERVICES SPONSORS                               Service. These include:
At its annual employee recognition con-
ference, the OIG recognized postal
                                          FREEDOM OF INFORMATION ACT
                                          AND PRIVACY ACT TRAINING                              ◆   Balancing the OIG’s Responsibility to
employees for their tremendous sup-                                                                 Report Information with the Postal Ser-
port they provided to the OIG. Pictured        The Legal Services team sponsored
                                                                                                    vice’s Concern About Withholding Pro-
are Deborah Willhite, Senior Vice         Freedom of Information Act and Privacy Act
President for Government Relations and                                                              prietary Data. The OIG carefully weighs
                                          training in January 2002 at OIG Headquarters.             the public’s right of access to information
Public Policy; Azeezaly Jaffer, Vice
President of Public Affairs and
                                          Attorneys from the Department of Justice                  under the Freedom of Information Act
Communication; Vice Chairman S. David     Freedom of Information Act office provided the            against the Postal Service’s commercial
Fineman and Governor John Walsh of        training to members of the Legal Services and             and security needs when considering
the Board of Governors, and Inspector     Congressional and Public Relations teams and              whether to release audit reports and
General Karla Corcoran.                   other OIG personnel. The goal of the training             other information. To accurately assess
                                          was to provide an overview of the acts and                the sensitivity of information, the OIG
                                          strengthen the OIG’s responsiveness to requests           works closely with postal management



                               PAGE 86    ORGANIZATIONAL DYNAMICS
    and its Law Department. The challenge             Despite this clear mandate, the OIG
    of balancing the OIG’s responsibility to          continues to face challenges in exercising
    keep the public informed against the              its oversight responsibility. Among the
    Postal Service’s interest in non-disclosure       most pressing challenges the OIG has
    becomes particularly critical as the Postal       faced in fulfilling this responsibility has
    Service enters into new business ventures         been the Inspection Service questioning
    that might involve commercially sensi-            the OIG’s oversight authority and not
    tive information and prepares to respond          providing unrestricted access to Inspec-
    to the increased threat of terrorism.             tion Service personnel and information.
◆   Educating Stakeholders About the OIG’s            The OIG continues to work with the
    Role. A continuous challenge for the              Inspection Service and senior postal
    OIG is to inform stakeholders about the           management to resolve these challenges,
    OIG’s mission, responsibilities, and audit        and looks forward to establishing an
    and investigative efforts. The OIG has            environment of cooperation when a new
    proactively reached out to stakeholders           Chief Postal Inspector is designated.
    regarding how it prevents and detects         ◆   Protecting OIG Organizational Indepen-
    fraud, waste, abuse, and mismanagement            dence and Authority. The Inspector
    and otherwise adds value to the Postal            General Act clearly establishes the OIG’s
    Service. The OIG will continue its out-           independence from postal management
    reach efforts until all stakeholders              and its unrestricted right of access to per-
    become familiar with the OIG’s roles and          sonnel and records. However, postal
    responsibilities. As part of those efforts,       management has at times had difficulty
    the OIG is conducting outreach by deliv-          understanding this independence and
    ering presentations at postal manage-             authority. Postal management has some-
    ment association and postal union state           times attempted to direct the efforts of
    and national conventions.                         OIG and control OIG access to individu-
◆   Managing OIG Resources to Accommo-                als and records. The OIG will continue
    date Changing Postal Service Priorities.          its outreach and education efforts to
    The current environment of the Postal             assist management in understanding its
    Service challenges the OIG to manage              independence and authority.
    its resources to accommodate and rapidly      ◆   Recruiting and Retaining Talented Staff.
    respond to changing priorities. In addi-          The OIG is committed to attracting and
    tion, the urgency of the anthrax threat,          retaining the best and brightest staff, and
    escalating workers’ compensation costs,           continues to promote a diverse work-
    labor management, and other challenges            force. After the attacks of September 11,
    facing the Postal Service require the             2001, other agencies, such as the Trans-
    OIG to use innovative methods to assist           portation Security Administration, have
    in addressing these challenges in a timely        recruited many OIG employees because
    manner. These methods include using               of their experience and expertise. The
    the latest technology, reallocating staff         OIG is challenged to continue to attract
    and financial resources, and maintaining          and retain talented staff at a time when
    a workforce with diverse talents, back-           these agencies and others are offering
    grounds, and experiences.                         thousands of job opportunities to people
◆   Overseeing Postal Inspection Service              with the same qualifications the OIG is
    Activities. One of the primary reasons an         seeking.
    independent OIG was established within            To respond to the loss of experienced
    the Postal Service was to provide over-           staff, the OIG has continued to carry out
    sight of Inspection Service activities.           an aggressive hiring initiative to main-
                                                                                                     OIG employees received awards for their
    The OIG’s statutory mandate for provid-           tain staffing levels needed to provide
                                                                                                     outstanding contributions and dedication
    ing oversight is comprehensive, and               quality audit and investigative services to    at the Fifth Annual Employee Recognition
    requires that it oversee all Inspection           stakeholders. This has required innova-        Conference.
    Service activities, including the conduct         tive approaches to recruitment and work-
    of internal investigations.                       force management. Some of the initia-



                                                                                                       PAGE 87
              tives undertaken by the OIG include spe-      which could have an adverse impact on
              cialized training and development, access     the actual or perceived independence of
              to the latest investigative and audit man-    the OIG. Because the Inspector Gener-
              agement technology, as well as greater        al is not appointed by the President and
              deployment of staff to field locations.       confirmed by the Senate, Congressional
              Part of the OIG’s recruiting and reten-       oversight of the hiring of the next
              tion efforts include maintaining a healthy    Inspector General may be limited.
              organizational culture and environment        The OIG will embark on a communica-
              through methods such as employee advi-        tion program designed to prepare its
              sory councils, workplace enhancement          employees for the organization’s first
              training, teambuilding, and career change     change in leadership using a wide variety
              opportunities.                                of communications tools, including all-
          ◆   Providing User-Friendly Results to            hands meetings, videoteleconferencing,
              Stakeholders. Keeping stakeholders fully      and the employee newsletter.
              and currently informed is the foundation
              of providing value-added audit and inves-
              tigative services. One of the biggest
              challenges the OIG faces is providing
              timely, understandable, and useful infor-
              mation to its stakeholders. To meet this
              challenge, the OIG will continue to
              explore and use new avenues of commu-
              nicating user-friendly information. One
              such avenue is technology. The OIG’s
              innovative use of video reports provides a
              visual illustration of audit results that
              transcends the limitations of text reports.
              In addition, the OIG website provides
              comprehensive information about the
              OIG’s mission, culture, and work. The
              OIG also created a CD-Rom to inform
              stakeholders and prospective employees
              about the OIG.
          ◆   Preparing for a New Inspector General.
              The Postal Service is the only federal
              agency where the Inspector General
              serves a statutory term. In January 1997,
              the Inspector General was appointed by
              the Postal Service Governors to a 7-year
              term that expires in less than 2 years.
              The Governors will need to identify a
              successor, and the OIG will need to pre-
              pare for a change in leadership to ensure
              a seamless transition.
              In addition, because the Inspector Gen-
              eral’s position is for a 7-year term, some
              highly-qualified candidates, particularly
              senior executives from other agencies,
              may be deterred from seeking the posi-
              tion if they are not eligible to retire at
              the end of the term. This may also
              increase the possibility of postal manage-
              ment being appointed to the position,


PAGE 88   ORGANIZATIONAL DYNAMICS
In March, OIG’s managers received
unique leadership training in Gettysburg,
Pennsylvania, where they studied how
different leadership styles determined
the outcome of the Battle of Gettysburg,
and ultimately, the outcome of the Civil
War.




                                            PAGE 89
                                                                                                upgrading management systems; developing,
                                        INSPECTION SERVICE                                      procuring and deploying electronic security and


                                        T
                                                 he primary law enforcement arm of the          surveillance equipment; publishing policy
                                                 United States Postal Service, The              handbooks and consumer awareness guides and
                                                 Inspection Service, the traditional law        brochures; supplying photography and video
                                        enforcement arm of the Postal Service, is a             services; and facilitating direct communications
                                        highly specialized, professional organization           with Congress and the public.
                                        that performs investigative and security func-                The Office of Inspections operates with a
                                        tions essential to a stable and sound postal sys-       staff of 12 Postal Inspectors, an Inspector in
                                        tem. Through its security and enforcement               Charge, 4 support employees and 33 Postal
                                        functions, the Inspection Service provides              Police Officers, and has a three-fold mission.
                                        assurance to businesses for the safe exchange of        First, it ensures integrity and excellence within
                                        funds and securities through the U.S. mail; to          the Inspection Service by conducting indepen-
                                        postal customers of the “sanctity of the seal” in       dent internal investigations of its employees.
                                        transmitting correspondence and messages; and           Second, the office also oversees the quality and
                                        to postal employees of a safe work environment.         thoroughness of Inspection Service operations
                                              Postal Inspectors are federal law enforce-        by conducting reviews at field divisions and
                                        ment officers who carry firearms, make arrests,         headquarters units. Finally, it protects the safety
                                        execute federal search warrants, and serve sub-         of postal employees and customers by providing
                                        poenas. Postal Inspectors work closely with U.S.        security and preventive services at national
                                        Attorneys, other law enforcement agencies, and          Headquarters.
                                        local prosecutors to investigate postal cases and             The Office of Counsel provides legal
                                        prepare them for citst. There are approximately         advice and services in support of Inspection
                                        1,900 Postal Inspectors stationed throughout            Service investigations, programs and goals, and
                                        the United States who enforce over 200 federal          processes requests for access to Inspection
                                        laws covering investigations of crimes that             Service records. The Counsel’s office is com-
                                        adversely affect or fraudulently use the U.S.           posed of 20 inspector-attorneys and a support
                                        mail and postal system.                                 staff of paralegal specialists, information disclo-
                                              To assist in carrying out its responsibilities,   sure specialists, a labor relations specialist, a pro-
                                        the Inspection Service maintains a security             gram specialist, and an administrative support
                                        force staffed by over 1,400 uniformed Postal            specialist.
                                        Police Officers, who are assigned to critical                 The Inspection Service’s national informa-
                                        postal facilities throughout the country. The           tion technology infrastructure supports over
                                        officers provide perimeter security, escort high-       4,300 users at more than 220 sites nationwide.
                                        value mail shipments, and perform other essen-          Inspection Service offices are linked nationally
                                        tial protective functions.                              via a dedicated frame-relay network, with online
                                              The Inspection Service operates five foren-       connections to the Postal Service, the National
                                        sic crime laboratories, strategically located in        Crime Information Center, the National Law
                                        cities across the country. The laboratories are         Enforcement Telecommunications System, and
                                        staffed with forensic scientists and technical          the Internet.
                                        specialists who assist Postal Inspectors in analyz-           The Inspection Service extends full coop-
                                        ing evidentiary material needed for identifying         eration to all federal, state, and local investiga-
                                        and tracking criminal suspects and in providing         tive and prosecutorial authorities in law
                                        expert testimony for cases brought to trial.            enforcement matters to ensure greater protec-
                                              The Inspection Service’s 900 professional         tion to the public. Working with other agencies,
                                        and technical employees also include program            Postal Inspectors regularly participate in joint
                                        analysts, financial analysts, information tech-         task force cases aimed at curtailing widespread
Inspection Service seal and badges      nology experts, and others who play a vital role        criminal acts of an organized nature.
                                        in supporting the criminal investigation and                  More information on the Inspection
                                        security functions of the Inspection Service.           Service can be found at http://www.usps.com/
                                        They perform a wide variety of tasks, including         postalinspectors.
                                        developing, maintaining and continually


                              PAGE 90   ORGANIZATIONAL DYNAMICS
Organizational Structure




   DID YOU
   KNOW?
  What is the background of the OIG’s staff?
  The OIG staff consists of auditors, criminal
  investigators, evaluators, lawyers, experts,
  technicians, and administrative personnel from
  federal and state government agencies, private
  industry, nonprofit organizations, and the
  Postal Service.




                                            PAGE 91
                  Office of Inspector General
                   Organizational Structure


             ESTIGATION                                                                                                                       AUDITS
            V
          IN           S
Assistant Inspector General                                                                                                      Assistant Inspector General
Investigative Operations                                                                                                         Audit Operations & Follow-up
Deputy AIG for Investigations                                                                                                    AIG for Financial Management
Financial Crimes                                                                                                                 Contracting & Facilities
                                                                                                                                 Financial Field
Health Care Fraud                                                                                                                Financial Statements
Executive Investigations & Retaliation
                                                                                                                                                               AIG for Core Operations
                                                                       ◆ BOSTON ◆ CHICAGO
Computer Intrusion/Forensic
                                                                                                                                                               Accepting & Processing
   & Tech Services                                               LANTA                    ◆
                                                               AT                           DA                                                                 Labor Management
Hotline & Security                                           ◆                                LLA
                                                           N                                     S◆                                                            Transportation & Delivery
Non-Financial Crimes                                     TO
                                                        G                                                                                                      AIG for eBusiness
                                                   IN




   & Corruption




                                                                                                                                     DE
                                                                                                                                                               Consulting & Quick Response
                                                 RL




                                                                                                                                       NV
                                              : A




                                                                                                                                         ER
                                                                                                                                                               Developmental
                                                           Inspector General
                                          CES




                                                                                                                                              ◆
                                                                                                                                                               eCommerce/Marketing




                                                                                                                                               LOS
                                      OFFI




                                                                                                                                                               Information Systems
                                                           Deputy


                                                                                                                                                   ANGEL
                              ◆ FIELD




                                                           Inspector General

                                                                                                                                                        ES ◆
                                                           Quality Assurance & Internal Affairs
                                                           Strategic Planning
                               TAMPA ◆




                                                                                                                                                     OLIS
                                                                                                                                                  NEAP
                                                          Executive Representative
                                                          for Field Liaison
                                                                                                                                               M IN
                                       ST. L




Assistant                                                 Field Offices
                                             OU




                                                                                                                                              ◆




Inspector General
                                          IS




                                                                                                                                          RK




                                                                                                                                                                                             & LEG AL
                                                  ◆




                                                                                                                                         YO




Deputy AIG for                                                                                                                                                 General Counsel &
                                                  SA




                                                      N
                                                                                                                                     EW




                                                          MA                                                                         N
Resources                                                   TE                                                                   ◆                             AIG for Congressional,
                                                                 O                                                           H
Administrative Services
                                                                     ◆
                                                                         RAL                                       BU
                                                                                                                        RG                                     Oversight & Legal
                                                                                                               S
Human Resources
                                                                               EIG H
                                                                                       ◆ P ORTLA N D ◆   PIT T                                                 Services
Internal Quality
Workplace Enhancement
                                                                                                                                                               Deputy AIG for
                                                                                                                                                               Congressional,
                                                                                                                                                                                            HT
Deputy AIG for Technology                                                                                                                                      Oversight & Legal
Communications & Policy                                                                                                                                        Services
Experts & CAATS
                                                                                                                                                                                           IG


                                                                                                                                                               Congressional &
Information Technology
                                                                                                   CO




                                                                                                                                                                  Public Relations
                                                                                                                                                                                     RS




   N                                                                                                        N                                                  Legal Services
                                                                                                                   GR                                                                E
 I




       TE                                                            SS
                                                                                                                                                               Oversight
                                                                                                                                 ESS                                        V
             RN
                      A L B U SI N
                                                             E                                                                                     IO N A              L, O




              PAGE 92         ORGANIZATIONAL STRUCTURE
This section describes the organization of           quarters and its 15 field offices, and all Postal
the OIG and the Inspection Service. In               Service field operations.
order to differentiate between the OIG and           ◆   East Offices: Arlington, New York,
the Inspection Service, the page concerning
the Inspection Service has been color-
                                                         Atlanta, Pittsburgh, Boston, Raleigh,
                                                         Tampa
                                                                                                                    DID YOU
screened.
                                                     ◆   West Offices: Chicago, Los Angeles,                        KNOW?
                                                         Dallas, Minneapolis, St. Louis, Denver,
                                                         Portland, San Mateo
OFFICE OF INSPECTOR                                  Audit Directors, Darrell Benjamin                   Did You Know?
GENERAL                                              (West) and Debbie Pettitt (East) - plan             In FY 2001, the Postal Service
                                                     and coordinate staffing for audits and reviews as   was the 11th largest domestic


T
         he OIG is a unique, nontraditional,
                                                     initiated by Headquarters and responsible for       enterprise and the 33rd largest
         diverse organization that conducts
                                                     overall audit field staff development.              worldwide. The Postal Service is
         audits, evaluations, investigations, and
                                                     Investigative Directors, William Hencken            also the second largest employer in
other core functions identified by the Inspector
                                                     and Carl Puricelli (West) and Gwen
General Act of 1978, as amended.                                                                         America.
                                                     Johnson and Dennis Riley (East) - plan
     Teams that focus on improving Postal
                                                     and direct investigations in coordination with
Service business processes and overall organiza-
                                                     Headquarters staff and responsible for overall
tional achievement demonstrate the OIG’s val-
                                                     investigative field staff development.
ues of teamwork, leadership, communication,
creativity, and conceptualization. The OIG           GENERAL COUNSEL & ASSISTANT
implemented a reorganization of its headquar-        INSPECTOR GENERAL FOR
ters structure in September 2001 to better           CONGRESSIONAL, OVERSIGHT
reflect the Postal Service’s recent reorganiza-      AND LEGAL SERVICES
tion, more clearly define audit and investigative    Kirt West
functional areas and responsibilities, and clarify
                                                     DEPUTY ASSISTANT INSPECTOR
lines of communication, resulting in a more effi-    GENERAL FOR CONGRESSIONAL,
cient and effective organization. The following      OVERSIGHT AND LEGAL
section describes the OIG organizational struc-      SERVICES
ture as of March 31, 2002.                           Gladis Griffith
DEPUTY INSPECTOR GENERAL                             LEGAL SERVICES TEAM
Thomas Coogan                                        Director, Andrea Bernardo (Acting)- pro-
QUALITY ASSURANCE & INTERNAL                         vides legal advice to the Inspector General and
AFFAIRS TEAM                                         OIG staff in all areas of criminal, civil, and
Director, George Davis - conducts internal           administrative law; processes subpoenas; man-
reviews of OIG operations and procedures to          ages ethics program; and reviews existing and
ensure that they are effective and appropriate,      proposed legislation, regulations, and policies
and reviews allegations against OIG employees.       affecting the economy and efficiency of the
                                                     Postal Service.
STRATEGIC PLANNING
                                                     CONGRESSIONAL & PUBLIC
Director, Steve Spratt - incorporates current        RELATIONS TEAM
and future Postal Service changes into OIG
operations, prepares and updates the OIG
                                                     Director, Laura Whitaker - serves as liaison
                                                     and responds to requests from Congress, the
strategic plan, develops and monitors the OIG’s
                                                     Board of Governors, and the media; coordi-
annual performance measures, and completes
                                                     nates Congressional testimony and presenta-
strategic studies as needed.
                                                     tions; and responds to all Freedom of Informa-
EXECUTIVE REPRESENTATIVE FOR FIELD                   tion Act requests.
LIAISON
Colleen McAntee - provides senior-level
communication links between the OIG Head-


                                                                                                          PAGE 93
                                              OVERSIGHT TEAM                                      TRANSPORTATION & DELIVERY TEAM
                                              Director, Cathleen Berrick - provides over-         Director, Joe Oliva - plans and directs audits
                                              sight of Inspection Service functions and oper-     and reviews focusing on delivery, and domestic
                                              ations through audits, inspections, reviews,        and international transportation operations,
                                              monitoring, and coordination, including assess-     specifically addressing economy, efficiency, and
                                              ing criminal investigative programs and opera-      effectiveness of Postal Service fleet operations
                                              tions.                                              and contracts for air, highway, and rail services.

                                              ASSISTANT INSPECTOR GENERAL                         LABOR MANAGEMENT & HEALTH
                                              FOR AUDIT                                           CARE TEAM
                                              Robert Emmons, Acting                               Director, Chris Nicoloff - plans and directs
                                                                                                  audits and reviews focusing on labor relations,
                                              AUDIT OPERATIONS AND FOLLOW-UP
                                              TEAM                                                management, and health care issues within the
                                                                                                  Postal Service to assist in maintaining a healthy
                                              Director, Joyce Hansen - provides support,
                                                                                                  and safe organizational climate for employees
                                              services, and coordination of audit activities;
                                                                                                  and improving operational economy, efficiency,
Inspector General Karla Corcoran (cen-        facilitates the development of audit reporting
                                                                                                  and effectiveness.
ter) visits the OIG’s Eagan, Minnesota        policy and procedures; develops and oversees
field office.                                 implementation of the audit workload plan;          ASSISTANT INSPECTOR GENERAL
                                              manages the closure of significant audit recom-     FOR eBUSINESS
                                              mendations and the audit resolution process;        Ronald Merryman, Acting
                                              and analyzes statistical audit data to accomplish
                                                                                                  DEVELOPMENTAL TEAM
                                              the OIG’s audit mission.
                                                                                                  Director, Tracy LaPoint - plans and directs
                                              ASSISTANT INSPECTOR GENERAL                         audits and reviews of new or redesigned Postal
                                              FOR FINANCIAL MANAGEMENT                            Service systems, programs, and operations that
                                              John Seeba                                          are under development.
                                              FINANCIAL TEAMS                                     eCOMMERCE & MARKETING TEAM
                                              Director, Financial Statements, Bennie              Director, Robert Batta - plans and directs
                                              Cruz and Director, Financial Field,                 audits and reviews of electronic commerce,
                                              Sheila Bruck - plan and direct work in sup-         marketing programs, stamp services, retail oper-
                                              port of the independent public accounting           ations, international business, and support
OIG’s Raleigh, North Carolina field office.   firm’s annual financial audit opinion and con-      operations.
                                              duct other financial-related audits to identify
                                                                                                  INFORMATION SYSTEMS TEAM
                                              areas for improvement.
                                                                                                  Director, Dave Berran - plans and directs
                                              CONTRACTS & FACILITIES TEAM                         audits and reviews of major Postal Service
                                              Director, Lorie Siewert - plans and directs         information systems to determine whether gen-
                                              audits and reviews of purchasing and contract-      eral and application controls are properly estab-
                                              ing activities, as well as all aspects of postal    lished and systems are designed to be secure and
                                              facility repair, renovation, and new construc-      provide accurate data to management.
                                              tion.
                                                                                                  CONSULTING AND QUICK RESPONSE
                                              ASSISTANT INSPECTOR GENERAL                         TEAM
                                              FOR CORE OPERATIONS                                 Director, Kim Stroud - assists Postal Service
                                              Ronald Stith                                        management by identifying best practices for
                                              ACCEPTING & PROCESSING TEAM
                                                                                                  improving Postal Service operations and advis-
                                                                                                  es on critical, time sensitive issues.
                                              Director, Larry Chisley - plans and directs
                                              audits and reviews focusing on the economy,
                                              efficiency, and effectiveness of mail acceptance,
                                              collection, and processing operations, as well as
                                              logistics activities supporting these operations.


                                  PAGE 94     ORGANIZATIONAL STRUCTURE
ASSISTANT INSPECTOR GENERAL                            HOTLINE AND SECURITY TEAM
FOR INVESTIGATIONS                                     Director, Tommy Hampton - operates the
Sam Maxey                                              OIG Hotline, providing a vital link for report-
INVESTIGATIVE OPERATIONS TEAM                          ing fraud, waste, abuse and mismanagement;
                                                       and provides physical and personnel security
Director, Russ Barbee - provides support
                                                       services within the OIG.
and coordination to field and headquarters
investigative programs, facilitates the develop-       ASSISTANT INSPECTOR GENERAL
ment of investigative policy and procedures,           FOR INTERNAL BUSINESS
compiles and analyzes statistical investigative        Wayne Goleski
data and results to accomplish the OIG’s inves-
                                                       DEPUTY ASSISTANT INSPECTOR
tigative mission.
                                                       GENERAL FOR RESOURCES
DEPUTY ASSISTANT INSPECTOR                             Mary Demory
GENERAL FOR INVESTIGATIONS
                                                       HUMAN RESOURCES TEAM
Daniel O’Rourke
                                                       Director, Eufemia Lucero - provides full-
FINANCIAL CRIMES, CONTRACTING &                        service human resource support to the OIG in
FACILITIES TEAM                                        the areas of employee relations, pay and bene-
Director, Anthony Cannarella - identifies              fits, recruitment, retirement, awards, perfor-
and coordinates investigations related to the          mance management, counseling, and training.
expenditure of Postal Service funds, supports
                                                       ADMINISTRATIVE SERVICES TEAM
investigations of purchasing activities and
operations as well as all aspects of postal facili-    Director, Stew Dorris - provides facility, pro-
ty repair, renovation, and new construction.           curement, financial, budget, and other internal
                                                       services necessary to accomplish the OIG’s mis-
HEALTH CARE FRAUD TEAM                                 sion.
Director, Mimi Band - identifies and coor-
                                                       WORKPLACE ENHANCEMENT TEAM
dinates investigations of wrongdoing by med-
ical providers under contract with the Postal          Director, Sharon Solomon - provides work
Service and medical providers that have falsely        life, organizational climate, diversity, Equal
billed the Postal Service for work-related injury      Employment Opportunity, and other work-
claims.                                                place-related services.

NON-FINANCIAL CRIMES &                                 INTERNAL QUALITY TEAM
CORRUPTION TEAM                                        Director, Bob Pemberton - develops pro-
Director, Michael Shiohama - identifies                grams and activities that promote the vision
and coordinates investigations of bribery, kick-       and core values of the OIG—teamwork, lead-
backs, conflict of interest, fraudulent tort claims,   ership, communication, creativity, and concep-
impact card fraud, indemnity claims fraud, and         tualization.
cases involving expenditures and contract fraud
dealing with product substitution.
                                                       DEPUTY ASSISTANT INSPECTOR
COMPUTER INTRUSION AND                                 GENERAL FOR TECHNOLOGY
FORENSIC & TECHNICAL SERVICES                          Donna Edsall
TEAM
                                                       INFORMATION TECHNOLOGY TEAM
Director, Howard Cox - detects and investi-
gates computer hacking and other high-tech-
                                                       Director, David Sidransky - provides com-
                                                       puter operations, telecommunications, agency-
nology crimes involving Postal Service com-
                                                       wide information systems, computer security,
puters and telecommunications systems, and
                                                       and technical support.
provides technical support in such areas as sur-
veillance, evidence recovery and computer
forensics.



                                                                                                         PAGE 95
                                     EXPERTS AND COMPUTER-ASSISTED                               OIG FIELD LOCATIONS
                                     ASSESSMENT TECHNIQUES TEAM
                                                                                                     The OIG Headquarters is located in
                                     This self-directed team provides support to                Rosslyn, Virginia. In addition, the OIG has
                                     OIG in the areas of statistical sampling; quanti-          15 field offices located in San Mateo and Los
                                     tative and statistical methods; computer-assist-           Angeles, California; Denver, Colorado;
                                     ed assessment techniques for data retrieval and            Tampa, Florida; Atlanta, Georgia; Chicago,
                                     analysis; economic forecasting; cost/benefit               Illinois; Boston, Massachusetts; Minneapolis,
                                     analysis; estimation of monetary benefits; and             Minnesota; St. Louis, Missouri; New York,
                                     activity-based costing.                                    New York; Portland, Oregon; Pittsburgh,
                                     COMMUNICATIONS & POLICY TEAM                               Pennsylvania; Raleigh, North Carolina;
                                                                                                Dallas, Texas; and Arlington, Virginia. OIG
                                     Director, Jim Nugent - provides writing, edi-
                                                                                                locations are depicted in the chart below.
                                     torial, video, and graphic services; coordinates
                                     and publishes OIG reports as well as other doc-
                                     uments for Congress, the Governors, and Postal
                                     Service management; and manages develop-
                                     ment of internal policies and procedures.




                                     OIG Locations Nationwide

   PORTLAND, OR PORTLAND, OR
                                                                                          PITTSBURGH,
                                                                                   PITTSBURGH, PA       PA
                                                                                                                BOSTON, MA
                                                  MINNEAPOLIS, MN
                                                                                                             NEW YORK, NY
                                                                                                                               BOSTON, MA
                                              MINNEAPOLIS, MN
                SAN MATEO, CA
                                                                CHICAGO, IL
                                                                                                                             NEW YORK, NY
                                                                                                             ROSSLYN, VA
SAN MATEO, CA
                                          DENVER, CO             CHICAGO,     IL                            RALEIGH, NC
                  LOS ANGELES, CA
                                                           ST. LOUIS, MO                                                     ROSSLYN & ARLINGTON, VA
                                                                                                   ATLANTA, GA
                                     DENVER, CO                                                                            RALEIGH, NC
                                                          ST. LOUIS, MO
  LOS ANGELES, CA                                                                                                 ATLANTA, GA
                                                        DALLAS, TX                                  TAMPA, FL



                                                                                                             NEW OFFICE
                                                       DALLAS, TX                                                  TAMPA, FL




                           PAGE 96   ORGANIZATIONAL STRUCTURE
INSPECTION SERVICE

T
       he national headquarters offices of the                    Support Groups support field offices. The
       Inspection Service are organized into                      Inspection Service’s Executive Committee,
       functional groups that report to Deputy                    which consists of the six Deputy Chief
Chief Inspectors for Investigations, Security &                   Inspectors and the three Inspectors in Charge
Technology, and Professional Standards &                          who report directly to the Chief Postal
Resource Development. The Inspection Service                      Inspector, establishes the direction of the orga-
has 18 field divisions, which report directly to                  nization. The National Leadership Team con-
three Deputy Chief Inspectors for field opera-                    sists of the Deputy Chief Inspectors and all
tions. Five Inspection Service Operations                         Inspectors in Charge.




             Inspection Service Organizational Structure
                                                                                    Chief Postal Inspector
                                                                                        (VACANT)



 Deputy Chief Inspector    Deputy Chief Inspector                Deputy Chief Inspector                      Deputy Chief Inspector    Deputy Chief Inspector   Deputy Chief Inspector
  Security/Technology          Investigations       Professional Standards & Resource Development            Field Operations - East   Field Operations West    Field Operations South
      J. ROWAN               K. NEWMAN                             (VACANT)                                      L. HEATH                  M. AHERN               W. MITCHELL

   Inspector in Charge     Inspector in Charge      Inspector in Charge              Inspector in Charge      Inspectors in Charge      Inspectors in Charge     Inspectors in Charge
 Information Technology     Fraud, Child Expl.,      Strategic Plng. &                Office of Counsel            Mid Atl. -                                         Florida -
                                                                                                                                            Michiana -
     R. COCCIA              Asset Forfeiture &      Management Process                   L. KATZ              A. CRAWFORD                                             J. BELZ
                            Money Laundering
                                                                                                                                        A. DAVIDSON
                                                    L. SPALLANZANI
                            L. MAXWELL                                                                            NY Metro -                 Midwest -               Gulf Coast -
  Inspector in Charge                                                               Inspector in Charge
  Computer Crimes &                                                                 Office of Inspections      J. SKIDMORE               R. BOWDREN                 R. DODD
                                                    Inspector in Charge
      Commerce             Inspector in Charge      Career Development                J. SOMERSET            No. Jersey/Caribbean -          No. Ca -             Rocky Mountain -
      J. EASLEY               Mail Theft &               Division                                                K. BURKE                   A. KIEL                 M. COBOS
                             Violent Crimes         J. STINCHFIELD                   Inspector in Charge          Northeast -              No. Illinois -            Southeast -
                             K. ROBERTS                                                Congressional &
   Inspector in Charge                                                                                            K. JONES                  I. GILLIS              D. COLLINS
                                                     Inspector in Charge                Public Affairs
  International Security                                                                                      Philadelphia Metro -          Northwest -              Southwest -
                           Inspector in Charge           Finance &                    D. MIHALKO
       D. HILL              Revenue & Asset                                                                       I. CARLE               R. MORGAN                 A. HOLMES
                                                        Adm. Services
                             Protection Prog.                                                                 Washington Metro -
                                                        L. VISOS                                                                              So. Ca -
   Inspector in Charge         K. BOND                                                                        A. CLEMMONS                J. FREEMAN
        Security
    T. DENNENY                                           Manager                                                W. Allegheny -
                           Inspector in Charge
                                                      Human Resource                                              J. BIRCH
                            Forensic & Tech.
                                                       Performance
                                Services
                              R. GEFFEN              N. JOHNSON




                                                                                                                                           PAGE 97
PAGE 98   ORGANIZATIONAL STRUCTURE
Appendices




    DID YOU
    KNOW?
 Did You Know?
 Every year the Postal Service adds about
 1.7 million new addresses, the equivalent
 of over 3,000 new carrier routes.




                                             PAGE 99
                                          APPENDIX A

                                          Reports Issued to Postal Management
                                          For the period October 1, 2001, through March 31, 2002

                                          OVERVIEW
                                          Office of Inspector General
                                          The OIG audit teams are aligned to conduct performance and financial audits, evaluations and
                                          other reviews to address the business processes of the Postal Service. Each team issues audit
                                          reports (AR) or management advisory reports (MA) in accordance with the identified needs of
                                          the project.

                                          Inspection Service
                                          The Inspection Service provided Postal-wide attention in selected areas until September 30, 2000,
                                          when all audit functions were transitioned to the OIG.


                                          SUMMARY
                                          The following is a summary by principal area of reports issued to Postal Service management
                                          by the OIG. The following pages list the reports.
Definitions
Questioned Costs - A cost that is                                                                             Recommend                      Potential
                                                                  Number of      Questioned   Unsupported    Funds Put to   Unrecoverable   Additional
unnecessary, unreasonable, unsup-         Principal Area      Reports Issued          Costs        Costs1      Better Use           Costs    Revenue
ported, or an alleged violation of        Performance                    13              $0            $0    $87,349,739              $0          $0
law, regulation, contract, etc.
                                          Financial Management          258     $52,471,979    $3,345,405     $5,414,128              $0     $65,517
Unsupported Costs - A cost that
                                          Technology                     21              $0                           $0              $0          $0
is not supported by adequate docu-
mentation.                                Labor Management                6              $0                   $3,000,000              $0          $0
Funds Put to Better Use - Funds           Oversight                       2              $0                           $0              $0          $0
that could be used more efficiently       Other Significant Review        0              $0                           $0              $0     $65,517
by implementing recommended
actions.                                  GRAND TOTAL                  300     $52,471,979    $3,345,405    $95,763,867               $0    $65,517
Unrecoverable Costs - A cost that
perhaps should not have been
incurred and is not recoverable.
Potential Additional Revenue -
Amounts from revenue generating
functions such as retail sales, rent,
leases, or fees that were underpaid
or not realized.




                                          1 Unsupported Costs are included with the amounts shown as Questioned Costs.
                                          2 Represents potential additional revenue.

                               PAGE 100    APPENDICES
REPORT LISTING
The following is a list of each report grouped by core business processes and enabling functions.

PERFORMANCE
                                                                       Un-    Recommend
Report          Subject Title/                      Questioned   supported   Funds Put to             Issue
Number          Project Type                             Costs       Costs     Better Use   Other      Date
 ACCEPTING AND PROCESSING
AC-AR-02-001       Mail Processing Operations at           $0          $0             $0      $0 10/17/01
                   New Haven Metropolitan
                   Area Post Offices
AC-AR-02-002       Certified Mail Processing               $0          $0             $0      $0    3/21/02
                   Operations
AC-AR-02-003       Postal Service Strategy for             $0          $0             $0      $0    3/29/02
                   Processing At-Risk Mail
                   and Deployment of
                   Irradiation Equipment
AC-AR-02-004       Anthrax Capping Report                  $0          $0             $0      $0    3/29/02
CONSULTING AND QUICK RESPONSE
CQ-MA-02-001       Review of Letter Contract               $0          $0             $0      $0 12/28/01
CQ-MA-02-002       Review of Contracts Associated          $0          $0             $0      $0    3/29/02
                   With Biohazard Threat
MARKETING
EM-AR-02-002       Postal Retail Store Operations          $0          $0             $0      $0    2/28/02
EM-AR-02-007       The Role of Marketing in the            $0          $0             $0      $0    3/29/02
                   Postal Service
TRANSPORTATION
TD-AR-02-001       Critical Factors and Best Practices     $0          $0             $0      $0    2/28/02
                   for Managing External First-Class
                   Mail Measurement System Scores
TD-AR-02-002       Trailer Lease Justification             $0          $0    $82,349,739      $0    3/29/02
TD-MA-02-001       Transportation of Anthrax               $0          $0             $0      $0    2/14/02
                   Contaminated Mail
TD-MA-02-002       Trailer Damage                          $0          $0     $5,000,000      $0    3/22/02
TD-VR-02-001       Trailer Damage Video Report             $0          $0             $0      $0    3/29/02
PERFORMANCE TOTALS                                         $0          $0 $ 87,349,739        $0


FINANCIAL MANAGEMENT
FINANCIAL OPINION
FT-AR-02-005       Postal Service Board of Governors'      $0          $0             $0      $0    1/24/02
                   Travel and Miscellaneous Expenses
                   for Fiscal Year 2001
FT-AR-02-006       Postal Service Officers' Travel and     $0          $0             $0      $0    1/24/02
                   Representation Expenses for
                   Fiscal Year 2001
FT-AR-02-007       Fiscal Year 2001 Postal Service         $0          $0             $0      $0    1/29/02
                   Financial Statement Audit -
                   Washington, D.C., Headquarters
FT-AR-02-008       Fiscal Year 2001 Postal Service         $0          $0             $0      $0    2/12/02
                   Financial Statement Audit -
                   Eagan Information Technology and
                   Accounting Service Center
FT-AR-02-009       Fiscal Year 2001 Postal Service         $0          $0             $0      $0    2/12/02
                   Financial Statement Audit -
                   San Mateo Information Technology
                   and Accounting Service Center



                                                                                                              PAGE 101
                                                                               Un-    Recommend
           Report          Subject Title/                   Questioned   supported   Funds Put to             Issue
           Number          Project Type                          Costs       Costs     Better Use   Other      Date
           FT-AR-02-010    Fiscal Year 2001 Postal Service      $0             $0             $0      $0    2/12/02
                           Financial Statement Audit -
                           St. Louis Information Technology and
                           Accounting Service Center
           FT-AR-02-011    Payments to Contract         $1,350,236             $0             $0      $0     3/6/02
                           Stations and Vendors
                           Providing Goods and Services
           FT-MA-02-001    Fiscal Year 2001                        $0          $0             $0      $0    10/9/01
                           Financial Statement Audit -
                           San Francisco International
                           Records Unit
           FT-MA-02-002    Mississippi State Tax Computation       $0          $0             $0      $0 12/10/01
           FISCAL YEAR 2001 FINANCIAL INSTALLATION AUDITS
           FF-AR-02-001    Lynchburg Business Mail Entry Unit      $0          $0             $0      $0 10/24/01
           FF-AR-02-002    Augusta Business Mail Entry Unit        $0          $0             $0      $0 10/24/01
           FF-AR-02-003    Auburn Business Mail Entry Unit         $0          $0             $0      $0 10/24/01
           FF-AR-02-004    Glen Rock Post Office                   $0          $0             $0      $0 11/15/01
           FF-AR-02-005    Lakehurst Post Office                   $0          $0             $0      $0 11/15/01
           FF-AR-02-006    Amelia Post Office                      $0          $0             $0      $0 11/13/01
           FF-AR-02-007    Altoona Business Mail Entry Unit        $0          $0             $0      $0 10/24/01
           FF-AR-02-008    Hartford Business Mail Entry Unit       $0          $0             $0      $0 10/24/01
           FF-AR-02-009    Mount Prospect Business Mail            $0          $0             $0      $0 11/23/01
                           Entry Unit
           FF-AR-02-010    City of Industry Business Mail          $0          $0             $0      $0 10/24/01
                           Entry Unit
           FF-AR-02-011    Refugio Post Office                     $0          $0             $0      $0 11/28/01
           FF-AR-02-012    Mattoon Main Post Office                $0          $0             $0      $0 10/24/01
           FF-AR-02-013    Santa Rosa Main Post Office             $0          $0             $0      $0 10/24/01
           FF-AR-02-014    Long Beach District                     $0          $0             $0      $0    10/5/01
                           Accounting Office
           FF-AR-02-015    Montebello Post Office                  $0          $0             $0      $0    10/5/01
           FF-AR-02-016    South Hackensack Business               $0          $0             $0      $0 11/23/01
                           Mail Entry Unit
           FF-AR-02-017    Houston Stamp Distribution Office       $0          $0             $0      $0 10/17/01
           FF-AR-02-018    Newark Stamp Distribution Office        $0          $0             $0      $0 11/15/01
           FF-AR-02-019    South Florida Business Mail Entry Unit $0           $0             $0      $0 10/17/01
           FF-AR-02-020    Columbus Business Mail Entry Unit       $0          $0             $0      $0 10/26/01
           FF-AR-02-021    Baton Rouge Stamp Distribution Office $0            $0             $0      $0 10/31/01
           FF-AR-02-022    Phelps Post Office                      $0          $0             $0      $0 11/15/01
           FF-AR-02-023    Highland Post Office                    $0          $0             $0      $0 11/15/01
           FF-AR-02-024    Rutland Post Office                     $0          $0             $0      $0 10/17/01
           FF-AR-02-025    Woodstock Business Mail Entry Unit      $0          $0             $0      $0 11/15/01
           FF-AR-02-026    Lilburn Post Office                     $0          $0             $0      $0 10/23/01
           FF-AR-02-027    Torrington Post Office                  $0          $0             $0      $0 11/15/01
           FF-AR-02-028    Worthington Post Office                 $0          $0             $0      $0 11/13/01
           FF-AR-02-029    Torrance Business Mail Entry Unit       $0          $0             $0      $0 10/26/01
           FF-AR-02-030    El Paso Stamp Distribution Office       $0          $0             $0      $0 10/31/01
           FF-AR-02-031    Corona Main Post Office                 $0          $0             $0      $0 11/21/01
           FF-AR-02-032    Mendocino Post Office                   $0          $0             $0      $0 10/26/01
           FF-AR-02-033    Mercersburg Post Office                 $0          $0             $0      $0 11/13/01
           FF-AR-02-034    Montgomery Business Mail Entry Unit $0              $0             $0      $0    11/8/01
           FF-AR-02-035    Portland Business Mail Entry Unit       $0          $0             $0      $0 10/26/01
           FF-AR-02-036    Lawrenceville Post Office               $0          $0             $0      $0 10/31/01
PAGE 102   APPENDICES
                                                                    Un-    Recommend
Report         Subject Title/                    Questioned   supported   Funds Put to             Issue
Number         Project Type                           Costs       Costs     Better Use   Other      Date
FF-AR-02-037   Seattle Stamp Distribution Office        $0          $0             $0      $0 10/26/01
FF-AR-02-038   Cedartown Post Office                    $0          $0             $0      $0 11/20/01
FF-AR-02-039   Clearfield Post Office                   $0          $0             $0      $0 11/20/01
FF-AR-02-040   Columbus, Georgia Business               $0          $0             $0      $0 11/20/01
               Mail Entry Unit
FF-AR-02-041   Fairburn Post Office                     $0          $0             $0      $0 11/20/01
FF-AR-02-042   Hot Springs Post Office                  $0          $0             $0      $0 11/20/01
FF-AR-02-043   Flintstone Post Office                   $0          $0             $0      $0 11/20/01
FF-AR-02-044   Alabama District Accounting Office       $0          $0             $0      $0 10/26/01
FF-AR-02-045   Honolulu Business Mail Entry Unit        $0          $0             $0      $0 10/26/01
FF-AR-02-046   Portland District Accounting Office      $0          $0             $0      $0 10/26/01
FF-AR-02-047   Las Vegas District Accounting Office     $0          $0             $0      $0 10/26/01
FF-AR-02-048   Hegins Post Office                       $0          $0             $0      $0    11/9/01
FF-AR-02-049   Forest Post Office                       $0          $0             $0      $0 11/20/01
FF-AR-02-050   Garden City Post Office                  $0          $0             $0      $0    11/9/01
FF-AR-02-051   Shamrock Post Office                     $0          $0             $0      $0 11/29/01
FF-AR-02-052   Main Street Station                      $0          $0             $0      $0    11/2/01
FF-AR-02-053   Bay St. Louis Downtown                   $0          $0             $0      $0    11/8/01
               Contract Postal Unit
FF-AR-02-054   Jamaica Business Mail Entry Unit         $0          $0             $0      $0 11/21/01
FF-AR-02-055   Long Pond Post Office                    $0          $0             $0      $0 11/20/01
FF-AR-02-056   Mohawk Post Office                       $0          $0             $0      $0 11/20/01
FF-AR-02-057   Saginaw Post Office                      $0          $0             $0      $0 11/20/01
FF-AR-02-058   Frederick Post Office                    $0          $0             $0      $0 11/20/01
FF-AR-02-059   Hayward Main Office                      $0          $0             $0      $0 11/20/01
FF-AR-02-060   Helen Post Office                        $0          $0             $0      $0 11/20/01
FF-AR-02-061   Lancaster Business Mail Entry Unit       $0          $0             $0      $0    11/8/01
FF-AR-02-062   Toledo Business Mail Entry Unit          $0          $0             $0      $0 11/20/01
FF-AR-02-063   Versailles Business Mail Entry Unit      $0          $0             $0      $0 11/20/01
FF-AR-02-064   Baltimore Business Mail Entry Unit       $0          $0             $0      $0 11/16/01
FF-AR-02-065   Pewaukee Business Mail Entry Unit        $0          $0             $0      $0 11/29/01
FF-AR-02-067   Rockford Post Office                     $0          $0             $0      $0    12/4/01
FF-AR-02-068   Bloomfield Post Office                   $0          $0             $0      $0 11/29/01
FF-AR-02-069   Portland Stamp Distribution Office       $0          $0             $0      $0    12/4/01
FF-AR-02-070   Temple Post Office                       $0          $0             $0      $0 11/29/01
FF-AR-02-071   Land Park Post Office                    $0          $0             $0      $0 12/28/01
FF-AR-02-072   Plymouth Post Office                     $0          $0             $0      $0 11/30/01
FF-AR-02-073   Central New Jersey District              $0          $0             $0      $0 11/28/01
               Accounting Office
FF-AR-02-074   Sioux City Post Office                   $0          $0             $0      $0 11/30/01
FF-AR-02-075   Dakotas District Accounting Office       $0          $0             $0      $0 11/28/01
FF-AR-02-076   Alexandria Post Office                   $0          $0             $0      $0 11/28/01
FF-AR-02-077   Witch Duck Station                       $0          $0             $0      $0 11/28/01
FF-AR-02-078   Phoenix District Accounting Office       $0          $0             $0      $0 11/28/01
FF-AR-02-079   Flushing Stamp Distribution Office       $0          $0             $0      $0 12/13/01
FF-AR-02-080   Boston Business Mail Entry Unit          $0          $0             $0      $0 12/20/01
FF-AR-02-081   Northside Station                        $0          $0             $0      $0 12/19/01
FF-AR-02-082   Lutherville Business Mail Entry Unit     $0          $0             $0      $0 12/13/01
FF-AR-02-083   Buffalo Business Mail Entry Unit         $0          $0             $0      $0 12/13/01
FF-AR-02-084   Atlanta Business Mail Entry Unit         $0          $0             $0      $0    12/4/01
FF-AR-02-085   Bartlett Station                         $0          $0             $0      $0 12/18/01
                                                                                                           PAGE 103
                                                                             Un-    Recommend
           Report         Subject Title/                  Questioned   supported   Funds Put to             Issue
           Number         Project Type                         Costs       Costs     Better Use   Other      Date
           FF-AR-02-086   Hamburg Business Mail Entry Unit       $0          $0             $0      $0 12/19/01
           FF-AR-02-087   Des Plaines Business Mail Entry Unit   $0          $0             $0      $0    12/7/01
           FF-AR-02-088   Richmond Business Mail Entry Unit      $0          $0             $0      $0    12/6/01
           FF-AR-02-089   Baltimore District Accounting Office   $0          $0             $0      $0    12/7/01
           FF-AR-02-090   New York District Accounting Office    $0          $0             $0      $0 12/11/01
           FF-AR-02-091   Bend Post Office                       $0          $0             $0      $0 12/19/01
           FF-AR-02-092   Jacksonville Business Mail Entry Unit $0           $0             $0      $0 12/18/01
           FF-AR-02-093   Jonesboro Post Office                  $0          $0             $0      $0 12/18/01
           FF-AR-02-094   St. Paul Main Window Unit              $0          $0             $0      $0 12/18/01
           FF-AR-02-095   Onalaska Post Office                   $0          $0             $0      $0 12/26/01
           FF-AR-02-096   Austin Downtown Station                $0          $0             $0      $0 12/18/01
           FF-AR-02-097   Loveland Post Office                   $0          $0             $0      $0 12/19/01
           FF-AR-02-098   Detroit Business Mail Entry Unit       $0          $0             $0      $0 12/26/01
           FF-AR-02-099   Salem Post Office                      $0          $0             $0      $0 12/18/01
           FF-AR-02-100   Las Vegas Business Mail Entry Unit     $0          $0             $0      $0 12/14/01
           FF-AR-02-101   Compton Business Mail Entry Unit       $0          $0             $0      $0 12/19/01
           FF-AR-02-102   Alameda Station                        $0          $0             $0      $0 12/19/01
           FF-AR-02-103   Waldorf Post Office                    $0          $0             $0      $0 12/14/01
           FF-AR-02-104   Keene Post Office                      $0          $0             $0      $0 12/20/01
           FF-AR-02-105   Farmingdale Business Mail Entry Unit $0            $0             $0      $0 12/19/01
           FF-AR-02-106   Cleveland Business Mail Entry Unit     $0          $0             $0      $0 12/21/01
           FF-AR-02-107   Camden Business Mail Entry Unit        $0          $0             $0      $0 12/19/01
           FF-AR-02-108   Gateway District Accounting Office     $0          $0             $0      $0 12/17/01
           FF-AR-02-109   Rhinehart Post Office                  $0          $0             $0      $0 12/19/01
           FF-AR-02-110   Brooklyn Business Mail Entry Unit      $0          $0             $0      $0 12/19/01
           FF-AR-02-111   Mt. Pleasant Business Mail Entry Unit $0           $0             $0      $0 12/20/01
           FF-AR-02-112   Farley Station                         $0          $0             $0      $0 12/26/01
           FF-AR-02-113   Santa Monica Main Post Office          $0          $0             $0      $0 12/21/01
           FF-AR-02-114   Bellmawr Business Mail Entry Unit      $0          $0             $0      $0 12/19/01
           FF-AR-02-115   Franklin Park Business Mail Entry Unit $0          $0             $0      $0 12/19/01
           FF-AR-02-116   Hazelwood Business Mail Entry Unit     $0          $0             $0      $0 12/19/01
           FF-AR-02-117   Clinton Post Office                    $0          $0             $0      $0 12/19/01
           FF-AR-02-118   Kent Business Mail Entry Unit          $0          $0             $0      $0 12/26/01
           FF-AR-02-119   Wilkes Barre Business Mail Entry Unit $0           $0             $0      $0 12/21/01
           FF-AR-02-120   Philadelphia Business Mail Entry Unit $0           $0             $0      $0 12/19/01
           FF-AR-02-121   Shawnee Mission Business               $0          $0             $0      $0 12/26/01
                          Mail Entry Unit
           FF-AR-02-122   Van Nuys Post Office                   $0          $0             $0      $0 12/21/01
           FF-AR-02-123   University Station                     $0          $0             $0      $0 12/21/01
           FF-AR-02-124   Indianapolis Business Mail Entry Unit $0           $0             $0      $0 12/21/01
           FF-AR-02-125   Millbury Post Office                   $0          $0             $0      $0 12/21/01
           FF-AR-02-126   Harrisburg Business Mail Entry Unit    $0          $0             $0      $0     1/7/02
           FF-AR-02-127   Newark Business Mail Entry Unit        $0          $0             $0      $0 12/21/01
           FF-AR-02-128   Merrifield Business Mail Entry Unit    $0          $0             $0      $0 12/26/01
           FF-AR-02-129   Vacaville-Cernon Station               $0          $0             $0      $0 12/21/01
           FF-AR-02-130   Detroit Stamp Distribution Office      $0          $0             $0      $0 12/26/01
           FF-AR-02-131   Austin Capitol Station                 $0          $0             $0      $0 12/26/01
           FF-AR-02-132   Eaton Rapids Post Office               $0          $0             $0      $0 12/26/01
           FF-AR-02-133   Fayetteville Main Post Office          $0          $0             $0      $0 12/26/01
           FF-AR-02-134   Dallas Main Post Office                $0          $0             $0      $0 12/26/01

PAGE 104   APPENDICES
                                                                 Un-    Recommend
Report         Subject Title/                 Questioned   supported   Funds Put to            Issue
Number         Project Type                        Costs       Costs     Better Use   Other     Date
FF-AR-02-135   New London Business Mail              $0          $0             $0      $0 12/31/01
               Entry Unit
FF-AR-02-136   Terre Haute Business Mail             $0          $0             $0      $0 12/26/01
               Entry Unit
FF-AR-02-137   Victory Center Post Office            $0          $0             $0      $0 12/21/01
FF-AR-02-138   Brookfield Business Mail Entry Unit   $0          $0             $0      $0 12/26/01
FF-AR-02-139   Grand Prairie Business Mail           $0          $0             $0      $0 12/26/01
               Entry Unit
FF-AR-02-140   Telluride Post Office                 $0          $0             $0      $0    1/3/02
FF-AR-02-141   Salt Lake City Business Mail          $0          $0             $0      $0 12/26/01
               Entry Unit
FF-AR-02-142   Dubuque Post Office                   $0          $0             $0      $0 12/28/01
FF-AR-02-143   Norwich Business Mail Entry Unit      $0          $0             $0      $0 12/28/01
FF-AR-02-144   Phoenix Business Mail Entry Unit      $0          $0             $0      $0 12/26/01
FF-AR-02-145   Reading Business Mail Entry Unit      $0          $0             $0      $0 12/26/01
FF-AR-02-146   Worth Post Office                     $0          $0             $0      $0 12/26/01
FF-AR-02-147   Rancho Cordova Business Mail          $0          $0             $0      $0 12/26/01
               Entry Unit
FF-AR-02-148   Baraboo Business Mail Entry Unit      $0          $0             $0      $0 12/31/01
FF-AR-02-149   Market Square Station                 $0          $0             $0      $0 12/31/01
FF-AR-02-150   Maryland Heights Branch Post Office $0            $0             $0      $0    1/4/02
FF-AR-02-151   Milwaukee Business Mail Entry Unit    $0          $0             $0      $0    1/3/02
FF-AR-02-152   Stevensville Business Mail Entry Unit $0          $0             $0      $0 12/28/01
FF-AR-02-153   Woburn Main Post Office               $0          $0             $0      $0 12/31/01
FF-AR-02-154   Cincinnati Business Mail Entry Unit   $0          $0             $0      $0 12/28/01
FF-AR-02-155   Kenosha Business Mail Entry Unit      $0          $0             $0      $0 12/28/01
FF-AR-02-156   Kalamazoo Post Office                 $0          $0             $0      $0 12/28/01
FF-AR-02-157   Warsaw Business Mail Entry Unit       $0          $0             $0      $0 12/28/01
FF-AR-02-158   Pioneer Post Office                   $0          $0             $0      $0 12/28/01
FF-AR-02-159   San Juan Stamp Distribution Office    $0          $0             $0      $0 12/31/01
FF-AR-02-160   Katy Post Office                      $0          $0             $0      $0 12/31/01
FF-AR-02-161   Austin General Mail Facility          $0          $0             $0      $0 12/31/01
               Window Service
FF-AR-02-162   Springfield Post Office               $0          $0             $0      $0 12/31/01
FF-AR-02-163   Tucson Downtown Station               $0          $0             $0      $0 12/31/01
FF-AR-02-164   Northland District Accounting Office $0           $0             $0      $0 12/31/01
FF-AR-02-165   Little Ferry Post Office              $0          $0             $0      $0 12/31/01
FF-AR-02-166   Los Angeles Main Office Station       $0          $0             $0      $0 12/31/01
FF-AR-02-167   Maple Grove Business Mail             $0          $0             $0      $0    1/3/02
               Entry Unit
FF-AR-02-168   Liberty Post Office                   $0          $0             $0      $0    1/3/02
FF-AR-02-169   Springfield District Accounting Office $0         $0             $0      $0 12/31/01
FF-AR-02-170   Charleston Business Mail Entry Unit   $0          $0             $0      $0 12/31/01
FF-AR-02-171   Western New York District             $0          $0             $0      $0    1/4/02
               Accounting Office
FF-AR-02-172   Minneapolis Main Post Office          $0          $0             $0      $0    1/7/02
FF-AR-02-173   Eastern Heights Station               $0          $0             $0      $0    1/7/02
FF-AR-02-174   Scottsdale Air Park Station           $0          $0             $0      $0    1/4/02
FF-AR-02-175   Effingham Business Mail Entry Unit    $0          $0             $0      $0    1/7/02
FF-AR-02-176   Van Nuys Business Mail Entry Unit     $0          $0             $0      $0    1/7/02
FF-AR-02-177   Spartanburg Business Mail Entry Unit $0           $0             $0      $0    1/7/02
FF-AR-02-178   Indianapolis Airport Mail Center      $0          $0             $0      $0    1/7/02
                                                                                                       PAGE 105
                                                                                   Un-    Recommend
           Report          Subject Title/                       Questioned   supported   Funds Put to                Issue
           Number          Project Type                              Costs       Costs     Better Use      Other      Date
           FF-AR-02-179    Folsom Business Mail Entry Unit             $0          $0             $0         $0     1/7/02
           FF-AR-02-180    Kansas City Business Mail Entry Unit $0                 $0             $0         $0    1/22/02
           FF-AR-02-181    Union City Business Mail Entry Unit $0                  $0             $0         $0     1/7/02
           FF-AR-02-182    Cleveland District Accounting Office $0                 $0             $0         $0     1/4/02
           FF-AR-02-183    San Antonio Air Mail Facility               $0          $0             $0         $0     1/4/02
           FF-AR-02-184    Seeley Lake Post Office                     $0          $0             $0         $0    1/11/02
           FF-AR-02-185    Collingswood Post Office                    $0          $0             $0         $0    1/11/02
           FF-AR-02-186    Mora Business Mail Entry Unit               $0          $0             $0         $0    1/23/02
           FF-AR-02-187    Saddle Creek Station                        $0          $0             $0         $0    1/23/02
           FF-AR-02-188    Southport Branch                            $0          $0             $0         $0    1/22/02
           FF-AR-02-189    Lincoln Post Office                         $0          $0             $0         $0    1/25/02
           FF-AR-02-190    South Hackensack Post Office                $0          $0             $0         $0    1/28/02
           FF-AR-02-191    Ellisburg Station                           $0          $0             $0         $0    1/28/02
           FF-AR-02-192    Julius Melcher Station                      $0          $0             $0         $0    1/24/02
           FF-AR-02-193    Miami Business Mail Entry Unit              $0          $0             $0         $0    1/25/02
           FF-AR-02-194    Allen Post Office                           $0          $0             $0         $0    1/25/02
           FF-AR-02-195    Dallas Business Mail Entry Unit             $0          $0             $0         $0    1/28/02
           FF-AR-02-196    Wilmington Post Office                      $0          $0             $0         $0    1/31/02
           FF-AR-02-197    Chicago Stockyard Station                   $0          $0             $0         $0    1/28/02
           FF-AR-02-198    JA Farley Business Mail Entry Unit          $0          $0             $0         $0    1/29/02
           FF-AR-02-199    Houston Business Mail Entry Unit            $0          $0             $0         $0    1/29/02
           FF-AR-02-200    Houston District Accounting Office          $0          $0             $0         $0    1/29/02
           FF-AR-02-201    Skokie Post Office                          $0          $0             $0         $0    1/30/02
           FF-AR-02-202    Dallas District Accounting Office           $0          $0             $0    $65,5172   1/30/02
           FF-AR-02-203    Suburban Business Mail Entry Unit           $0          $0             $0         $0    1/31/02
           FF-AR-02-204    Durham Business Mail Entry Unit             $0          $0             $0         $0    1/31/02
           FISCAL YEAR 2002 FINANCIAL INSTALLATION AUDITS
           FF-AR-02-205    Bellmawr Business Mail Entry Unit           $0          $0             $0         $0     3/8/02
           FF-AR-02-207    Lynchburg Business Mail Entry Unit          $0          $0             $0         $0    3/28/02
           FINANCIAL RELATED
           FF-AR-02-206    Audit of Statistical Tests for the          $0          $0             $0         $0    3/27/02
                           Fiscal Year 2001 Cost and
                           Revenue Analysis
           FT-AR-02-001    Shared Real Estate Appreciation             $0          $0             $0         $0 10/17/01
                           Loan Program
           FT-AR-02-002    Internal Controls Over International        $0          $0             $0         $0    11/6/01
                           Merchant Purchase Authorization
                           Card Purchases
           FT-AR-02-003    Withholdings and Contributions for          $0          $0             $0         $0    11/6/01
                           Health Benefits, Life Insurance,
                           Retirement, and Employee
                           Headcount Data
           FT-AR-02-004    Postal Service Efforts to Address  $0                   $0             $0         $0 12/19/01
                           Data Quality Study Recommendations
           FT-MA-02-003    Review of the Accuracy of the               $0          $0             $0         $0    3/29/02
                           Estimated Costs to Address
                           Terrorist Attack Damages and
                           the Anthrax Threat
           CONTRACTING
           CA-AR-02-001    Follow-up Audit of                          $0          $0             $0         $0    1/11/02
                           Salt Lake City District
                           2002 Winter Olympic Plan
           CA-AR-02-002    Disposal of Excess Real Property            $0          $0    $4,100,000          $0    1/28/02
           CA-CAR-02-001   Pre-Award Accounting System Survey $0                   $0             $0         $0    10/5/01

PAGE 106   APPENDICES
                                                                     Un-    Recommend
Report          Subject Title/                   Questioned    supported   Funds Put to             Issue
Number          Project Type                          Costs        Costs     Better Use   Other      Date
CA-CAR-02-002   Evaluation of Proposal                  $0           $0             $0      $0    10/5/01
CA-CAR-02-003   Audit of Common Area                    $0           $0             $0      $0    10/5/01
                Maintenance Costs
CA-CAR-02-004   Evaluation of Termination      $17,359,760           $0             $0      $0 10/12/01
                for Convenience Proposal
CA-CAR-02-005   Evaluation of Firm Fixed       $11,314,673           $0             $0      $0 10/23/01
                Price Proposal
CA-CAR-02-006   Evaluation of Firm Fixed         $405,052            $0             $0      $0 10/23/01
                Price Proposal
CA-CAR-02-007   Evaluation of Proposal                  $0           $0             $0      $0 11/15/01
CA-CAR-02-008   Evaluation of Proposal                  $0           $0             $0      $0 11/21/01
CA-CAR-02-009   Evaluation of Proposal          $4,681,606           $0             $0      $0 12/14/01
CA-CAR-02-010   Evaluation of Proposal                  $0           $0             $0      $0 12/14/01
CA-CAR-02-011   Pre-award Accounting                    $0           $0             $0      $0 12/17/01
                System Survey
CA-CAR-02-012   Evaluation of Proposal         $13,573,494    $3,040,998            $0      $0     1/7/02
CA-CAR-02-013   Evaluation of Incurred Costs            $0           $0             $0      $0    1/11/02
CA-CAR-02-014   Evaluation of Purchases                 $0           $0             $0      $0    1/23/02
                Existence and Consumption
                of Materials
CA-CAR-02-015   Pre-award Accounting                    $0           $0             $0      $0    1/30/02
                System Survey
CA-CAR-02-016   Evaluation of Final                     $0           $0             $0      $0     2/5/02
                Voucher and Cumulative
                Claimed Costs
CA-CAR-02-017   Evaluation of Final                     $0           $0             $0      $0     2/5/02
                Voucher and Cumulative
                Claimed Costs
CA-CAR-02-018   Review of Purchasing System             $0           $0             $0      $0     2/6/02
CA-CAR-02-019   Evaluation of Video                     $0           $0    $1,314,128       $0     2/6/02
                Teleconferencing Utilization
CA-CAR-02-020   Evaluation of Final                     $0           $0             $0      $0     2/8/02
                Voucher and Cumulative
                Claimed Costs
CA-CAR-02-021   Evaluation of Accounting                $0           $0             $0      $0     2/8/02
                and Billing Systems
CA-CAR-02-022   Evaluation of Final Voucher             $0           $0             $0      $0    2/13/02
                and Cumulative Claimed Costs
CA-CAR-02-023   Evaluation of Incurred Costs            $0           $0             $0      $0    2/14/02
CA-CAR-02-024   Evaluation of Final Voucher             $0           $0             $0      $0    2/14/02
                and Cumulative Claimed Costs
CA-CAR-02-025   Evaluation of Final Voucher             $0           $0             $0      $0    2/14/02
                and Claimed Costs
CA-CAR-02-026   Evaluation of Incurred Costs     $491,590            $0             $0      $0    2/28/02
CA-CAR-02-027   Evaluation of Partial           $2,217,874           $0             $0      $0     3/6/02
                Termination for
                Convenience Proposal
CA-CAR-02-028   Evaluation of Incurred Costs            $0           $0             $0      $0     3/8/02
CA-CAR-02-029   Evaluation of Equitable                 $0           $0             $0      $0     3/8/02
                Price Adjustment Claim
CA-CAR-02-030   Post Award Audit of Cost                $0           $0             $0      $0     3/8/02
                or Pricing Data
CA-CAR-02-031   Evaluation of Proposals          $305,480      $304,407             $0      $0    3/19/02
CA-CAR-02-032   Evaluation of Equitable          $772,214            $0             $0      $0    3/25/02
                Price Adjustment Claim

                                                                                                            PAGE 107
                                                                                    Un-    Recommend
           Report          Subject Title/                      Questioned     supported   Funds Put to                 Issue
           Number          Project Type                             Costs         Costs     Better Use       Other      Date
           CA-CAR-02-033   Evaluation of Incurred Costs               $0            $0             $0          $0    3/25/02
           CA-CAR-02-034   Evaluation of Incurred Costs               $0            $0             $0          $0    3/26/02
           CA-CAR-02-035   Evaluation of Firm                         $0            $0             $0          $0    3/26/02
                           Fixed Price Proposal
           CA-MA-02-001    Postal Service Supplier                    $0            $0             $0          $0    3/28/02
                           Demographics
           FINANCIAL MANAGEMENT TOTALS                    $52,471,979       $3,345,405    $5,414,128     $ 65,517


           TECHNOLOGY
           INFORMATION SYSTEMS
           IS-AR-02-001    System Controls                            $0            $0             $0          $0    11/8/01
           IS-AR-02-002    Network Security                           $0            $0             $0          $0 12/19/01
           IS-AR-02-003    Review of the Facilities                   $0            $0             $0          $0    2/22/02
                           Management System for Windows
           IS-AR-02-004    Server Security Testing                    $0            $0             $0          $0    3/22/02
           IS-AR-02-005    Security Testing of Routers                $0            $0             $0          $0    3/22/02
                           and Switches
           IS-AR-02-006    Security Testing of Load Balancers         $0            $0             $0          $0    3/28/02
           IS-CS-02-001    Server Security Testing                    $0            $0             $0          $0 11/15/01
           IS-CS-02-002    Security Testing of Switches               $0            $0             $0          $0    1/11/02
           IS-CS-02-003    Network Security                           $0            $0             $0          $0     2/4/02
           DEVELOPMENTAL
           DA-AR-02-001    Performance of Automated                   $0            $0             $0          $0    2/22/02
                           Flat Sorting Machine 100
           DA-AR-02-002    Processing Operations                      $0            $0             $0          $0    3/22/02
                           Information System
           DA-AR-02-003    Assessment of Anthrax                      $0            $0             $0          $0    3/22/02
                           Sterilization Solution
           DA-AR-02-004    Postal Service Test, Evaluation,           $0            $0             $0          $0    3/27/02
                           and Quality
           ELECTRONIC COMMERCE
           EM-AR-02-001    Protection of Internet                     $0            $0             $0          $0 10/18/01
                           Users' Information -
                           PostmarkAmerica.com
                           Technical Issues
           EM-AR-02-003    Facilities Database Application            $0            $0             $0          $0    3/26/02
                           Development Review
           EM-AR-02-004    eServices Registration Application         $0            $0             $0          $0    3/26/02
                           Development Review
           EM-AR-02-005    Vehicle Operations                         $0            $0             $0          $0    3/26/02
                           Information System
           EM-AR-02-006    Delivery Unit Notification System          $0            $0             $0          $0    3/27/02
                           Application Development Review
           EM-AR-02-008    PostmarkAmerica.Com Financial              $0            $0             $0          $0    3/29/02
                           and Management Issues
           EM-AR-02-009    Public-Key Infrastructure                  $0            $0             $0          $0    3/29/02
                           Initiatives by the Postal Service
           EM-MA-02-001    Postal Service's Biohazard                 $0            $0             $0          $0    3/29/02
                           Command Center Efforts and
                           Contingency Planning
           TECHNOLOGY TOTALS                                        $ 0           $ 0            $ 0         $ 0




PAGE 108   APPENDICES
LABOR MANAGEMENT
                                                                     Un-    Recommend
Report          Subject Title/                  Questioned     supported   Funds Put to               Issue
Number          Project Type                         Costs         Costs     Better Use     Other      Date
 WORKPLACE ENVIRONMENT REVIEWS
LH-MA-02-002   Review of the Postal Service's          $0            $0             $0         $0   2/28/02
               Communication of Employee
               Safety and Health Issues at
               Selected Locations
LH-MA-02-003   Review of Decontamination               $0            $0             $0         $0   3/12/02
               Activities at the Pentagon Station
LH-MA-02-004   Fact-Finding Review of Actions          $0            $0             $0         $0   3/22/02
               and Decisions by Postal Service
               Management at the South Jersey
               Processing and Distribution Center
HUMAN RESOURCE PROCESSES
LH-AR-02-001   Use of the Economic Value Added     $0                $0             $0         $0   12/5/01
               Concept in the Pay for
               Performance Program (second report)
LH-AR-02-002   Sexual Harassment Prevention            $0            $0             $0         $0   3/22/02
               Measures in the Maine District
LH-MA-02-001   Follow-up Report on Postal Service's    $0            $0    $3,000,000          $0 11/29/01
               Oversight of Other Paid
               Administrative Leave Use
LABOR MANAGEMENT TOTALS                               $0            $ 0 $ 3,000,000           $0


OVERSIGHT
OV-AR-02-001   Postal Inspection Service               $0            $0             $0         $0 12/20/01
               Executive Awards Program
OV-AR-02-002   Postal Inspection Service               $0            $0             $0         $0   3/25/02
               Evidence Handling Program
OVERSIGHT TOTALS                                      $0            $0             $0         $0

OIG TOTALS                                  $52,471,979      $3,345,405 $95,763,867       $65,517




                                                                                                              PAGE 109
           APPENDIX B

           Findings of Questioned Costs
           For the period October 1, 2001, through March 31, 2002
           OFFICE OF INSPECTOR GENERAL
                                                                                                                 Unsupported
                                                                                                                        Costs
                                                                                                        Total      Included In
                                                                                  Number of       Questioned      Questioned
           Description                                                              Reports            Costs            Costs
           Reports for which no management decision was made at                         43    $267,297,217      $13,753,137
           the beginning of the reporting period
           Reports requiring management decision that were issued                       10     $52,471,979       $3,345,405
           during the reporting period

           TOTALS                                                                       53    $319,769,196      $17,098,542

           Reports for which a management decision was made                             24    $214,499,363       $8,664,227
           during the reporting period (i+ii)*
           (i) Dollar Value of disallowed cost                                                $195,029,709        $379,646
           (ii) Dollar value of cost not disallowed                                            $19,469,654       $8,284,581

           Reports for which no management decision was made by the                     29    $105,269,833       $8,434,315
           end of the reporting period. Negotiations are ongoing.

           Reports for which no management decision was made within                      9      $1,339,917         $250,471
           six months of issuance (See Note 1 for a list of individual reports)

           Reports for which no management decision was made within                     12     $66,131,228       $7,879,437
           one year of issuance (See Note 2 for a list of individual reports)


           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                                 Unsupported
                                                                                                                        Costs
                                                                                                      Total        Included In
                         Report/                                                                Questioned        Questioned
           Report Date   Case Number                Project Type                                     Costs              Costs
           4/19/01       CA-CAR-01-038              Contract Audit                                $17,554           $17,554
           6/7/01        CA-CAR-01-046              Contract Audit                                  2,505
           7/17/01       CA-AR-01-003               Price Adjustment for Year-A-Round Corp.         5,891
           7/18/01       CA-CAR-01-057              Contract Audit                                136,651
           7/19/01       CA-CAR-01-059              Contract Audit                                198,450           198,450
           7/27/01       CA-CAR-01-060              Contract Audit                                 46,931
           9/14/01       CA-CAR-01-066              Contract Audit                                  1,131
           9/14/01       CA-CAR-01-068              Contract Audit                                222,509             34,467
           9/14/01       CA-CAR-01-069              Contract Audit                                708,295

           TOTAL                                                                              $1,339,917          $250,471




           * The reported amounts disallowed reflect the results of a negotiated settlement, signed on September 26,
             2001, between the Postal Service and a contractor. The settlement resolved $543.2 million of amounts in
             dispute and all other potential claims. Included herein is $163.1 million disallowed related to this action.
PAGE 110    APPENDICES
Note 2 – Reports for which no management decision was made within one year of issuance:

                                                                                        Unsupported
                                                                                               Costs
                                                                                Total     Included In
              Report/                                                     Questioned     Questioned
Report Date   Case Number         Project Type                                 Costs           Costs
2/29/00       TR-AR-00-005        Southwest Area Expenditures for Extra    $848,000               $0
                                  Highway Trips Using Leased Equipment
3/31/00       CA-MA-00-001        Contract Audit Practices                    92,214               0
5/17/00       CA-AR-00-001        United States Postal Service Warranty      977,598               0
                                  Repair of Tractors
8/25/00       CA-CAR-00-047       Contract Audit                             917,345             0
9/20/00       CA-CAR-00-055       Contract Audit                          10,565,117             0
9/29/00       CA-CAR-00-064       Contract Audit                          17,726,329             0
12/14/00      CA-CAR-01-013       Contract Audit                           7,264,275       361,997
2/27/01       CA-AR-01-001        Contracting Practices for the Services  12,500,000             0
                                  Procurement of Mail Transport Equipment

OIG TOTALS                                                             $50,890,878       $361,997

                                                                                        Unsupported
                                                                                               Costs
                                                                                Total     Included In
              Report/                                                     Questioned     Questioned
Report Date   Case Number         Project Type                                 Costs           Costs
12/7/98       184-1243166-AC(1)   Contract Audit                         $7,087,038     $5,841,563
11/17/99      181-1294644-AC(1)   Contract Audit                          7,063,747      1,675,877
4/3/00        184-1126310-AC(1)   Contract Audit                            514,696              0
8/30/00       184-1210121-AC(1)   Contract Audit                            574,869              0

INSPECTION SERVICE TOTALS                                              $15,240,350      $7,517,440


TOTAL                                                                  $66,131,228      $7,879,437




                                                                                                        PAGE 111
           APPENDIX C

           Recommendations That Funds
           Be Put to Better Use
           For the period October 1, 2001, through March 31, 2002
           OFFICE OF INSPECTOR GENERAL AND INSPECTION SERVICE
                                                                                           Number of
           Description                                                                       Reports         Dollar Value
           Reports for which no management decision was
           made at the beginning of the reporting period                                           7       $48,541,290
           Reports requiring management decision that were
           issued during the reporting period                                                      5       $95,763,867

           TOTALS                                                                                 12      $144,305,157

           Reports for which a management decision was made during the report period               4       $13,414,128
           (i) Value of recommendations agreed to by management                                            $12,477,640
           (ii) Value of recommendations that were not agreed to by management                               $936,488
           Reports for which no management decision was made by the end of the reporting period    8      $130,891,029
           Reports for which no management decision was made within six months of issuance
           (See Note 1 for a list of individual reports)                                           2       $17,967,342
           Reports for which no management decision was made within one year of issuance
           (See Note 2 for a list of individual reports)                                           5       $30,573,948


           Note 1 – Reports for which no management decision was made within six months of issuance:
                                                                                                             Recommend
           Report        Report/                                                                            Funds Put to
           Date          Case Number         Project Type                                                     Better Use
           07/27/01      TR-AR-01-004        Bulk Fuel Purchase Plan                                       $15,918,035
           08/22/01      OV-AR-01-003        Service Investigations Conducted by the Inspection Service      2,049,307

           TOTAL                                                                                           $17,967,342


           Note 2 – Reports for which no management decision was made within one year of issuance:

                                                                                                             Recommend
           Report        Report/                                                                            Funds Put to
           Date          Case Number                Project Type                                              Better Use
           10/30/98      181-1252372-AC(1)          Contract Audit                                          $1,710,680
           11/24/98      181-1254410-AC(1)          Contract Audit                                             137,480
           12/18/98      181-1253441-AC(1)          Contract Audit                                             145,532
           8/27/99       181-1294162-AC(1)          Contract Audit                                             122,861
           9/29/00       MK-AR-00-001               Review of Stamp Fulfillment Services Performance        28,457,395

           TOTAL                                                                                           $30,573,948




PAGE 112    APPENDICES
APPENDIX D

Reports with Significant
Recommendations Pending Corrective
Actions
For the period October 1, 2001, through March 31, 2002
This appendix lists reports containing significant recommendations pending final action by man-
agement. On October 1, 2000, the OIG assumed complete responsibility for tracking corrective
actions for all significant recommendations. As a result, the OIG performed an extensive analysis
to identify reports with significant recommendations requiring confirmation that appropriate cor-
rective actions have been taken. This appendix identifies those reports. The OIG is working
with Postal Service management to validate whether appropriate corrective actions have been
taken, and if so, remove them from this appendix.

OFFICE OF INSPECTOR GENERAL
Report             Report                                                       Number of            Issue
Number             Title                                                        Recommendations       Date
LM-MA-99-002       Effectiveness of USPS Grievance Arbitration Procedures            2             3/26/99
LR-MA-99-001       Grievance Arbitration Management Information                      2             3/26/99
QR-MA-99-001       USPS Management of Personal Services Contract                     1             3/29/99
FA-AR-99-001       Review of Atlanta Olympics Facility Improvement Plan              2             3/31/99
OV-MA-99-001       Review of USPS Personnel Security Program -
                   Process for Updating Sensitive Clearances                         1             3/31/99
DA-AR-99-002       Point of Service ONE                                              1             9/20/99
TR-AR-99-001       Compliance Opportunities for Savings in Rail Detention Costs      3             9/23/99
FR-AR-99-010       Fiscal Year 1999 Information Systems Controls, St. Louis          2             9/28/99
                   Information Service Center
FR-AR-99-008       Fiscal Year 1999 Information Systems Controls, San Mateo          1             9/29/99
                   Information Service Center
TR-AR-99-003       Emergency and Extra Trip Expenditures on Highway Routes           6             9/29/99
CA-AR-99-001       Opportunities to Increase Savings Through the                     2             9/30/99
                   Use of Natural Gas Vehicles
CA-AR-99-002       Removal of Underground Storage Tanks                              1             9/30/99
CA-AR-99-003       Responsibilities of Contracting Officers’ Representatives         9             9/30/99
FR-LA-00-001       Sure Money Electronic Funds Transfer Service Expansion            2            11/23/99
                   to Dominican Republic
RG-MA-00-001       Cost and Benefit of the International Collection Program          1             12/3/99
FR-MA-00-001       Budget Cost Containment Measures                                  1            12/22/99
TR-AR-00-003       Commercial Air Carrier: Performance Measurement System            2             1/31/00
TR-AR-00-004       Commercial Air Carrier Performance:                               2             1/31/00
                   Effectiveness of Pay for Performance
TR-AR-00-005       Southwest Area Expenditures for Extra Highway Trips               3             2/29/00
                   Using Leased Equipment
DS-AR-00-001       External First-Class Mail Measurement System                      2             3/27/00
TR-AR-00-006       Commercial Air Carrier Performance:                               2             3/27/00
                   Payment for Ground Handling Services
CA-MA-00-001       Contract Audit Practices                                          7             3/31/00
DA-AR-00-002       Tray Management System                                            5             3/31/00
RG-AR-00-002       Breast Cancer Research Stamp Program Review-Phase II              1             3/31/00
FR-FA-00-010(R)    Relocation Benefits for Postal Service Officers - Revised         1              5/2/00
FA-AR-00-002       Salt Lake City District 2002 Winter Olympic Plans                 2             6/30/00
TR-AR-00-008       Extra Trip Expenditures at the Dallas Bulk Mail Center            1             6/30/00
OV-MA-00-002       Review of Postal Inspection Service Forensic Scientist Salaries   1             7/17/00
TR-AR-00-009       Extra Trips Expenditures within the Mid-Atlantic Area             4             7/27/00

                                                                                                             PAGE 113
           Report            Report                                                     Number of             Issue
           Number            Title                                                      Recommendations        Date
           FA-MA-00-007      Review of the Managed Network Services Contract &              1              7/28/00
                             Billing Process of the Contractor
           FT-FA-00-001      Money Order Blank Stock and Imprinters                         6              8/25/00
           FT-AR-00-002      International List Service Transmittal of                      1              8/29/00
                             Funds Bank Secrecy Act Compliance
           EC-AR-00-001      USPS eBillPay Security and Privacy Issues                      1               9/5/00
           DA-AR-00-004      Information Platform Planning                                  1              9/28/00
           AC-AR-00-004      Use of Robotic Tray Handling System                            2              9/29/00
           AC-AR-00-005      International Mail Processing                                  2              9/29/00
           DA-AR-00-006      Point of Service ONE Phase II                                  2              9/29/00
           IS-AR-00-004      State of Computer Security in the Postal Service               4              9/29/00
           LB-AR-00-003      Evaluation of Postal Service Criteria for Workplace Violence   3              9/29/00
                             Prevention and Response Program
           MK-AR-00-001      Review of Stamp Fulfillment Services Performance Measures      1              9/29/00
           OV-AR-00-005      Review of the United States Postal Inspection Service          2              9/29/00
                             Budget Process
           TR-AR-00-011      Dedicated Christmas Air Network - Phase 1                      3              9/29/00
           MK-AR-00-002(R)   Management Controls over the                                   3             10/31/00
                             Sales Force Augmentation Program - Revised
           TR-AR-01-001      Adequacy of Mail Transport Equipment Service Center            4             10/31/00
                             Network Internal Controls
           CA-MA-01-001      Privacy Data Contained in Contract Files                       2             12/24/00
           DE-AR-01-002      Review of the Revised Rules Governing Commercial Mail          3               4/9/01
                             Receiving Agencies
           DA-AR-01-004      Postal One! Business Customer Support Systems Phase One        5               4/9/01
           IS-AR-01-001      Network Security                                               5              4/18/01
           CA-AR-01-002      Responsibilities of Contracting Officers’ Representatives      9              4/30/01
           OV-AR-01-002      Inspection Service Support to Postal Service Threat            2              4/30/01
                             Assessment Teams
           TR-AR-01-003      Mail Transport Equipment Service Center-Decision Analysis      1               5/4/01
                             Report Performance and Financial Benefits
           LC-AR-01-007      Alleged Nepotism in the Arkansas District                      5               6/4/01
           LB-AR-01-019      Management Practices in the Alaska District                    2               6/7/01
           TR-LA-01-001      Review of a Transportation Agreement                           2              6/26/01
           TR-AR-01-004      Bulk Fuel Purchase Plan                                        5              7/27/01
           TR-MA-01-002      Excise Taxes and Third Party Ground Handling Costs under a     1               8/8/01
                             Transportation Agreement
           CA-AR-01-004      Consulting and Audit Services Contracts                        1              8/14/01
           OV-AR-01-003      Service Investigations Conducted by the Inspection Service     2              8/22/01
           IS-AR-01-002      Fiscal Year 2001 Information System Controls                   5              8/23/01
           IS-AR-01-003      Review of Security Access Controls                             8              8/29/01
           CA-AR-01-005      Supplier Diversity Program for Supplies, Services, and         9               9/6/01
                             Equipment Purchases
           DA-AR-01-005      Decision Analysis Report Process                               10             9/27/01
           DA-AR-01-006      Singulate, Scan, Induction Unit                                5              9/27/01
           FA-AR-01-002      National Refrigerant Management Plan                            3             9/27/01
           TR-MA-01-003      Security Risks Associated with a Transportation Agreement       1             9/27/01
           EC-AR-01-003      USPS.com Management and Security Issues                        3              9/28/01
           MK-AR-01-002      Stamp Printing Quantities                                       4             9/28/01
           OV-AR-01-004      Postal Inspection Service Fraud Against Government Program      1             9/28/01
           TR-AR-01-006      Manual Payments on Rail Transportation Contracts                3             9/28/01
           FT-AR-02-001      Shared Real Estate Appreciation Loan Program                    5            10/17/01
           EM-AR-02-001      Protection of Internet Users' Information -                     4            10/18/01
                             PostmarkAmerica.com Technical Issues
           IS-AR-02-001      Fiscal Year 2001 Information System Controls                   8              11/8/01
           LH-AR-02-001      Use of the Economic Value Added Concept in the                 1              12/5/01
                             Pay for Performance Program
           IS-AR-02-002      Network Security Vulnerabilities                               3             12/19/01

PAGE 114   APPENDICES
Report               Report                                                     Number of             Issue
Number               Title                                                      Recommendations        Date
OV-AR-02-001         Postal Inspection Service Executive Awards Program             1             12/20/01
CQ-MA-02-001         Review of Letter Contract                                      1             12/28/01
IS-CS-02-002         Security Testing of Switches                                   2              1/11/02
FT-AR-02-008         Fiscal Year 2001 Postal Service Financial Statement Audit -    2              2/12/02
                     Eagan Information Technology and Accounting Service Center
FT-AR-02-009         Fiscal Year 2001 Postal Service Financial Statement Audit -    4              2/12/02
                     San Mateo Information Technology and
                     Accounting Service Center
FT-AR-02-010         Fiscal Year 2001 Postal Service Financial Statement Audit -    3              2/12/02
                     St. Louis Information Technology and
                     Accounting Service Center
IS-AR-02-003         Review of the Facilities Management System for Windows         4              2/22/02
EM-AR-02-002         Postal Retail Store Operations                                 2              2/28/02
FT-AR-02-011         Payments to Contract Stations and                              6               3/6/02
                     Vendors Providing Goods and Services
LH-MA-02-003         Review of Decontamination Activities at the Pentagon Station   2              3/12/02
AC-AR-02-002         Certified Mail Processing Operations                           3              3/21/02
IS-AR-02-005         Security Testing of Routers and Switches                       2              3/22/02
LH-AR-02-002         Sexual Harassment Prevention Measures in the Maine District    4              3/22/02
DA-AR-02-004         Postal Service Test, Evaluation, and Quality                   3              3/27/02
CA-MA-02-001         Postal Service Supplier Demographics                           1              3/28/02
TD-AR-02-002         Trailer Lease Justification                                    2              3/29/02
EM-AR-02-007         The Role of Marketing in the Postal Service                    3              3/29/02
EM-AR-02-008         PostmarkAmerica.com Financial and Management Issues            6              3/29/02
EM-AR-02-009         Public-Key Infrastructure Initiatives by the Postal Service    2              3/29/02
CQ-MA-02-002         Review of Contracts Associated with Biohazard Threat           5              3/29/02
AC-AR-02-003         Postal Service Strategy for Processing At-Risk Mail and        2              3/29/02
                     Deployment of Irradiation Equipment

INSPECTION SERVICE
Report               Report                                                     Number of            Issue
Number               Title                                                      Recommendations       Date
0061-1263973-RI(1) Meter Security Review, Pitney Bowes, Inc.,                       1              5/21/99
                   Lanham, Maryland
0188-1300042-AF(2) Financial Audit, Stamp Distribution Office,                      1              8/24/00
                   Seattle District, Seattle, Washington
0061-1305144-RI(1) Meter Security Review, Ascom Hasler Mailing                      2              3/16/00
                   Systems, Inc., Houston, Texas
0038-1292495-PA(2) Delivery Automation                                              1               2/8/00
0044-1248530-PA(2) Small Post Office Cost Study                                     2               8/1/00
0022-1244541-PA(1) Priority Mail                                                    1              3/17/99
0052-1290664-PA(3) City Carrier and Flat Sorting Machine (FSM)                      2              10/5/99
                   Operations Cost Savings, San Antonio, Texas
0061-1296645-RI(1) Meter Security Review, Postage Technology                        6               7/5/00
                   Management, Lisle, Illinois
0016-1298651-AF(2) Financial Audit, Westchester District Accounting Unit,           1             11/23/99
                   White Plains, New York
0016-1298678-AF(2) Financial Audit, San Francisco District Accounting Office,       2              8/29/00
                   San Francisco, California




                                                                                                              PAGE 115
           CONTRACT AUDITS
           Report Number        Contractor       Report Date
           0181-1165940-AC(1)   Contract Audit     5/20/95
           0181-1237199-AC(1)   Contract Audit     4/14/98
           0181-1252372-AC(1)   Contract Audit    10/30/98
           0181-1253441-AC(1)   Contract Audit    12/18/98
           0181-1254410-AC(1)   Contract Audit    11/24/98
           0181-1294162-AC(1)   Contract Audit     8/27/99
           0181-1294644-AC(1)   Contract Audit    11/17/99
           0184-1126310-AC(1)   Contract Audit      4/3/00
           0184-1210121-AC(1)   Contract Audit     8/30/00
           0184-1243166-AC(1)   Contract Audit     12/7/98




PAGE 116   APPENDICES
APPENDIX E

Investigative Statistics1
For the period October 1, 2001, through March 31, 2002
OFFICE OF INSPECTOR GENERAL
Statistics
Arrests                                                                     28
Information/Indictments                                                     27
Convictions2/Pretrial Diversions                                            22
Suspension/Debarments
  Individuals                                                                6
  Firms                                                                      3
Administrative Actions
  Postal Service Employee                                                   4
  Contractor                                                                9
Fines, Restitution, and Recoveries                                 $9,049,8123
Cost Avoidance, Savings and Fund Put To Better Use                $12,683,478

INSPECTION SERVICE4
Statistics
Arrests                                                                    223
Convictions2/Pretrial Diversions                                           217
Administrative Actions
  Postal Service Employee                                                 460
  Contractor                                                               18
Fines, Restitution, and Recoveries                                   $566,540
Collections                                                           $25,749
Civil Actions                                                               5




1 Statistics include joint investigations with other federal law enforcement agencies.
2 Convictions reported in this time frame may be related to arrests made in prior reporting periods.
3 Total amount includes $8,461,044 in restitution from a joint OIG and Inspection Service investigation.
  This amount is not reported by the Inspection Service.
4 Statistics for investigations related to fraud, waste, abuse, and mismanagement of Postal Service
  operations.
                                                                                                           PAGE 117
           APPENDIX F

           Summary of Postal Service Investigative
           Activities Under 39 USC § 3013
           For the period October 1, 2001, through March 31, 2002

           The Postal Reorganization Act requires the Postmaster General to furnish information on the
           investigative activities of the Postal Service on a semiannual basis. With passage of the
           Deceptive Mail Prevention and Enforcement Act in December 1999, the Postal Service's report-
           ing obligations were changed.
           The Act requires the Postal Service to submit its semiannual report to the OIG rather than to
           the Board of Governors, expands the subject matter that must be reported, and revises the report-
           ing schedule to coordinate with the OIG Semiannual Report to Congress. The information in
           the report includes actions directed at combating crimes involving the mail; costs and expendi-
           tures devoted to Postal Service investigative activities; use of subpoena power; and any additional
           information the OIG may require.

           ABUSE OF MAILS
           The Postal Service reports to the Office of Inspector General information related to investigative
           activities designed to protect the public against unscrupulous mailers perpetrating fraudulent
           schemes. The following information summarizes the administrative and judicial actions initiated
           and resolved during the reporting period. These actions include the issuance of cease and desist
           orders directed to mailers, actions to intercept payments fraudulently induced, and orders seeking
           to intercept fraudulent mailings.

           INSPECTION SERVICE
                                                                               False            Cease &
           Type of                              Complaints     Consent         Representation   Desist
           Scheme                               Filed          Agreements      Orders           Orders
           Advance fee                            1              1                                1
           Boiler rooms/Telemarketing             5              1               1
           Contest/Sweepstakes                    1
           Employment                                            4               2                4
           Fraud - Internet Schemes               2              2                                2
           Medical                                1              1               1                1
           Merchandise:
              Failure to pay                      1              1                                1
              Misrepresentation                   1
           Solicitations                          1              1                                1
           Work at home                           2
           TOTAL                                15              11               4              10




PAGE 118    APPENDICES
ADMINISTRATIVE ACTIONS
Administrative Action requests                               21
Temporary Restraining Order requests                          0
Temporary Restraining Orders issued                           0
Civil Injunction (1345) requests                              1
Civil Injunctions (1345) issued                               1
Cases using Direct Purchase Authority                         0
Refusals of Direct Purchase Authority                         0
Civil penalties (Section 3012) imposed                        0
Expenditures incurred for:
  Test Purchases                                              0
  Expert Testimony                                            0
  Witness Travel                                              0
Withholding Mail Orders issued                               42
Voluntary Discontinuances                                   239


POSTAL SERVICE ADMINISTRATIVE SUBPOENA AUTHORITY
The Postal Service reports to the Office of Inspector General information on the number of cases
in which the Postal Service issued administrative subpoenas in connection with deceptive mail-
ing. The following section identifies the number and nature of cases in which the Postal Service
exercised this authority to request relevant business and associated records.
Case Number           Date Requested      Scheme
USPS-02-001           01/08/02            False Representations
USPS-02-002           01/29/02            False Representations
USPS-02-004           02/21/02            False Representations – Merchandise
USPS-02-005           03/04/02            Sweepstakes


FINANCIAL REPORTING ON INVESTIGATIVE ACTIVITIES
The Postal Service reports to the Office of Inspector General information related to the amount
of financial expenditures and obligations incurred pursuing the investigative activities of the
Postal Service. Information related to these activities is summarized below.
Type                                   Semi Annual Report
Personnel                                 $205,494,560
Nonpersonnel                               $34,668,272
Total Expenditures                        $240,162,832
Capital Obligations                         $7,533,617




                                                                                                   PAGE 119
           OTHER INVESTIGATIVE ACTIVITIES
           The Postal Service also reports to the Office of Inspector General additional information
           related to significant investigative activities and other investigative matters. This section
           outlines a number of significant investigative activities the Postal Service has initiated and is
           pursuing, to include the Mail Security Task Force and the Deceptive Mail Enforcement Team.
           Inspection Service and Office of Inspector General criminal statistical information is summa-
           rized in Appendix E.

           BIOTERRORISM THREATS
           During the reporting period, Postal Inspectors arrested 71 suspects for possible anthrax hoax or
           threat activity. The Postal Inspection Service received over 17,000 reports of anthrax threats,
           hoaxes, or suspicious letters or packages in the mail.

           MAIL SECURITY TASK FORCE
           The Postmaster General established the Mail Security Task Force in October 2001, and appoint-
           ed the Chief Postal Inspector to lead the team. The task force is committed to reducing the risks
           to the safety and security of postal employees and customers. The Steering Committee, compris-
           ing Postal Inspectors, senior level postal executives, and presidents of the labor unions and man-
           agement associations, meets on a regular basis. Seven working groups are contained within the
           task force including Mailroom Security, Contingency Planning System-Wide, Mail Preparation,
           Mail Screening, Communicating/Messaging, Safety and Security in the Workplace Environment,
           and Mail Transportation Security. All of the working groups have presented findings to the
           Steering Committee, which is in the process of issuing an interim status report.

           TRUSTED MAIL PROVIDER INITIATIVE
           The Trusted Mail Provider (TRUMP) concept was introduced during this reporting period. This
           initiative proposes the independent review of the mail security practices of private mailers by
           Postal Inspectors. It is designed to decrease the risk of a biohazard attack against the American
           public via the U.S. Mail. Private mailers account for approximately 85% of total mail. Several
           visits were made to mailers to gauge their acceptance of these reviews, and a risk assessment
           worksheet was created based on best mail security practices specifically adopted by the mailing
           industry and employee, cargo, and transportation security practices as identified by members of
           the American Society for Industrial Security. The goal is to encourage all private mailers to take
           adequate measures to protect the mail, deter or detect possible attacks, and fully support investi-
           gations. No special treatment is accorded Trusted Mail Provider mail, and no certification is
           given by the Postal Service or the Postal Inspection Service.

           INTERNATIONAL SECURITY GROUPS
           The Inspection Service is an active participant in two international groups focused on security. The
           International Security Group targets initiatives to improve the safety, security, and reliability of inter-
           national mail products for the U.S. Postal Service. The group also develops strategies and initiatives
           to improve quality of service and security of mail for the 189 member countries of the Universal
           Postal Union. The Postal Security Action Group of the Universal Postal Union focuses on problems
           and issues affecting the safety, security, and integrity of international communications products. This
           group is chaired by the Chief Postal Inspector.




PAGE 120   APPENDICES
2002 WINTER OLYMPICS SECURITY
The Postal Inspection Service was responsible for the safety and security of postal employees,
Postal Service assets, and Olympic mail during the 2002 Winter Olympic Games in Salt Lake City,
Utah, which ended February 24, 2002. Postal Inspectors screened mail before delivery to Olympic
venues and disseminated daily risk assessment reports. By the end of February, Inspectors had
screened, cleared, and delivered 51,091 pieces of mail. Postal Inspectors also worked with Utah
Olympic Public Safety Command, comprising 60 law enforcement agencies and representing the
largest domestic security operation in U.S. history. Inspectors were key members of the Joint
Terrorism Task Force and were instrumental in maintaining the security of Olympic visitors, par-
ticipants, and officials, as well as security for 4,000 postal employees and 200 post offices in Utah.

DECEPTIVE MAIL PREVENTION
The Deceptive Mail Prevention and Enforcement Act, which became effective April 12, 2000,
subjects violators to civil penalties in addition to Cease and Desist Orders and False
Representation Orders. To support this new law, the Postal Inspection Service created the
Deceptive Mail Enforcement Team to identify violators and ensure swift, appropriate, investiga-
tive attention. Questionable promotions identified by the team, as well as those received as con-
sumer complaints, are examined for compliance. During the reporting period, 90 promotions
were reviewed for possible violations, and 16 have been referred for preliminary investigative
attention.

INTERNET FRAUD PREVENTION
The Internet is teeming with schemes, and swindlers have learned how easy it is to exploit inno-
cent victims. Fraud on the Internet often results in mail fraud, as cyber scammers use the mail to
receive payments or ship items. As a result of the growing trend among fraudsters to use the
Internet, the Postal Inspection Service participates in a multi-federal project known as the
Internet Fraud Complaint Center, which was established by the Federal Bureau of Investigation
and National White Collar Crime Center. The project is aimed at stemming Internet fraud by
gathering, analyzing, and referring Internet complaints. The Internet Fraud Complaint Center
offers a central repository for complaints related to Internet fraud.




                                                                                                         PAGE 121
           DEFINITIONS OF SCHEME
           Advance fee. Obtaining fees purporting to secure buyers or obtain loans.
           Boiler room/Telemarketing. An office or suite of offices with banks of telephones and telephone
           solicitors who use high-pressure techniques to persuade consumers to respond to bogus offers.
           Contest/Sweepstakes. Schemes in which the respondent is required to pay a fee to obtain prizes
           of money, gifts or other items of value. "Prizes" are either never shipped or are inferior to what
           was promised.
           Employment. Soliciting money for information or assistance in obtaining nonexistent or misrep-
           resented jobs.
           Fraud - Internet Schemes. Fraudulent schemes using the Internet with a nexus to the mail.
           Medical. Sales by mail of misrepresented health products or services, including fraudulent med-
           ical degrees.
           Merchandise failure to pay. Mail order merchandise that is acquired without providing payment.
           Merchandise misrepresentation. Mail order merchandise or services are materially misrepresent-
           ed in advertising.
           Solicitations. Fraudulent solicitation of funds through the mail for alleged charitable, religious
           minority-oriented groups and similar causes or organizations.
           Work at home. Schemes, such as envelope stuffing, that do not provide home employment.




PAGE 122   APPENDICES
APPENDIX G

Closed Congressional and Board of
Governors Inquiries
For the period October 1, 2001, through March 31, 2002
This appendix lists the 85 Congressional and Governors inquiries the OIG closed during this
reporting period. The OIG reviewed these inquiries to help identify systemic issues and to
determine the need for future Postal-wide audits.


CONGRESSIONAL
PERFORMANCE
Requestor                  Allegations/Concern                                                    Response Date
Senator, Mississippi       Allegations of improper delivery of political post cards                 03-Oct-01
Representative, California Allegation of mail fraud                                                 18-Oct-01
Senator, California        Allegation of failure to deliver mail                                    18-Oct-01
Representative,            Request for investigation of a facility relocation                      08-Nov-01
Connecticut
Senator, Tennessee         Allegation that fuel policy is negatively impacting mail contractors    28-Nov-01
Senator, Nevada            Request for status of complaint on mail delivery problems                11-Feb-02
Representative,            Allegations of mismanagement and intentional mail delays                 01-Mar-02
North Carolina



FINANCIAL MANAGEMENT
Requestor                  Allegations/Concern                                                    Response Date
Senator, Florida           Allegations of misappropriations of funds, theft, and fraud              23-Oct-01
Senator, Iowa              Concerns over government charge card programs                           02-Nov-01
Senator, Louisiana         Request for investigation of misconduct by a contractor                 13-Nov-01
Representative, Illinois   Request for investigation of a contract selection process               19-Nov-01
Representative, Illinois   Request for investigation of a procurement                               03-Jan-02
Representative, New York Request for investigation of contract award                                03-Jan-02
Senator, Virginia          Allegation of improper contracting                                       14-Mar-02
Representative, Maryland   Allegation of fuel embezzlement and fraud                                28-Mar-02
Senator, Texas             Allegations of bribery                                                   28-Mar-02
Senator, Indiana           Allegation of improper contract award                                    29-Mar-02



LABOR MANAGEMENT
Requestor                  Allegations/Concern                                                    Response Date
Representative, Missouri   Allegations of continuing discrimination and retaliation                 03-Oct-01
Senator, Tennessee         Allegation of a hostile workplace environment                            03-Oct-01
Representative, Alabama    Allegations of harassment and retaliation for filing EEO complaints      04-Oct-01
Senator, Tennessee         Allegations of employment favoritism                                     10-Oct-01
Representative, Indiana    Allegation of improper termination                                       10-Oct-01
Senator, North Carolina    Allegation of improper termination                                       10-Oct-01
Representative, Texas      Request for information                                                  12-Oct-01
Senator, Tennessee         Allegations of management delaying mail delivery and                     17-Oct-01
                           unsafe working conditions
Representative,            Allegation of employee assault                                           19-Oct-01
Massachusetts
Representative, Ohio       Allegation of retaliation                                                30-Oct-01
                                                                                                                  PAGE 123
           Requestor                   Allegations/Concern                                                   Response Date
           Senator, California         Allegation of racial discrimination                                     30-Oct-01
           Senator, California         Allegation of discrimination                                            30-Oct-01
           Senator, Florida; and       Allegations of retaliation                                             02-Nov-01
           Representatives,
           Florida and New York
           Representative, Georgia     Allegation of improper wage rate paid to employee                      08-Nov-01
           Representative, Indiana     Allegations of unsafe work environment and waste                       13-Nov-01
           Representative, Indiana     Allegation of harassment by a supervisor                               23-Nov-01
           Representative, Ohio        Allegations of harassment by supervisors and failure to honor          26-Nov-01
                                       Equal Employment Opportunity agreement
           White House                 Allegations of harassment by supervisors                                10-Dec-01
           Senator, California         Allegation of improper personnel demotions                              19-Dec-01
           Representative, Illinois    Request for investigation of pay for performance program                27-Dec-01
           Representative, Indiana     Allegation of management falsification of safety records                31-Dec-01
           Senator, California         Allegations of discriminatory and arbitrary abolishment of              16-Jan-02
                                       positions and delays in mail delivery
           Senators, Mississippi and   Allegations of wrongful termination                                     17-Jan-02
           North Carolina
           Representative, Indiana     Allegation of abuse to disabled, injured, and female workers            05-Feb-02
           Representative,             Allegations of improper conduct by a supervisor                         11-Feb-02
           Pennsylvania
           Representative, New York Allegations of harassment and reprisal                                     25-Feb-02
           Senator, Tennessee          Improper use of temporary and rural carriers and denial of overtime     01-Mar-02
           Representative, California Allegation of denial of veteran’s preference                             06-Mar-02
           Representative, Louisiana   Allegation of improper use of light duty workers                        06-Mar-02
           Representative, Indiana     Request for assistance in seeking relocation                            14-Mar-02
           Representative, Texas       Allegations of managerial harassment                                    14-Mar-02
           Senator, Tennessee          Allegation that the Disabled Veterans Affirmative Action Program        21-Mar-02
                                       has not been implemented
           Senator, Tennessee          Allegation of reprisal                                                  21-Mar-02
           Senator, Maine              Request for review of sexual harassment                                 22-Mar-02
           Representative,             Request for report on actions taken at a Postal Service facility        26-Mar-02
           New Jersey
           Representative, California Allegations of employee violence by contractors                          28-Mar-02
           Representative,             Allegations of harassment by managers                                   28-Mar-02
           New Jersey
           Senator, California         Allegations of retaliation and worker’s compensation fraud              28-Mar-02
           Representative and          Allegations of racial discrimination and a hostile work environment     29-Mar-02
           Senator, Illinois
           Representative, New York Allegations of improper behavior, intimidation, violence and               29-Mar-02
                                    financial mismanagement



           OVERSIGHT OF INSPECTION SERVICE
           Requestor                   Allegations/Concern                                                   Response Date
           Senator, Tennessee          Allegation of improper investigation of mail and                        16-Oct-01
                                       paycheck tampering, and forgery
           Representative, New York Allegation of inspector receiving preferential treatment                   23-Oct-01
           Senator, Michigan           Allegation of improper investigation                                    06-Dec-01
           Senator, Pennsylvania       Allegations of abuse and misconduct by a Postal Inspector               19-Dec-01
           Representative, Florida     Two allegations that Postal Inspectors revealed the identity of         31-Dec-01
                                       whistleblowers and reprisals were taken against the whistleblowers
           Senator, Indiana            Allegation of harassment by a Postal Inspector                          29-Jan-02



PAGE 124    APPENDICES
OTHER SIGNIFICANT ISSUES
Requestor                  Allegations/Concern                                                Response Date
Representative, California Request for a review of a damage claim                               03-Oct-01
Representatives,           Requests for copy of OIG investigative report                        04-Oct-01
Pennsylvania and
New York;
Senator, Alabama
Senator, Indiana           Concerns about an OIG closeout letter                                12-Oct-01
Representative, Alaska     Allegation of OIG neglecting Freedom of Information Act requests     15-Oct-01
Senator, Massachusetts     Request for status of an OIG investigation                          13-Nov-01
Representative, Maryland   Concerns over OIG personnel decision                                28-Nov-01
Senator, Connecticut       Request for information on whether the OIG is in compliance with     14-Dec-01
                           the National Energy Conservation Policy Act
Senator, California        Allegation of identity theft through stolen mail                     27-Dec-01
Representative,            Request for assistance on status of damage claims                    07-Feb-02
Connecticut
Senator, Michigan          Request for assistance in obtaining documentation                    22-Feb-02
Senator, Tennessee         Request for status of an OIG investigation                           01-Mar-02
Representative, New York Allegation of retaliation for assisting OIG                            01-Mar-02
Representative, New York Inquiry regarding the status of a reward application                   21-Mar-02
Representative,            Request for review of a software package                             29-Mar-02
North Carolina



GOVERNORS
OTHER SIGNIFICANT ISSUES
Requestor                  Allegations/Concern                                                Response Date
Governor                   Request for copy of OIG investigative report                         04-Oct-01




                                                                                                              PAGE 125
Notes
                    ,




THIS PAGE TEARS OUT FOR YOUR CONVENIENCE
Notes
U.S. Postage Stamps
ISSUED FROM OCTOBER 1, 2001 THROUGH MARCH 31, 2002
PAGE
11 U.S. MILITARY ACADEMY - commemorates the academy’s inception
   at West Point 200 years ago and its alumni’s accomplishments.
15 WINTER SPORTS - features athletes depicting four popular sports of
   the 2002 Winter Olympic games.
22 HONORING HEROES OF SEPTEMBER 11 - new fundraising stamp
   features a detail photograph of three firefighters as they raised the U.S.
   flag at “ground zero”.
27 SANTAS - features four colorful chromolithographs of Santa Claus.
38 MOUNT MCKINLEY - features a photograph of Mount McKinley,
   located in Alaska’s Denali National Park and Preserve.
41 MENTORING A CHILD - conveys the benefits of mentoring.
50 LUNAR NEW YEAR - honors the Chinese New Year celebrated on
   February 12th.
52 JAMES MADISON - commemorative stamp marks the 250th
   anniversary of President James Madison’s birth.
60 HOLIDAY VIRGIN AND CHILD - features Madonna and child.
63 LEONARD BERNSTEIN - honors Leonard Bernstein for his
   contributions to the American music tradition.
66 WE GIVE THANKS - celebrates Thanksgiving.                                    ACKNOWLEDGEMENTS

67 NEUTER OR SPAY - features a neutered puppy (“Kirby”) and a spayed            This report represents the
   kitten (“Samantha”).                                                         outstanding efforts and
95 LANGSTON HUGHES - features writer/poet Langston Hughes, the                  accomplishments of OIG and
   stamp commemorates the 25th anniversary of the Postal Service’s Black
                                                                                Inspection Service staff. The
   Heritage series.
                                                                                production of this report would
97 ENRICO FERMI - commemorates the centenary of Enrico Fermi’s birth
   on September 29, 1901.                                                       not have been possible without
                                                                                the contributions and dedication
98 THAT’S ALL FOLKS - Porky Pig poses as a diligent U.S. mail carrier
   —mailbag and all—delivering a letter.                                        of the many OIG and Inspection
                                                                                Service staff who contributed to
                                                                                this effort, particularly, Felicia
                                                                                Hawthorne and Jim Nugent of
                                                                                the OIG; and Kenneth Newman
                                                                                of the Inspection Service.
OFFICE OF INSPECTOR GENERAL
        1735 N. Lynn Street
    Arlington, VA 22209-2020
          (703) 248-2300
       Fax: (703) 248-2291
     Internet: www.uspsoig.gov
